<html>
<title> - DANGEROUS PASSAGE: CENTRAL</title>
<body><pre>[Senate Hearing 113-645]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 113-645

                       DANGEROUS PASSAGE: CENTRAL
                    AMERICA IN CRISIS AND THE EXODUS
                        OF UNACCOMPANIED MINORS
=======================================================================



                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                     
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 17, 2014

                               __________

       Printed for the use of the Committee on Foreign Relations


      Available via the World Wide Web: http://www.gpo.gov/fdsys/



                                  ______
                                      
                     U.S. GOVERNMENT PUBLISHING OFFICE 

94-466 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          

                COMMITTEE ON FOREIGN RELATIONS         

             ROBERT MENENDEZ, New Jersey, Chairman        
BARBARA BOXER, California            BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
JEANNE SHAHEEN, New Hampshire        MARCO RUBIO, Florida
CHRISTOPHER A. COONS, Delaware       RON JOHNSON, Wisconsin
RICHARD J. DURBIN, Illinois          JEFF FLAKE, Arizona
TOM UDALL, New Mexico                JOHN McCAIN, Arizona
CHRISTOPHER MURPHY, Connecticut      JOHN BARRASSO, Wyoming
TIM KAINE, Virginia                  RAND PAUL, Kentucky
EDWARD J. MARKEY, Massachusetts
               Daniel E. O'Brien, Staff Director        
        Lester E. Munson III, Republican Staff Director        

                              (ii)        

  
                          C O N T E N T S

                              ----------                              
                                                                   Page

Arnson, Cynthia, director, Latin America Program, Woodrow Wilson 
  International Center for Scholars, Washington, DC..............    48
    Prepared statement...........................................    49
Corker, Hon. Bob, U.S. Senator from Tennessee....................     3
Johnson, Stephen, regional director, latin America and the 
  Caribbean, International Republican Institute, Washington, DC..    54
    Prepared statement...........................................    55
Menendez, Hon. Robert, U.S. Senator from New Jersey..............     1
Nazario, Sonia, author, Enrique's Journey, journalist, KIND board 
  member, Washington, DC.........................................    44
    Prepared statement...........................................    46
    ``Child Migrants, Alone in Court,'' by Sonia Nazario, New 
      York Times, April 10, 2013.................................    74
    ``The Children of the Drug Wars--A Refugee Crisis, Not an 
      Immigration Crisis,'' by Sonia Nazario, New York Times, 
      Sunday Review/Opinion, July 11, 2014.......................    76
Shannon, Jr., Hon. Thomas A., Counselor of the Department, U.S. 
  Department of State, Washington, DC............................     5
    Prepared statement...........................................     7
    Responses of Ambassador Thomas Shannon to questions submitted 
      by Senator Robert Menendez.................................    66
    Responses of Ambassador Thomas Shannon to questions submitted 
      by Senator Tom Udall.......................................    70
    Responses of Ambassador Thomas Shannon to questions submitted 
      by Senator John Barrasso...................................    71
Swartz, Bruce, Deputy Assistant Attorney General, Criminal 
  Division, U.S. Department of Justice, Washington, DC...........    10
    Prepared statement...........................................    12

              Additional Material Submitted for the Record

Statement submitted by AFL-CIO President Richard Trumka..........    74
Eligibility for Deferred Action, U.S. Department of Homeland 
  Security.......................................................    80
Few Children Are Deported, by Laura Meckler and Ana Compoy, Wall 
  Street Journal, July 11, 2014..................................    81
Number of Aliens Removed or Returned During the Bush and Obama 
  Administrations................................................    83
Statement submitted by Jana Mason, Senior Advisor for Government 
  Relations, United Nations High Commissioner for Refugees.......    84

                                 (iii)

  

 
                       DANGEROUS PASSAGE: CENTRAL

                    AMERICA IN CRISIS AND THE EXODUS

                        OF UNACCOMPANIED MINORS

                              ----------                              


                        THURSDAY, JULY 17, 2014

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:05 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Robert 
Menendez (chairman of the committee) presiding.
    Present: Senators Menendez, Boxer, Cardin, Durbin, Murphy, 
Kaine, Corker, Risch, Rubio, Johnson, Flake, McCain, and 
Barrasso.

          OPENING STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    The Chairman. Good morning. This hearing of the Senate 
Foreign Relations Committee will come to order.
    We are here today because we have a humanitarian crisis on 
our southern border--now a refugee crisis--which I would argue 
requires an emergency response domestically and the urgent 
recalibration of our foreign policy. Just as important that we 
address this refugee crisis, in my view, it is equally 
important that we do not rush to change our laws in a way that 
would strip these children of their rights to due process.
    In dealing with this crisis, it is imperative that we 
understand its root causes and why it is not about America 
putting out a welcome mat. It is about a desperate effort by 
desperate parents to do what any parent would do to protect 
their child from violence and the threat of death.
    We have with us two panels of experts who will help us 
fully understand the factors that have driven nearly 60,000 
unaccompanied children, in the past 5 months alone, to flee 
their countries and seek refuge in the United States.
    This past weekend, in a piece in the New York Times by 
Pulitzer Prize-winning author Sonia Nazario--who is on our 
second panel today--wrote about, among others, Cristian Omar 
Reyes, a sixth-grader. His father was murdered by gangs while 
working as a security guard. Three people he knows were 
murdered this year, four others were gunned down on a corner 
near his house in the first 2 weeks of the year. A girl his age 
was beaten, had a hole cut in her throat, her body left in a 
ravine across from his house. Cristian said, ``It is time to 
leave.''
    Or Carlos Baquedano, a 14-year-old who worked in a dump, 
picking scrap metal when he was a boy, making a dollar or two a 
day. When he was 9 years old, he barely escaped two drug 
traffickers who were trying to rape him. When he was 10, the 
drug traffickers pressured him to try drugs and join a gang. He 
has known eight people who were murdered, three killed in front 
of him. In one case, he watched as two hitmen brazenly shot two 
young brothers, execution-style.
    These stories are the tragic stories of life-changing 
experiences that too many children face in Central America 
every day, tens of thousands of children like Cristian and 
Carlos, whose stories are unknown, but no less tragic.
    For me, as someone who has closely followed Latin America 
for decades, the current crisis in Central America is no less 
shocking than for anyone else, but it does not come as a 
complete surprise. At the end of the civil wars that raged 
across Central America in the 1980s and 1990s, we did not pay 
enough attention, after the wars, to the region. We did not 
remain sufficiently engaged with our Central American 
neighbors. We did not work closely enough with them to address 
the structural problems of social and economic development or 
the societal violence that is fueling today's crisis.
    I have complained strongly and argued forcefully that the 
years of cuts to the region would come at our own peril. 
Besides the deep poverty, we have enormous challenges in 
Central America, where we have the confluence of major drug 
trafficking as a via to the United States, where we have gangs 
that have dramatically increased in El Salvador from 600 to 
40,000; then, of course, human traffickers, who take advantage 
of those set of circumstances. And the efforts that we failed 
to take end up now with the crisis on our southern border.
    Year after year, when we have reviewed budgets of this and 
past administrations, I have said that our constant cuts to 
Latin America and Central America will come at a price. And, 
unfortunately, in part, we are seeing that price today. So, we 
are going to spend $3.4 billion to deal with the consequences 
of the causes in Central America, but we will deal luckily--
luckily, because we have only spent $110 million in five 
Central American countries under this proposal, with $300 
million to deal with the core issues of citizen security, of 
combating the traffickers, of combating the drug cartels, of 
combating the gangs; $300 million-$3.4 billion. It would seem 
to me that, at some point, we will focus on the core problems 
so that we do not have the consequences in our country of the 
challenges of the deep issues that are facing Central America 
as it relates to citizen security.
    Although this hearing is about root causes and how we might 
deal with it, let me just take the moment, in personal 
privilege, of saying I oppose the changing of the existing law. 
There is a reason why that law was passed. It was passed to say 
that noncontiguous nations--if you are fleeing 2,000 miles to 
try to come to the United States, there may be a greater 
probability that you have a real case to be made for asylum, 
because you have a credible fear of the loss of your life, 
which, under our law, as I hear those who advocate for the rule 
of law--I agree--under our law, is very clear.
    Now, if you flee 2,000 miles and you were told by the 
gangs, ``Join or die,'' if you are raped and you flee 2,000 
miles not to ever experience that tragic and traumatic set of 
circumstances, you do not come with anything but the clothing 
on your back. And when you get here to the United States, you 
are going to need a reasonable period of time to be able to 
produce the facts to make that case. That does not come with 
you.
    And so, I understand the desire to accelerate the process, 
but accelerating without due process is not acceptable. I 
believe the law presently has a series of provisions in it that 
would give the administration the wherewithal to accelerate, 
but with due process.
    So, I support the efforts for the resources that are 
necessary to meet the challenge. But, by the same token, those 
who just have a different view about what this law was intended 
to do, which passed with broad bipartisan support in both 
houses of the Congress and signed by a Republican President, is 
not something that I, personally, can accept.
    Finally, I hope we will hear our panelists' views on the 
root causes of the problem, more broadly, the short- and long-
term strategies that will strengthen governance and the rule of 
law in these countries, restore public confidence in the 
affected justice systems and civilian police forces that 
dismantles the human smuggling networks bringing these children 
to our border, making sure that children and families deported 
from the United States--and there will be many under the 
existing law who will be deported, who will not have proven a 
credible case--receive sufficient attention and support when 
they arrive home, and how we can lay a strong foundation so 
that we can have citizen security in Central America so that we 
will not face the consequences and they will face a more 
prosperous future.
    And, with that, I would like to recognize the distinguished 
ranking member, Senator Corker.

                 STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    Senator Corker. Mr. Chairman, I want to thank you for 
having this hearing. And I know this is an issue that you feel 
very passionate about.
    I was glad to join you in the Senate-passed immigration 
bill. It was not a perfect bill, as any bill with 68 people 
supporting it is. Certainly, the immigration bill we passed out 
of the Senate, I am sure, can be improved, but I really do 
believe that the type of thing we are dealing with on the 
border now cries out for us, as a Congress, to deal with 
immigration reform. And I do hope that, at some point, we will 
do that.
    Now, you stressed some things in your opening statement, 
and I am going to stress some differing things in my opening 
statement. And my guess is that there are multiple veins of 
reasons as to why we are having this problem on the border. And 
it is my hope that, over the course of the next 2 or 3 weeks, 
that we will take into account all of those factors and put 
something in place that does solve this problem.
    So, I want to thank you for calling the hearing. I want to 
thank the witnesses for being here today and sharing their 
wisdom with us.
    And, as I mentioned, I hope we will be able to establish a 
common understanding of the current and recent past economic 
and security situations in Central America that are driving 
this. I hope we will identify what Mexico and Central American 
countries are being asked to do to address the flow of 
unaccompanied minors across their borders. And, finally, I hope 
we can identify the administration's strategic priorities for 
engaging Central American leaders in taking responsibility for 
addressing the region's problems in order to secure sustained 
economic growth.
    The immediate problem is at our borders, and it is our 
government's immediate responsibility to ensure the integrity 
of our borders. The ongoing migration crisis involving 
unaccompanied children is pushing our Border Patrol and Human 
Services personnel beyond their capacity to cope. The flow of 
unaccompanied children started to spike in 2012. Unlike in the 
past--and I think this is very important--when migrants sought 
to evade U.S. authorities, these migrants are turning 
themselves in, because they know they will not be immediately 
returned. This is a real change in the way the behavior is at 
the border. And I think it is something that we should focus 
on, in addition to the comments the Chairman made.
    Lawlessness and gang-related violence that targets the 
young certainly makes them want to leave Central America. The 
hope of joining family or getting an education and a better 
life are also powerful incentives to leave. But, levels of 
violence and lawlessness across Central America really are 
nothing new. Nothing much has changed in that regard. And yet, 
we have this huge influx that is occurring.
    Something else is clearly at play, here. Word of mouth and 
local news reports have spread about children being cared for 
by U.S. authorities, being connected with family already here, 
and being allowed to stay. A significant pull factor has 
developed, due to both the unintended consequences of current 
U.S. law, as well as the actual and perceived enforcement 
policies of the administration. It is highly likely that human 
traffickers are marketing this new way to get into the United 
States, which may also help account for the spike. United 
States, Mexican, Central American law enforcement efforts have 
been focused on counternarcotics operations and not this 
phenomenon.
    Post-9/11, U.S. attention was understandably focused 
elsewhere in the world, but we cannot afford to ignore the 
state of affairs in Central America. This migration crisis may 
well pass, but it will recur in one form or another. It calls 
attention to the need for the United States to craft and 
implement appropriate immigration policies to account for the 
clear unintended consequences of current law and its 
application by the administration, but also a proactive 
strategy to engage Central American leaders in taking 
responsibility for addressing the region's problems in order to 
secure sustained economic growth. Stabilizing the region is in 
the U.S. national interest. Moreover, as Mexico itself 
increasingly becomes a destination country for migrants, the 
strategy can and should be a regional partnership.
    So, with that, Mr. Chairman, thank you again. I look 
forward to the testimony and, hopefully, at least on this 
issue, a solution sometime soon in the United States Senate and 
Congress.
    Thank you.
    The Chairman. Well, thank you, Senator Corker. I do agree 
with you that, if the broad bipartisan immigration reform that 
had passed the United States Senate a year ago had been even 
taken up by the House of Representatives, that, while I will 
not say we would not have this problem, because root causes 
still exist, we would be better able to deal with the 
challenge, because the amendment that you authored with Senator 
Johanns ultimately dealt with border enforcement, trafficking, 
and a series of other critical issues that would have been 
helpful to us today. So, I appreciate your comments.
    Let me introduce our first panel: Thomas Shannon, the 
Counselor at the State Department--Ambassador Shannon has a 
long history in the hemisphere and knows very well some of 
these issues; and Bruce Swartz, the Deputy Assistant Attorney 
General for the Criminal Division of the Department of Justice.
    We appreciate both of you being here. Let me advise you 
both that your full statements will be included in the record, 
without objection. I would ask you to summarize them in about 5 
minutes or so, so that we can get into a Q&A.
    With that, we will start with you, Ambassador Shannon.

  STATEMENT OF HON. THOMAS A. SHANNON, JR., COUNSELOR OF THE 
      DEPARTMENT, U.S. DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Shannon. Mr. Chairman, Senator Corker, 
distinguished members of the committee, thank you for this 
opportunity to testify today. It is an honor to appear before 
you with my distinguished colleague from the Department of 
Justice, Bruce Swartz.
    If I might, I would also like to thank you, Mr. Chairman, 
and you, Senator Corker, for the tremendous work that you and 
your committee have done in moving ahead ambassadorial 
nominations. The recent confirmation of Jim Nealon as our 
Ambassador to Honduras was an important step forward in the 
region, enhanced our diplomatic presence. So, thank you very 
much for the tremendous effort you both have made and your 
committee has made.
    I am grateful for the opportunity to address the foreign 
policy implications and consequences of the surge in 
unaccompanied children along our southwest border. In my 
written testimony, I lay out our understanding of the challenge 
we face on our southwest border, the strategy we have devised 
to address it, our diplomatic engagement up to this point in 
regard to that challenge, and why quick approval of the 
President's supplemental budget request is important and 
necessary.
    As we consider the challenges posed by this migration of 
unaccompanied children, I would like to note the following.
    First, migration by unaccompanied children is not 
necessarily a new phenomenon along the frontier. What 
distinguishes this migration, however, and really what makes it 
unprecedented, is its size and its composition, as both the 
chairman and the ranking member have noted. What was 
historically a largely Mexican phenomenon is now a Central 
American phenomenon, and, in fact, it is concentrated on three 
countries, or three source countries: Guatemala, Honduras, and 
El Salvador. The implication, here, of course, is that the flip 
in the source countries of these unaccompanied children means 
that something dramatic is happening in these three countries 
and something is driving this migration.
    And, while the motives behind the migration are mixed, many 
being driven by traditional factors, such as family 
reunification and economic opportunity, underlying much of the 
migration is a fear of violence caused by criminal gangs. In 
other words, there is a significant push factor, here, for the 
migration coming from Central America and from these three 
countries. But, at the same time, as has been noted, this push 
factor is being exploited by traffickers whose understanding of 
U.S. law and U.S. practice has allowed them to market a certain 
approach to bringing unaccompanied children to the border, 
especially the idea of taking them only to the border and then 
turning them over to U.S. authorities, something which is new.
    The third point I would like to make is that the migration 
is regional. While much of it is directed toward the United 
States, the impact is really being felt throughout the region. 
The U.N. High Commission on Refugees has registered a 400-
percent increase in asylum requests in neighboring countries, 
which, from our point of view, means that, while most of the 
children are heading to the United States, largely because they 
have family already in the United States or networks of 
migration that they can plug into, those who, for whatever 
reason, are not going to the United States are still fleeing. 
They are just fleeing to other countries in the region.
    And fourth, as we devise a response, we know that our 
approach has to be regional, that it has to involve the source 
and the transit countries, but it also has to address those 
affected by this migration. In other words, we cannot solve 
this problem alone. We need to build partnerships.
    And again, I just came from Mexico. I was down on the 
Mexican frontier with Guatemala. And what is striking about 
this migration is that Mexico is now not only a source and a 
transit country of migration, but it is also a destination 
country, since many migrants are staying in Mexico, which means 
that Mexico is experiencing many of the problems that we have 
been experiencing over time with migration, and which means 
that we have a basis for a common understanding and approach on 
migration issues. But, also, Guatemala has become a transit 
country, as Hondurans and Salvadorans cross Guatemala. So, the 
mixing of purposes and relationships among the five countries 
that are both source, transit, and destination countries 
actually creates new opportunities for partnership.
    And through our diplomatic engagement in the region in 
fairly short time, I believe we have, first of all, fashioned a 
common understanding of the problem among the United States, 
Mexico, Guatemala, Honduras, and El Salvador. We have created a 
common public messaging campaign to counter the marketing 
tactics of the human smugglers, which we believe is beginning 
to have an impact. We have established new mechanisms of 
cooperation on immigration and border security with Mexico and 
Guatemala, which includes Mexico's recent announcement of a 
southern border initiative. And we have begun repatriations of 
adults with children. The first flight to Honduras has already 
happened, and we are working toward similar repatriations to 
Guatemala and El Salvador.
    As we engage with the Central Americans on the causes and 
drivers of this migration, we have an opportunity to build a 
comprehensive and integrated regional strategy. And the 
supplemental request of $300 million, as I have noted, is 
really a downpayment on that larger strategy.
    With that, sir, I conclude my remarks, and I look forward 
to your questions.
    [The prepared statement of Ambassador Shannon follows:]

           Prepared Statement of Ambassador Thomas A. Shannon

    Mr. Chairman, Mr. Ranking Member, distinguished members of the 
committee, thank you for this opportunity to testify before you on the 
``Crisis in Central America and the Exodus of Unaccompanied Minors.'' 
It is an honor to appear before you with my distinguished colleague 
from the Department of Justice.
    We are facing an acute crisis on our southern border, as tens of 
thousands of children leave Honduras, Guatemala, and El Salvador to 
travel through Mexico to the United States. Driven by a mixture of 
motives and circumstances, these children are seeking reunification 
with their parents, better life opportunities, and, in some cases, 
safety from violence and criminal gang activity.
    The human drama of this migration is heightened by the nefarious 
role of human smugglers. Smuggling networks exploit these children and 
their parents, preying on their desperation and hope, while exposing 
the children to grave dangers, abuse, and sometimes injury and death 
along a journey of more than 1 thousand miles.
    Last week, in testimony before the Senate Appropriations Committee, 
the Secretaries of Homeland Security and Health and Human Services laid 
out the dimensions of this crisis, and its impact on existing resources 
at the Department of Homeland Security, the Department of Health and 
Human Services, local law enforcement agencies, state humanitarian and 
disaster response teams, municipal and state government, and on local 
communities as they face an unprecedented surge in attempted migration 
to the United States by unaccompanied children, even as overall 
migration remains at historic lows.
    The President's supplemental budget request of $3.7 billion dollars 
is aimed at addressing this crisis, especially the resource and 
infrastructure challenges we have along our southern border. The need 
for additional funding to meet these challenges is great, but it is 
necessary to ensure that these children, an especially vulnerable class 
of migrant, are treated in a humane and dignified fashion as we protect 
our border, enforce our laws, and meet our international obligations.
    The supplemental request for the U.S. Department of State and USAID 
also identifies additional funding to address the factors that are 
pushing children from their homes in Guatemala, Honduras, and El 
Salvador. In tandem with existing resources and programs, this funding 
would allow us to enhance our engagement in Central America and fashion 
an integrated and comprehensive approach to the economic, social, and 
security challenges that lie behind the current migration crisis.
    In my testimony today, I would like to lay out for the committee 
our understanding of the crisis, the diplomatic steps we have taken so 
far to address the problem, the response we have received from the 
Central American countries and Mexico, and how we would use 
supplemental funding to counter the underlying causes of the crisis.
                               the issue
    Migration by unaccompanied children is not a new phenomenon. It has 
ebbed and flowed for some time. However, what has changed is the size 
of the migration and the source countries. In the past, most children 
migrating illegally to the United States were Mexican nationals. Under 
existing law, these children could be returned to Mexico through 
expedited removal. In 2008, we returned 34,083 unaccompanied (Mexican) 
children to Mexican authorities. Vigorous enforcement of our laws, new 
forms of law enforcement partnerships with Mexico through the Merida 
Initiative, and efforts by the Government of Mexico to address the 
factors driving such migration helped reduce by half the number of 
unaccompanied children from Mexico who were apprehended attempting to 
enter the United States.
    As you are well aware, this decline has been offset by a surge in 
unaccompanied children migrating from Central America. While we have 
witnessed an increase in such migrants from Central America over the 
past several years, more than 50,000 unaccompanied children from 
Central America have been apprehended along our southwest border this 
fiscal year. Of these migrants, nearly three-quarters are males between 
the ages of 15 and 17.
    Efforts by the U.S. Government, the United Nations High Commission 
of Refugees, and NGOs to understand the drivers of this migration and 
information collected in interviews conducted by Customs and Border 
Protection officials highlight the mixed motives behind this surge in 
Central American migration. For the most part, these children have 
abandoned their homes for a complex set of motives that combine a 
desire to be with their parents and pursue a life of greater 
opportunity and wider possibility. Underlying some of this migration is 
a fear of violence in their home communities, and a fear that criminal 
gangs will either forcibly recruit or harm them.
    In short, this migration trend is the product of economic and 
social conditions in Honduras, El Salvador, and Guatemala. A 
combination of poverty, ineffective public institutions, and crime have 
combined to push these children from their homes and to begin an 
arduous and dangerous journey.
    While the United States has been the primary destination of these 
migrants, largely because family members are already here, the impact 
of the migration has been felt throughout the region. The United 
Nations High Commission on Refugees has identified a more than 400-
percent increase in asylum requests made by unaccompanied children from 
Honduras, Guatemala, and El Salvador in neighboring countries.
    To address the challenge posed by the migration of unaccompanied 
children, we have fashioned a five-part strategy designed to stem the 
flow of migrants, screen them properly for international protection 
concerns, and then begin timely repatriation. This strategy consists 
of:

--One: Establishing a common understanding of what is happening and why 
    between the United States, the three source countries--Guatemala, 
    Honduras, and El Salvador--and the major transit country, Mexico.
--Two: Fashioning a common public messaging campaign to deter 
    migration, especially by children. This campaign highlights the 
    dangers of migration, but also counters misinformation of smugglers 
    seeking clients.
--Three: Improving the ability of Mexico and Guatemala to interdict 
    migrants before they cross into Mexico and enter the established 
    smuggling routes that move the migrants to our border.
--Four: Enhancing the capacity of Guatemala, Honduras, and El Salvador 
    to receive and reintegrate repatriated migrants to break the cycle 
    of migration and discourage further efforts at migration.
--Five: Addressing the underlying causes of migration of unaccompanied 
    children by focusing additional resources on economic and social 
    development, and enhancing our citizen security programs to reduce 
    violence, attack criminal gang structures, and reach out to at-risk 
    youth.

    This cooperative effort is defined by collaboration between the 
United States, Mexico, Guatemala, Honduras, and El Salvador. It is a 
new approach to address migration issues that reflects the ties and 
common interests created among our countries by demographics, trade 
relations, and increased security cooperation.
    So far, our diplomatic outreach has created a common understanding 
of the problem of migration by unaccompanied minors and the 
responsibility of all the countries to address it. President Obama's 
outreach to Mexican President Enrique Pena Nieto; Vice-President 
Biden's trip to Guatemala to meet with the leaders of Guatemala, El 
Salvador, and Honduras; Secretary Kerry's meeting with these leaders in 
Panama; DHS Secretary Johnson's trip to Guatemala to meet with 
President Perez Molina; Under Secretary of State Sarah Sewall's trip to 
Honduras; and my own engagement with the Foreign Ministers of 
Guatemala, El Salvador, Honduras, and Mexico were all part of intense 
engagement over the last several weeks.
    Our engagement has allowed us to fashion a common public message 
that has received support from the highest levels of government in 
Guatemala, Honduras, and El Salvador. For example, the visits of the 
First Ladies of these countries to the southern border to meet with 
unaccompanied children, and their subsequent public statements urging 
their compatriots not to send their children north or expose them to 
smugglers have echoed powerfully in their counties. Combined with 
public messaging campaigns by our Embassies, the governments of these 
countries and Mexico, we have helped create a new and dynamic debate 
about illegal migration that undermines efforts by smugglers to entice 
young people into migration through misinformation about the risks of 
the journey and the benefits they will supposedly receive in the United 
States.
    The July 7 announcement of Mexican President Pena Nieto of a new 
Mexican southern border strategy was a welcome step towards improving 
Mexico's ability to exercise greater control along its border with 
Guatemala and Belize. Announced in the presence of the Guatemalan 
President, this initiative is a manifestation of a new willingness to 
work together along their common border. To match this level of 
cooperation, we are working to provide support to Mexico's southern 
border initiative and intend to provide $86 million in existing 
International Narcotics Control and Law Enforcement (INCLE) funds, and 
we are working with Guatemala to improve its border controls, with 
special focus on building joint task forces that link all agencies with 
responsibility for border control. On July 15, the Government of Mexico 
named a coordinator for its Southern Border Initiative. Senator 
Humberto Mayans Cabral, head of the Senate's Southern Border 
Commission, will act as a ``czar'' to oversee and direct the Mexican 
Government's efforts to stem illegal migration across its southern 
border.
    In regard to repatriation and reintegration, Vice President Biden 
announced during his trip to Guatemala $9.6 million to improve the 
ability of the source countries to increase the number of repatriated 
migrants they can receive and assist in their reintegration. On July 9, 
DHS Secretary Johnson signed two memorandums of cooperation with the 
Guatemala counterpart. The first focuses on enhancing cooperation on 
immigration, border security, and information-sharing. The second 
provides a process to share information on Guatemalan nationals 
repatriated to Guatemala. On July 14, USAID provided approval to the 
International Organization for Migration to commence this work. On July 
14, Honduras received a repatriation flight of adults with children 
recently apprehended at the Southwest border.
    Our work in Mexico through the Merida Initiative, and in Central 
America through the Central America Regional Security Initiative 
(CARSI), has allowed us to build the relationships, understanding, and 
capacity to help the Central American source countries address 
underlying causes of migration by unaccompanied children. Our 
development assistance work conducted by USAID has also allowed us to 
build assistance partnerships that can be turned to helping our partner 
countries address the economic and social development issues that also 
contribute to migration.
                      keeping our strategic focus
    Our assistance to the seven countries of the region currently falls 
under the umbrella of CARSI. Since 2008, Congress has appropriated $642 
million on programs that have been predicated on the view that 
establishing a secure environment and functional law enforcement 
institutions is the first and essential step in creating conditions for 
investment and economic growth. We know thanks to a recent independent 
evaluation by Vanderbilt University that USAID's work with 
at-risk youth in select municipalities is highly successful in reducing 
crime and increasing the reporting of it. Likewise, the Department of 
State's Bureau of International Narcotics and Law Enforcement Affairs 
has demonstrated impressive results with its Model Police Precinct 
program in El Salvador and Guatemala. Still, those and other successful 
U.S. programs are relatively small in scale and should be scaled up 
with the committed involvement of the countries concerned.
    We have learned a lot since CARSI began in 2008, and we now seek to 
build on those experiences. Specifically, we need to link our work on 
citizen security with our efforts to promote economic growth, 
opportunity, and job creation. Without addressing the economic and 
social development challenges, we cannot meet the concerns and 
aspirations of the adolescents and young adults fleeing Central 
America. Many of the new proposals in the supplemental request are 
intended to create the opportunity and organization that Central 
American economies currently lack.
                        the supplemental request
    The supplemental request, although focused largely on addressing 
resource and infrastructure issues along our border, also has an 
important component focused on the work I have described and designed 
to be a downpayment on that new strategic objective. The $300 million 
request allocates $5 million on public diplomacy and messaging, and 
$295 million in Economic Support Funds (ESF) on an initiative broadly 
grouped under the headings of prosperity, governance, and security.
    The $125 million directed toward prosperity would focus on 
improving economic opportunity and creating jobs, improving customs and 
border controls to enhance revenue collection and economic integration, 
and investing in energy to reduce the cost and improve access to energy 
as a driver of economic growth and investment.
    The $70 million requested for governance would focus on improving 
public sector management, fiscal reform, and strengthening the 
independence, transparency, and accountability of the judiciaries in 
Guatemala, Honduras, and El Salvador. The purpose of these funds would 
be to promote rule of law, attack corruption, and enhance the 
efficiency and efficacy of government.
    The $100 million requested for security would focus on expanding 
community-based programs to reduce youth crime and violence, expand 
national police capacity, attack gangs and transnational organized 
crime, promote prison reform, and enhance migrant repatriation 
capacity. These funds would enhance our work with partners to expand 
and nationalize our citizen security efforts and address the violence 
that is one of the principal drivers of migration.
    We believe this request is reasonable and necessary. It builds on 
work we are already doing in Central America, takes advantage of 
existing expertise and experience, and expands our ability to encourage 
Guatemala, Honduras, and El Salvador to work with us closely on an 
issue of compelling human drama and national interest.
    Moving forward we hope to work with Congress to broaden the scope 
of our efforts and deepen our engagement with Central America. We must 
build a new, comprehensive, and collaborative approach with Central 
America and Mexico to problems that have an immediate manifestation in 
migration, but underlie the larger development and security challenges 
facing our closest neighbors. By working to meet the challenge of 
illegal migration of unaccompanied children to the United States, we 
will be advancing broader interests in the region and giving substance 
to our vision of an Americas where democracy and markets deliver 
economic and social development.
    I thank you for the opportunity to discuss the crisis of 
unaccompanied children with you and look forward to your questions.

    The Chairman. General Swartz.

 STATEMENT OF BRUCE SWARTZ, DEPUTY ASSISTANT ATTORNEY GENERAL, 
 CRIMINAL DIVISION, U.S. DEPARTMENT OF JUSTICE, WASHINGTON, DC

    Mr. Swartz. Chairman Menendez, Senator Corker, members of 
the committee, thank you for this opportunity to discuss, 
today, the Department of Justice's law enforcement response to 
the problem of unaccompanied children crossing illegally into 
the United States.
    The Department of Justice is, of course, bringing the full 
range of its authorities to bear on this problem; in 
particular, its immigration authorities. But, at the same time, 
we are also focusing our criminal justice authorities. And that 
response takes two forms: first, our own investigations and 
prosecutions within the United States; and, second, our work 
overseas to help build the law enforcement capacity of our 
partners in the source countries from which these children are 
coming.
    Let me turn, first, to our own law enforcement 
investigations and prosecutions. Our strategy in this regard 
has three prongs: it attacks the smugglers, the criminal gangs 
in the home countries of these individuals that prey upon them, 
and the cartels that exploit and profit upon the smuggling of 
these children through the territories they control.
    With regard to our smuggling work, we build on a long 
history of successful prosecution of smuggling organizations. 
We have done literally thousands of these cases, including 
complex international criminal smuggling groups. But, as 
Senator Corker has noted today, this presents a new type of 
smuggling and a new, more difficult issue, from a law 
enforcement perspective, since the smugglers do not have to 
cross the border, since the children are being encouraged 
simply to present themselves, and since our intelligence 
suggests that many of these smugglers are not operating in 
large-scale organizations, but, rather, in small groups. 
Nonetheless, we are committed to developing strategies to 
attack these smugglers through investigation and prosecution. 
And, to that end, Deputy Attorney General Cole met, last week, 
with U.S. attorneys on our southern border to push forward our 
strategic thinking in that regard.
    The second prong, as I mentioned, is our attack on the 
criminal gangs that prey on these children in their home 
countries and help spur their migration to the United States. 
In this context, our organized crime and gang section within 
the Department of Justice aggressively targets the leadership 
of MS-13, the 18th Street Gang, and other transnational 
criminal gangs that attack not only these children and their 
family members in those countries, but also pose a threat to 
the United States. And we have continued, and will continue, to 
bring such cases.
    The third prong, as I mentioned, is our attack on the 
cartels. The cartels, our intelligence suggests, profit by 
taxing these individuals, these children as they come through 
their territories, and by sometimes exploiting them as couriers 
or otherwise. Here, too, we, of course, have a strategy that 
looks not only at the high-value targets in these cartels, but 
also the full range of the enterprise. We also have disruption 
activities, including one last month led by DEA, bringing 
together Central American countries, that seek to stop the 
smuggling of all contraband.
    But, as has been noted, however, we cannot do this alone. 
And so, the second part of our criminal justice response is 
working to build the capacity of the countries from which these 
children are coming. And in that regard, we have both a short-
term and a long-term goal. The short-term goal is to build the 
kind of trusted partners, vetted units, within these countries 
that we can work with as our own law enforcement partners and 
that can also address the most serious violent crimes within 
those countries. The FBI, with State Department funding, has 
created transnational antigang units. DEA has created special 
investigative units. Homeland Security also has vetted units. 
These units create an important nucleus for prosecuting these 
cases within the countries with trusted prosecutors and police 
counterparts, and they help protect U.S. citizens, as well, by 
doing so.
    Our longer range strategy is to build the capacity of these 
countries across the criminal justice system, from 
investigations to prosecutions to prisons. And, in that 
context, we have two organizations within the Department of 
Justice dedicated to that task, our Overseas Prosecutorial 
Development Office, OPDAT, and our Criminal Justice Development 
Office, ICITAP. Our strategy in both of those cases is, with 
State Department support, to place, on a long-term basis, 
Federal prosecutors and senior law enforcement experts in those 
countries to work with their counterparts and to think through 
a systemic change to their justice systems.
    Here, too, we have had success in these countries. We have 
seen this work. We have seen it work in Colombia. We have seen 
it work in the Balkans. We have seen it work around the world. 
And thus, the Department of Justice strongly supports the 
supplemental funding request, here, which, among other things, 
would provide $7 million to allow the Department of Justice to 
increase its placement of prosecutors and of senior law 
enforcement experts to work with their counterparts in these 
source countries, and to help reduce the violence that serves 
as one of the drivers for the crisis that we face today.
    Thank you. I look forward to your questions.
    [The prepared statement of Mr. Swartz follows:]

                   Prepared Statement of Bruce Swartz

    Good afternoon, Chairman Menendez, Ranking Member Corker, and 
members of the committee. Thank you for the opportunity to appear 
before the committee today to discuss the Department of Justice's law 
enforcement efforts to address the humanitarian challenge created by 
unaccompanied children who lack lawful status that are crossing into 
the United States through our southern border with Mexico. I also 
particularly want to thank the Chair for holding this hearing and for 
his continued leadership on this important issue.
    As Attorney General Holder has noted, how we address the issues 
associated with unaccompanied children goes to the core of who we are 
as a nation. The Department of Justice is, therefore, committed to 
working with our interagency and international partners to find humane, 
durable solutions to this pressing problem. My colleagues from the 
Department of Justice have testified in other hearings regarding the 
steps that the Department is taking to address this problem from an 
immigration law perspective. Among other steps, the Department is 
increasing the number of immigration judges assigned to conduct 
hearings and prioritizing adjudication of cases that fall into the 
following four groups: unaccompanied children; families in detention; 
families released on ``alternatives to detention''; and other detained 
cases.
    At today's hearing, however, I will focus on the Justice 
Department's law enforcement steps we are taking to address this issue. 
Our actions in this regard fall into two categories: (1) investigation 
and prosecution of those who are facilitating the illegal entry of 
unaccompanied children into the United States and those who are preying 
upon those children; and (2) work with our foreign counterparts to help 
build their capacity to address the crime and violence that can serve 
as potential catalysts for the flow of these children to the United 
States.
                    investigations and prosecutions
    The Department of Justice has a long history of investigating and 
prosecuting human smugglers. Recent cases include that of Joel 
Mazariegos-Soto, a leader of a human smuggling organization, who was 
prosecuted in the District of Arizona, and sentenced to 60 months in 
prison for his role in operating an illegal human smuggling 
organization. Mazariegos-Soto and his associates utilized multiple 
stash houses in the Phoenix area, including one--discovered by agents 
with the U.S. Immigration and Customs Enforcement Homeland Security 
Investigations (HSI) in October 2012--containing over 27 unauthorized 
immigrants, and another--found in January 2013--with over 40 
unauthorized immigrants.
    Similarly, in the Southern District of Texas, an individual named 
Lenyn Acosta was recently prosecuted and sentenced to 97 months in 
federal prison for his role in a conspiracy to transport or harbor 
unauthorized immigrants present in the country. Acosta was the 
organizer and leader of a conspiracy involving hundreds of undocumented 
immigrants, including juveniles. He also caused serious bodily injury 
to a female unauthorized immigrant he harbored by sexually assaulting 
her, demonstrating the sort of dangers faced by those persons being 
smuggled into the United States.
    The Department of Justice also recently secured the extradition 
from Morocco of an individual named Habtom Merhay, a national of 
Eritrea and a citizen of the United Kingdom, who will now stand trial 
in Washington, DC, for human smuggling charges related to his alleged 
role in smuggling primarily Eritrean and Ethiopian undocumented 
migrants from the Middle East, through South and Central America and 
Mexico into the United States.
    These cases are just a few examples but are emblematic of the work 
of federal prosecutors and law enforcement agents who enforce our 
Nation's immigration laws. But we now face a new type of human 
smuggling. In contrast to the typical smuggling case, there is no 
effort to hide these children from the U.S. Customs and Border 
Protection (CBP) officials stationed along the borders. To the 
contrary, the smugglers of these children essentially have to do 
nothing more than transport them to the vicinity of the border and 
instruct them to approach the CBP. Thus, the smuggler need never enter 
the U.S., thereby limiting the possibility that he or she will be 
arrested by U.S. authorities. The difficulties in effectively 
investigating and prosecuting these cases are compounded by their 
transnational nature. Notably, the majority of the planning and 
activity associated with these crimes occur in one or more foreign 
countries--and outside the ordinary investigative reach of U.S. 
authorities. Moreover, while human smuggling organizations are clearly 
participating in the movement of families and unaccompanied children to 
the U.S. border, there are also indications that a significant part of 
the movement of children and families from Central America may be 
unstructured, relying on informal contacts and individuals who are 
opportunistically assisting the migrants in return for payment. This 
makes the problem of unaccompanied children particularly difficult to 
attack through investigation and prosecution, because many of the 
individuals assisting the children may not be part of any large-scale 
criminal organization.
    Nonetheless, the Department of Justice is working collaboratively 
with the Department of Homeland Security (DHS) to facilitate 
investigations that may lead to prosecutions of those responsible for 
the illegal entry of minors into the United States. Among other things, 
we are working with our foreign counterparts to encourage them to 
target facilitators operating in their countries.
    Additionally, we are encouraging disruption strategies in Central 
American countries that will make cross-border smuggling--whether of 
drugs people, or contraband--more difficult, by targeting the cartels 
that may exploit the children being smuggled, or who may impose 
``taxes'' on human smugglers who wish to use the cartels' smuggling 
routes.
    The Drug Enforcement Administration (DEA), for instance, has led 
disruption efforts in Central America and Mexico, such as Operation 
Fronteras Unidas--an operation designed to detect, disrupt, and 
dismantle drug trafficking organizations (DTOs) involved in the land-
based smuggling of illicit substances, precursor chemicals and bulk 
cash throughout Mexico and Central America. This operation was intended 
to help strengthen communication and coordination within the region and 
assist in identifying the key land-based transportation routes and 
methods utilized by the DTO's throughout Central America and Mexico and 
to support ongoing investigations and prosecutions in the U.S. and 
Central American countries.
    During May 2014, Operation Fronteras Unidas was supported by 
personnel from Mexico and seven Central American countries. This 
included 523 host nation personnel who focused resources at 24 
checkpoints throughout the region. As a result, Operation Fronteras 
Unidas yielded seizures of 1,512 kilograms of cocaine; 516 pounds of 
marijuana; 367 grams of crack cocaine; $334,585 in cash; 1 assault 
rifle, 1 handgun and 1 grenade; 54 drug-related arrests and 5 arrests 
on human smuggling charges during the 10 day action. Such successful 
initiatives demonstrate that international collaboration against 
complex transnational issues is possible.
    The Department of Justice also continues to prosecute gang-related 
crimes related to Central America, thus working to address one of the 
root causes of the instability in these countries that helps drive this 
crisis. Since 2007, the Justice Department's Organized Crime and Gang 
Section (OCGS), in conjunction with our U.S. Attorney Offices (USAOs), 
in cases investigated by the FBI, ATF, and ICE/HSI, has aggressively 
pursued transnational violent gangs headquartered in Central America. 
For example, OCGS, in conjunction with our USAOs, has prosecuted 
complex racketeering indictments against the national and international 
leadership of the notorious international street gang La Mara 
Salvatrucha, or MS-13. OCGS and the USAOs, together with their law 
enforcement partners have successfully secured convictions for 
racketeering offenses, murder, kidnapping, sexual assaults, and 
narcotics and weapons trafficking, and have secured life sentences and, 
in one instance, the death penalty, against the worst offenders of the 
gang in the United States. Significantly, several of these cases have 
not only targeted regional or national leadership of MS-13, but also 
have included indictments of the gang's leaders in El Salvador who have 
orchestrated criminal conduct in the United States from their jail 
cells in El Salvador.
    At the same time, we are continuing to consider alternative 
investigative and prosecutorial strategies. The Department is 
redoubling its efforts to work with Mexican and Central American 
authorities to identify and apprehend smugglers who are aiding 
unaccompanied children in crossing the United States border. The Deputy 
Attorney General met last week with the five U.S. attorneys whose 
districts lie on our Southern Border to discuss strategies for 
disrupting and dismantling criminal organizations that smuggle migrants 
into the United States.
                           capacity building
    At the same time that we are using the criminal justice process in 
the United States to address the problem of unaccompanied children 
crossing our southern border, we are also committed to helping build 
the capacity of our foreign counterparts to address the violence--
particularly the gang violence--that can serve to encourage migration. 
This violence can be addressed by a sustained commitment to law 
enforcement reform by the Central American countries from which these 
minors are fleeing. Where a country has made such a commitment, the 
Department of Justice has demonstrated its willingness to assist 
through exchanges of expertise. The Department of Justice, however, 
does not receive appropriations for overseas capacity-building. 
Instead, we look primarily to the U.S. Department of State and the U.S. 
Agency for International Development (USAID), as the lead U.S. 
Government agencies for foreign assistance, for funding for our 
overseas security sector assistance work. We ask you to support the 
administration's full supplemental request.
    With regard to capacity-building, the Justice Department's main 
efforts are through our constituent law enforcement agencies--the FBI, 
DEA, USMS, and ATF--and two offices within the Department solely 
dedicated to overseas security sector work: the International Criminal 
Investigative Training Assistance Program (ICITAP) and the Office of 
Overseas Prosecutorial Development, Assistance and Training (OPDAT), 
both of which are located in the Criminal Division of the U.S. 
Department of Justice. Both OPDAT and ICITAP are tasked with furthering 
U.S. Government and DOJ interests abroad through programs related to 
the criminal justice system. With State Department approval and 
funding, OPDAT and ICITAP can place federal prosecutors, and senior law 
enforcement officers, as long-term resident advisors in countries 
seeking to reform their laws as well as their investigative, 
prosecutorial, and correctional services.
    Within the region, the Department currently has OPDAT prosecutorial 
Resident Legal Advisors (RLAs) in Mexico, El Salvador, and Honduras. 
Mexico is by far our most robust program. There, OPDAT and ICITAP are 
supporting Mexico's decision to make a transition from an inquisitorial 
system to an accusatory one, and are working collaboratively with 
Mexican prosecutors, investigators, and forensic experts, including on 
specialized programs in the areas of money laundering and asset 
forfeiture, intellectual property, evidence preservation, and 
extraditions. ODPAT has also worked closely with the Government of 
Mexico and the U.S. Marshals Service on Witness Protection issues.
    In that regard, the RLA in Honduras has provided technical 
assistance and mentoring to Honduran police and prosecutors on complex 
investigations, specifically emphasizing the investigation of human 
smuggling organizations. He has worked to establish better 
communication between law enforcement and prosecutors regarding 
enforcement actions on the border, ensuring cases involving human 
smugglers are properly handled to ensure successful prosecutions; and 
is creating a team of human trafficking prosecutors and organized crime 
prosecutors that can respond when needed anywhere in Honduras on short 
notice. In addition, the RLA has led efforts to coordinate 
antismuggling efforts among Honduras, El Salvador, and Guatemala. 
Similarly, in Mexico, the TIP-RLA has worked with counterparts to focus 
on vulnerable minors, and on cross-border criminal conduct; this, too, 
provides a basis for enhanced antismuggling efforts. More generally, 
our ICITAP advisors also provide essential collaborative support that 
enhances the investigative capabilities of our law enforcement 
counterparts, including with regard to investigating smuggling 
organizations. In Mexico, ICITAP provides organizational and capacity-
building support to the Federal Ministerial Police (PFM or the 
investigative function of the Attorney General's Office). ICITAP also 
supports the establishment of a national framework for professional 
standards and training as well as a nationwide sustainable training 
system for crime scene first responders.
    In El Salvador, the State Department has charged both OPDAT and 
ICITAP to assist the Salvadoran Government to achieve economic growth 
by: first, reducing the impact of organized crime on small and medium 
businesses, whose contribution to growth is key to the economic well-
being of El Salvador; second, ensuring El Salvador's labor force is 
protected from crime while transiting to and from work; and third, 
ensuring that public transportation service providers serving the labor 
force are protected from crime. Through such efforts, the Department of 
Justice helps to address the violence that undercuts economic growth, 
and spurs immigration.
    With Department of State funding, our law enforcement agencies also 
have helped to increase capacity to address violent crime in the 
region. The FBI has created Transnational Anti-Gang (TAG) Units to 
combine the expertise, resources, and jurisdiction of participating 
agencies involved in investigating and countering transnational 
criminal gang activity in the U.S. and Central America. These groups--
headed by FBI agents who lead vetted teams of national police and 
prosecutors in El Salvador, Guatemala, and Honduras--coordinate with 
FBI Legal Attaches assigned to those regions and with the Bureau's 
International Operations Division.
    In the past 2 years, TAG El Salvador has located and captured two 
FBI top 10 most-wanted fugitives, both of whom were gang members. These 
fugitives are now in the U.S. and are awaiting trial. TAG El Salvador 
is currently working on multiple MS-13 or 18th Street gang 
investigations tied to the following FBI Offices: Newark, Boston, Los 
Angeles, and Washington Field. In addition to gang investigations, TAG 
Guatemala has located and captured nine U.S. fugitives wanted for 
charges including murder, sexual assault, and financial fraud. These 
fugitives have been extradited, or are awaiting extradition, to the 
United States for trial.
    In addition to combating transnational gangs such as the MS-13 and 
18th Street gangs, the TAGs assist domestic FBI and other federal, 
state, and local law enforcement agencies conducting gang 
investigations involving Salvadoran, Guatemalan, and Honduran nationals 
engaged in criminal activity within the United States. The TAGs also 
provide gang investigation training in the Central American region to 
the national police forces, as well as prison employees within the host 
nation. TAG members have also provided gang training in the U.S., as 
well as in Mexico and other Latin American countries.
    Lastly, the TAGs have been extremely successful in investigating, 
indicting, and prosecuting MS-13 and 18th Street members in each of the 
host countries who were responsible for conducting extortions and other 
criminal activity affecting the United States and/or Central American 
countries.
    Similarly, the DEA has formed cooperative partnerships with foreign 
nations to help them to develop more self-sufficient, effective drug 
law enforcement programs, and so to reduce violence. Since its 
inception in 1997, the Drug Enforcement Administration's (DEA) 
Sensitive Investigative Unit (SIU) program has successfully supported 
host-nation vetted programs. These programs are implemented with the 
assistance of the Department of State using operations funding 
appropriated to DEA. The SIU program selects only the best host-nation 
law enforcement officers, who receive 5 weeks of basic investigative 
training at DEA's training facility in Quantico, VA, before being 
assigned an in-country DEA Special Agent mentor. Once a member of an 
SIU, host country personnel become part of a select investigative team 
whose primary focus is to target the highest level criminal drug 
traffickers, DEA's Consolidated Priority Organization Targets (CPOTs).
    The administration has proposed a supplemental funding request for 
FY 2014 of $295 million in Economic Support Funds for State and USAID 
to address the situation at our Southern border. Of the $295 million in 
Economic Support Funds for State and USAID, $7 million would be 
transferred to DOJ to support the wide range of DOJ programs in the 
region, including vetted units, Regional Legal Advisors, and Senior Law 
Enforcement Advisors. This funding will allow DOJ to assist Central 
American countries in combating transnational crime and the threat 
posed by criminal gangs. The aim is to address the issues that have 
been a factor in forcing many migrants to flee Central America for the 
United States. We ask that you support the administration's request for 
the Department of State so that the administration can continue robust 
foreign engagement with the region and we hope that, working with the 
Department of State, we can continue and enhance our effort.
    Specifically, the funding for DOJ would provide legal and law 
enforcement advisors for El Salvador, Guatemala, and Honduras and allow 
the Department to initiate law enforcement and prosecution training 
programs in each of the three countries to build capacities to 
effectively handle ongoing complex investigations, emphasizing the 
investigation of human smuggling organizations; improve communication 
between law enforcement and prosecutors regarding enforcement actions 
on the border, particularly in cases involving human smugglers; and 
help create teams of human trafficking prosecutors and organized crime 
prosecutors who could respond when needed on short notice.
                               conclusion
    I very much appreciate the opportunity to discuss with you the ways 
in which the Department of Justice is dedicated to addressing the many 
challenges associated with unaccompanied minors illegally entering the 
United States. Those challenges, which are shared by the numerous other 
federal agencies charged with enforcing our Nation's immigration laws 
and securing our borders, can be overcome--but to do so will require 
the dedication of necessary resources. There are no quick or easy fixes 
to this problem. The Department of Justice, however, is committed to 
using the full range of investigative tools and laws available to us to 
enforce U.S. immigration laws and to investigate and prosecute those 
engaged in smuggling vulnerable children to this country. In addition, 
we are prepared to help provide international partners with the means 
to address human smuggling and issues related to unaccompanied minors 
well before those problems have reached the borders of the United 
States.
    Thank you for the opportunity to discuss the Department's work in 
this area, and I look forward to answering any questions you might 
have.

    The Chairman. Well, thank you both for your testimony.
    Let me ask you, Ambassador Shannon. In the President's $3.7 
billion supplemental request, less than 10 percent of the 
funding is destined to address the root causes of the current 
refugee crisis. In addition, at the same time that the 
supplemental comes, the administration proposed a 20-percent 
cut in FY15 to its Central American Regional Security 
Initiative. So, I am trying to understand how we will spend 
billions to deal with the consequences, but we are presented 
with a 20-percent cut in a Central American Regional Security 
Initiative. Can you explain to me how that makes the right 
policy sense for us?
    Ambassador Shannon. Thank you very much for the question, 
and it is a good one, and I think it goes to the heart of the 
challenge we face.
    The 20-percent cut was the product of a larger budget 
request in a constrained budget environment in which we had to 
balance a variety of competing demands. Obviously, in light of 
what is happening right now, we need that 20 percent back, and 
we need much more of it.
    And the supplemental budget request is a two-part request. 
And, as you know, the largest part of it goes to DHS and HHS 
for law enforcement and for human services in relationship to 
this crisis. And it is a considerable amount of money, 
obviously, but it is in response to the immediacy of the crisis 
on our border, and the presence of a significant number of 
people on that border, and the need to process them and 
determine whether or not they have protection----
    The Chairman. I am with you on the supplemental, although I 
might structure it a little differently. But, nonetheless, I am 
with you on the supplemental. I get it. We have a crisis, we 
have to deal with it. I said that to the President.
    But, we will have a continuing crisis if we do not begin to 
deal with the root causes, the opportunity to vet units that 
are both police enforcement as well as prosecutorial 
opportunities, if we do not use our intelligence integrated on 
the drug traffickers within the region, if we do not help them 
fight against the gangs that are heavily armed.
    And that is not just about being a good neighbor to Central 
America. That is in our own national security interests. 
Because where do we think the drugs are headed? Where is the 
demand? Here. Where do we think the traffickers want to take 
it? Here. Where do the gangs ultimately, in part, derive in 
synergy their resources? There, through that process.
    So, it is in our own national security interests. And this 
is what I have been trying to be saying for years, and I hope 
that we will see a change of course, both by the administration 
and by the Congress, who shares blame, because no one has been 
paying attention to what is happening in the hemisphere in a 
way that understands, in our own front yard, in our own 
national interest. So, I hope that this becomes a defining and 
galvanizing moment for us to be thinking in policy in a 
different way.
    Now, much has been said by some quarters about the pull 
factor of such actions as deferred action. Is it not true that 
deferred action would not give anyone who comes now or who has 
come in the last year any access to any adjustment of status in 
this country?
    Ambassador Shannon. That is my understanding, correct.
    The Chairman. Now, is it not also true that even the 
immigration law passed by the United States Senate that had a 
date of December 2011, you had to physically be in the country? 
That would not give anybody who comes subsequently any status 
or any eligibility or any cause of right, other than maybe 
through asylum, to come to the United States and receive the 
opportunity to stay. Is that true?
    Ambassador Shannon. That is my understanding.
    The Chairman. Would that be true, Mr. Swartz?
    Mr. Swartz. Yes, Mr. Chairman, that is my understanding, as 
well.
    The Chairman. Now, you know, I look at the continuing 
argument that we just have pull factors, here, and people seem 
to be blind to the violence factors, but it seems to me that 
violence is a large part. I am sure that there is a universe of 
children who may have a parent here, or other relative, and 
want to be reunited. They will not have a legitimate claim, and 
they will ultimately be deported. But, it seems to me that 
there is a fair number of children who are ultimately fleeing 
violence. Because if that is not one of the driving factors of 
this crisis, why are we not seeing the same pull factors of 
children coming from other Central American countries outside 
of these three, and others in the region?
    Ambassador Shannon. As we interview the children as they 
come across our border, as they are apprehended by Border 
Patrol--really, as they turn themselves in to Border Patrol--
and as others interview children in other countries in the 
region, it is evident that, like all migration, there are mixed 
motives, here, as I note in my testimony, but an underlying 
theme is the violence. In fact, if we overlay, on maps, where 
many of these children are coming from, and where gang violence 
and drug cartel presence is the strongest, they largely lie one 
on top of the other.
    The Chairman. Now, some of my colleagues have called for 
cutting off all assistance to the Governments of Guatemala, El 
Salvador, and Honduras if they do not ``do more.'' And I 
believe that these governments have a responsibility. I shared 
that with the three ambassadors from those countries in a 
recent private meeting I had with them. I have shared that with 
some of their heads of state as I have moved throughout the 
region. But, it is important to point out that, in Guatemala--
and correct me if I am wrong on these, or if you have any 
additional information--the First Lady of Guatemala launched a 
massive media campaign urging children not to migrate, and 
President Perez's party in the Guatemalan Congress presented 
legislation to increase penalties and efforts to combat human 
smuggling more effectively.
    In Honduras, the government has moved one of its elite 
police units, which received training through State Department 
programs, to the border to turn back children seeking to flee 
the country. And the First Lady has also played a prominent 
role, in terms of public messaging.
    I understand that there is a new agreement signed between 
the Governments of Guatemala and Mexico with reference to the 
border security between their two respective countries, and 
that there is in the offing some similar agreements and 
decisions by the Mexican Government, in addition to those 
bilateral agreements, to move resources and to pursue an 
elimination of those who seek to ride the train of death and to 
look at interior enforcement.
    Is that information that I am gleaning publicly, is that 
correct information, or is it wrong? And, if it is right, is 
there anything else that I have missed that is happening?
    Ambassador Shannon. It is correct, sir. The efforts by the 
Central American governments, especially the First Ladies, to 
work with us on a larger public messaging campaign to highlight 
the dangers of illegal migration northwards, especially for 
unaccompanied children, has been welcomed by us. And what we 
are being able to do through this public messaging campaign is 
change the dynamic of the migration debate in the region. 
Because, previously, when migration was largely men going 
forward to the United States looking for work, this was seen as 
something that was not immediately evident or important to the 
source countries. But, now that the faces of these migrants are 
unaccompanied children, it has created a political dynamic that 
these countries must respond to. And they are responding to 
them. And visits to our southwest border by the First Ladies of 
Guatemala and Honduras, and their efforts to work with their 
own governments to promote public messaging, has been a very 
important part of our larger campaign.
    Mexico has also begun to engage with us in a very helpful 
way, and its Southern Border Initiative, which is what you were 
referring to--it was announced by President Pena Nieto, on 
Mexico's southern border with Guatemala, in the presence of the 
Guatemalan President, has also established a tiered system of 
interdiction that will help manage the flow of migrants across 
those borders, separating out the legal migrants who work in 
that border area, but then attempting to interdict illegal 
migrants who are heading north. Because, as I noted earlier, 
Mexico, while a transit country, is also becoming a destination 
country, and it is finding that many of the Central American 
migrants moving north are actually staying in Mexico, either 
because they are seeking work or because they are being 
recruited by cartels as they move through some of the more 
conflictive zones of Mexico.
    So, what we are seeing is, as we fashion a common 
understanding of the problem and fashion common strategies, a 
new opportunity for partnerships, with Mexico in particular, 
but also with Guatemala, El Salvador, and Honduras, that are 
going to put us in a position to better deal with this problem.
    The Chairman. Thank you very much.
    Senator Corker.
    Senator Corker. Thank you, Mr. Chairman.
    And thank you both for being here.
    I want to begin with the phenomenon that is occurred. We 
had a extensive debate last year on border security as part of 
immigration reform, and one of the things that was focused on 
was the effectiveness of border control. And there was this 
whole issue of sign-cutting, okay, where, basically, the border 
control agents would try to determine how many people had 
actually come across the border, because we could not detect 
all the people who were coming. And, as a result of not getting 
to any kind of scientific, if you will, way of resolving that, 
we ended up with the border control amendment, that the 
chairman mentioned earlier, which just said what we were going 
to do.
    What has changed? I mean, the big issue with border control 
was, we did not feel like we had any idea of who was really 
coming across, because they were trying to avoid the 
authorities. Now all of a sudden, 12 months later, they are 
trying to turn themselves in to authorities. So, just tell me 
what has happened in the last 12 months that has, 180 degrees, 
changed the behavior of people who are coming into our country.
    Ambassador Shannon. Well, that is the big question, sir, 
and it is the one that we have been struggling with. And as we 
interview the migrants coming across and as we engage with our 
partners, our primary purpose is to understand the drivers and 
the networks that are moving these people. And, as you noted in 
your opening remarks, the marketing being used by smugglers has 
played an important role in the unaccompanied minors.
    Senator Corker. Yes. Look, I had a nice conversation with 
you, right prior to this, and I appreciate it. I just want to 
know, though--I mean, unless we answer that question----
    Ambassador Shannon. Yes.
    Senator Corker [continuing]. We are not going to--so, I got 
some of the background stuff, but----
    Ambassador Shannon. Right.
    Senator Corker [continuing]. That phenomenon of people 
coming into our country and, instead of avoiding the 
authorities, turning themselves in, you have got to have some 
gut instinct as to what is driving that. What is it?
    Ambassador Shannon. Well, the smugglers know what happens 
along the frontier when the children present themselves to 
Border Patrol officers. They know they will be taken into 
custody, and they know they will be turned over to HHS. What we 
have tried to highlight in our public messaging is that the 
process does not end there, that the children will then go into 
deportation proceedings. And, for those who are determined not 
to have a protection need, they will be deported. And that has 
been absent from the smugglers' marketing strategy.
    But, what happens along that frontier is understood by the 
smugglers, and this is one of the reasons they have been 
successful in marketing this kind of smuggling.
    Senator Corker. So, addressing that policy issue certainly 
needs to be a part of what we are doing.
    So, let me--Jay Johnson presented to a large group of 
Senators yesterday--I found his presentation, other than 
quoting my friend, Senator McCain, was very lucid, and I 
thought he did a very good job laying out--John, that was a 
joke--other than laying out, you know--I thought he laid out 
the problem very, very well. One of the things he talked about, 
though, that I think is correct, is that four-sevenths of the 
people that are actually coming in are now--they are adults. I 
mean, we are focused on this children issue, but a big part of 
people who are coming in under this phenomenon are adults that 
are not accompanied by minors. Is that correct?
    Ambassador Shannon. I am not familiar with--I mean, the 
adults coming in get removed immediately. You are--unless you 
are talking about adults coming with children.
    Senator Corker. All right. So, then there are three 
categories.
    Ambassador Shannon. Right.
    Senator Corker. There are adults, there are adults with 
minors, and then there are minors.
    Ambassador Shannon. Yes.
    Senator Corker. And I know there is differing categories as 
to how we deal with those, but we have a large group of adults. 
We have got adults with minors. And what are we doing, 
specifically, with them, at present?
    Ambassador Shannon. Obviously, DHS can answer this better 
than I, but my understanding is that adults with minors who are 
coming across--initially, we were unwilling to separate the 
children from the adults, so the adults were being held, put 
into deportation proceedings, and then released on their own 
recognizance. But, we have begun to deport adults with minors. 
In fact, the first deportation flight has gone to Honduras, 
either yesterday or the day before, and we are planning 
additional ones to Salvador and Guatemala.
    Senator Corker. And I do not know the solution, here. I am 
seeking answers. Some people have said that one of the big 
problems we have with the minors is that we are, you know, 
putting them with, you know, guardians, if you will, within the 
country, that many of them are not documented; therefore, they 
are very unlikely to ever show up back in the court. And some 
people have advocated that we, instead of doing that, put these 
young minors in detention facilities and care for them there. 
What is your response to that?
    Ambassador Shannon. Well, sir, again, this is a Department 
of Homeland Security and HHS issue more than it is a State 
Department issue. But, I would say that holding children in 
detention for long periods of time is bad for kids; and 
therefore, we either need to hasten our deportation processes 
and proceedings or put them with family.
    Senator Corker. And so, the first deportation proceedings 
are occurring.
    Ambassador Shannon. Correct.
    Senator Corker. Is that correct? Your first----
    Ambassador Shannon. For adults with minors.
    Senator Corker. For adults----
    Ambassador Shannon. The deportation proceedings for 
children have been ongoing over time.
    Senator Corker. But, is there a concern--is there a concern 
that, when the children are placed with guardians or foster 
parents, or whatever our terminology is for that, and when they 
are undocumented, that it is very unlikely that they are going 
to come back to the courtroom to actually be adjudicated? Is 
there a--and sometimes I guess there are 500 days that go by--
400 days, 300 days--before that occurs, and, again, very 
unlikely. And so, it appears to me that we have a policy issue, 
that, while the cartels and gangs may be taking advantage of 
it, it is something that is easily taken advantage of. Is that 
correct?
    Ambassador Shannon. Oh, without a doubt, they take 
advantage of our processes and the fact that we are a rule of 
law--I mean, a rule-of-law country and that our deportation 
proceedings sometimes can be lengthy. One of the purposes of 
the supplemental is to provide funding to increase the speed of 
those deportation proceedings.
    However, I am not sure of the exact number who actually 
show and do not show for these kinds of proceedings. But, there 
is a reason to show up, especially if your intent is to file a 
request for asylum or refugee status. In other words, if you 
believe you have a protection need, then you want to show up 
for these kinds of----
    Senator Corker. And what percentage of the young people who 
are here--what percentage of them do you think are in need of 
asylum protection?
    Mr. Swartz.
    Mr. Swartz. Senator, I think that that is a question that 
we are examining, and it will have to be developed as the 
facts----
    Senator Corker. But, you have a lot of insights as to what 
has occurred. How many of them do you think are needing asylum?
    Mr. Swartz. Senator, I think that is a question that we 
would have to analyze and respond to you in writing as to a 
percentage in that context, particularly as this is a 
developing----
    Senator Corker. Well, look, I am not asking for the 
official DOJ statement. I am asking you, as an expert in this 
area, as if you were having a conversation with someone, What 
is your sense of the number of young people that are coming 
into this country during this phenomenon that need asylum?
    Mr. Swartz. Again, Senator, I understand that the----
    Senator Corker. Mr. Swartz, you are not going to be a very 
good witness, if you will not answer questions based on your 
knowledge as an expert in this area, supplied to us by DOJ.
    Mr. Swartz. Well, Senator, I can speak to the--as I said at 
the outset, it is the criminal justice aspect, here, and the 
impetus for many of these children to flee. Whether the basis 
for their asylum is sufficient will have to be determined in 
the proceedings themselves.
    Senator Corker. Just a range.
    Mr. Swartz. Senator, I am really not prepared----
    Senator Corker. Yes.
    Mr. Swartz [continuing]. At this stage, to----
    Senator Corker. I will tell you this, it does not give me a 
lot of faith in the public officials who are dealing with this 
issue if they do not have some kind of gut instinct as to the 
number of people who are coming into this country that might 
actually really need asylum. That does not give me a very good 
sense of you having a handle on the situation.
    Mr. Swartz. Senator, I will certainly talk with my 
colleagues in the Executive Office of Immigration Review to get 
their review and their views on that particular question.
    I can speak to the criminal justice aspects, here----
    Senator Corker. Yes.
    Mr. Swartz [continuing]. As opposed to the immigration 
aspects to the asylum----
    Senator Corker. Well, can Mr. Shannon answer that question?
    Ambassador Shannon. I do not have the figures from the--
obviously, from our own government, but the U.N. High 
Commission on Refugees, in interviews that it has done, thinks 
that 58 percent of the migrants could have a protection 
concern.
    Senator Corker. Yes. Good.
    Well, let me just say that, typically, when people ask for 
an appropriation to deal with an issue, they have a sense of 
the magnitude of the problem in each category that we are 
trying to solve. And so, if you are up here asking for us to 
solve a problem--and I hope we will, and I think many of the 
questions the chairman has asked are legitimate, and I hope 
some of mine are, and many others will ask legitimate 
questions--but, if you all do not really have a sense as to the 
magnitude of what we are dealing with, it is very unsettling to 
think about money coming to a problem when we do not understand 
necessarily how big the problem is, nor necessarily what the 
solutions are.
    So, I thank you for being here. I know other people have 
questions. And I do hope that, as a group, we will solve this 
problem in the next few weeks--put forth policies that will 
help solve this problem.
    The Chairman. Thank you, Senator Corker.
    Before I call on Senator Boxer, let me just create a 
framework, here. I know we have a lot of questions. And some of 
us attended that session yesterday, other of us belong to other 
committees, whether on Judiciary or Homeland Security, in which 
the appropriate officials will be best posed, particularly the 
Department of Homeland Security, to answer some of them. I 
invited Mr. Swartz here in the context of what we are doing, 
which is the focus of the hearing on Central America and how we 
change the dynamics of that, and from the Criminal Division as 
it relates to engaging.
    Senator Corker. Yes.
    The Chairman. I just want to put in context that I did not 
ask the Department to come here to talk about the status of 
asylum-seekers. I do not want anyone to feel that Mr. Swartz is 
not being forthcoming. I did not ask him to come here to answer 
questions that are not within his department's jurisdiction. I 
asked him to come here to tell us how do we help fight crime in 
Central America?
    Senator Corker. Yes.
    The Chairman. Others can continue to ask, but I just want 
to set the record----
    Senator Corker. If I could, since you----
    The Chairman. Sure.
    Senator Corker. I appreciate that point of view, and that 
is the purpose of the hearing. I would hope that officials 
within our Departments would be communicating with each other, 
and would have communicated with each other when this 
appropriations request came up, and would have a general sense 
of what is driving this. So, I apologize if you feel I got off 
topic, but I would hope that----
    The Chairman. No, it is a totally legitimate question, 
Senator Corker. I invited witnesses here with a purpose--it 
does not mean they do not have broader knowledge; but, when 
they do not, I am not going to suggest that they are not being 
forthcoming. And I do believe that the appropriators are 
getting--in their hearings--some of those questions asked. I 
know that Senator Carper, in the Department of Homeland 
Security, has been pursuing some of this very line of 
questioning.
    I just do not want to think that the administration, here, 
is being evasive. I have gone after the administration more 
than my share on different topics. So, I know there will still 
be many of these questions.
    Senator Boxer.
    Senator Boxer. Thank you.
    Mr. Swartz, I think you could help Senator Corker and 
others if you just went back and looked at how many of all 
those that have sought asylum, the children, in the last few 
years, got asylum. I think it is a very important point. From 
what I gather, it is about 50 percent. But, I would appreciate 
your doing that, as well.
    But, I want to thank my chairman and ranking member for 
this very important hearing to look at a humanitarian crisis, a 
challenge for each of us, because we can do something about 
this, regardless of party. And if ever we were able to be 
brought together, I pray that our sense of humanity will bring 
us together. Because, in my long lifetime, I have noticed that 
innocent children bring us together. And they are standing in 
front of us. And we have to deal with this in a smart way. And 
we have to step up.
    So, just before I get to my questions, I think there are 
two main questions. And I thank both of my leaders, here, for 
this. First, do we need to change the bipartisan Feinstein 2008 
law signed by President Bush? Now, I have asked staff to review 
this, and I have not said anything until today regarding how I 
feel about it, because I was very open to seeing what we should 
do. And I believe that bill, that Feinstein-Bush bill, does 
give the administration the flexibility it needs to do the 
right thing here. I do not even know what their view on it is. 
They are looking at it. But, that is my view. So, I agree with 
the chairman. I think we can do, under that law, the right 
thing for these children, and the right thing for our Nation. 
And that is what we are balancing.
    And then, the second question is, Do we need more 
resources? And, without a doubt--without a doubt--I cannot 
believe people are actually standing up, who voted against 
comprehensive immigration reform, and saying, ``We do not need 
any money.'' We do not have the tools without the funding, so 
we need to deal with this. And I do have faith in Senators 
Mikulski and Shelby, and I hope that they will move together 
and lead us on this.
    Now, we know that many of these children are fleeing their 
homes. I am not saying everyone, but most, I believe, are 
fleeing their homes and making that treacherous journey--and 
let us call it that--because they are coming from some of the 
most violent places in the world. The murder rates in these 
countries are some of the highest, with Honduras earning the 
tragic distinction of ``Murder Capital of the World.'' Poverty, 
inequality, unemployment are widespread. Crime, violence, and 
corruption are ubiquitous. Gangs and drug traffickers are 
terrorizing civilian populations. In many cases, these 
vulnerable boys and girls are fleeing for their lives.
    But, here is the thing: They are not just fleeing to the 
United States. And, Mr. Chairman, I think this is an important 
point that was raised by Mr. Shannon. In fact, these children 
are also seeking safety in other Northern and Central American 
countries, like Mexico and Panama, Nicaragua, Costa Rica, and 
Belize, where, since 2009, asylum applications are up over 700 
percent. So, what does this say? It tells us this is not just 
an American problem, it is a regional problem. And I do not 
believe we can solve it on our own, nor should we.
    So, Ambassador Shannon, I have a question. Why would the 
administration not call an emergency summit of the Organization 
of American States? Now, we know the OAS is a body that was set 
up for regional, political, economic, and social cooperation. 
It seems to me that this is the right venue to take a look at 
this as a broader problem--while we take care of what we have 
to do here. Could you react to that idea?
    Ambassador Shannon. Well, it is a very good suggestion, and 
I thank you for it.
    We have had an opportunity to do several regional events 
related to this question. There was a Regional Migration 
Conference held in Managua, Nicaragua, under the auspices of 
the U.N. High Commission on Refugees, about a month ago, where 
we were able to fashion documents and approaches that allowed 
us, I think, to understand, in a common fashion, how--this 
dynamic, this crisis of migration. A similar conference was 
held just a few days ago in Mexico City, sponsored by the 
Mexican Government in the Holy See, on migration and 
development. And the Government of Honduras, yesterday, held a 
Regional Migration Conference, where we were also present. 
Along with the----
    Senator Boxer. Well, if I could just say----
    Ambassador Shannon. Sure.
    Senator Boxer [continuing]. That is really good. But, I am 
talking about a regional summit at the highest levels, that we 
utilize the OAS. It was set up for this purpose, so I cannot 
imagine a better thing.
    Now, I have talked to the administration about this idea. 
They seem open to it. But, I hope you will take back this idea, 
because----
    Ambassador Shannon. Happily.
    Senator Boxer [continuing]. The American people, when they 
look at this--my State, a border State--they are compassionate. 
We have a few who are not, let us be clear. And the ugly side 
has been shown. And that happens. But, overwhelmingly, people 
want to do the right thing. But, they also know this is a 
regional issue. We cannot do everything alone. It is too hard. 
We are coming out of some hard times. I want us to do our 
share. I want all the countries in the region to do their share 
too. So, please take that back.
    Now, Mr. Swartz, the Department of Justice runs two 
programs that train law enforcement and prosecutors in Central 
American countries who are trying to hold these deadly gangs 
and traffickers accountable and combat corruption in their own 
governments. It just sounds like complete lawlessness in these 
countries when you read about it, that these children are so 
fearful that they are either going to be abused by these gangs, 
tortured by these gangs, or, if they do not get recruited, 
killed, perhaps. So, can you explain to us--because I admit 
that I am certainly not an expert on what is happening on the 
ground--can you give us a sense of what is going on on the 
ground there? Either of you who might know better than I.
    Mr. Swartz. Senator Boxer, I can start and then turn to 
Ambassador Shannon.
    Senator Boxer. Okay.
    Mr. Swartz. I think that it is clear that, in these 
countries, violence is endemic and is, indeed, the backdrop for 
the particular surge that we are seeing now. Even if it is not 
the immediate cause for every child to leave, it is certainly a 
destabilizing factor in each and every one of these countries. 
It undercuts economic growth and economic opportunity. It makes 
it extremely dangerous for individuals simply to live in those 
countries.
    In terms of what we are doing on the ground, as I 
mentioned, our response has both short-range immediate goals 
and longer range goals. To our vetted units, in particular, 
that work with our law enforcement agencies--the FBI, DEA, 
Homeland Security investigations--we hope to be building the 
kind of capacity in those countries that will allow them to 
address the violent crime that plagues their citizens. And 
again, I stress, it protects our citizens, as well, since these 
gangs operate across borders. MS-13, the 18th Street Gang 
operate in the United States, in El Salvador, and other 
countries in the region.
    But, beyond that, as you mention, with State Department 
funding for our resident legal advisors from our overseas 
prosecutorial group, our resident law enforcement advisors from 
ICITAP, our criminal investigative group, we can begin to work 
on thinking through what systemic changes need to be made in 
these countries with our partners. And we have seen this. We 
have seen the possibility of doing this, Colombia being, of 
course, the most recent and most relevant example in the 
region, in which we took a country that some people considered 
to be on the edge of being a failed state, and, with the 
commitment of that country, were able to think through changes 
to their prosecutorial system, to how they did investigations, 
how they create, really, a democratic policing and an 
adversarial system that protects the citizens, both their 
rights to be fairly tried and their rights to be protected 
against criminal groups.
    So, this is really a question of having the funding to make 
this possible. The Department of Justice does not receive 
direct appropriations for this work. We receive it from State 
Department. And one of the reasons why the----
    Senator Boxer. Thank you.
    Mr. Swartz [continuing]. Supplemental is so important.
    Senator Boxer. I agree. I want to just say, that is the 
kind of thing the American people need to know, and that is why 
I think a high-profile conference, where the world gets to see 
that the region cares about these kids and about the future. 
So, you know, my kids always say I repeat things too much, but 
I repeat: I think a high-profile OAS summit with these ideas 
would be very helpful.
    Mr. Swartz. And, Senator, if I might add, the Mexican 
attorney general has suggested that we have a meeting of the 
attorneys general of the region to address this issue, and 
Attorney General Holder very much welcomes that opportunity, as 
well.
    The Chairman. Thank you.
    Senator Risch.
    Senator Risch. Thank you, Mr. Chairman.
    You know, this problem came to light this year with this 
huge influx of unaccompanied children illegally entering this 
country. And, when it did, people started to look at it, and 
the first thing we heard was, ``Well, it was because of the 
2008 law that was passed.'' And so, I think a lot of us said, 
``But, you know, before we do that, what we need to do is have 
a look at the facts.'' So, what we did, they had this graph 
prepared of illegal children entering the United States. And 
this is only apprehensions. These are unaccompanied minors and 
apprehensions. Have you seen this chart?
    Mr. Swartz. Yes, sir.
    Senator Risch. Okay. The chart hits you pretty quickly. It 
is not the 2008 law. Because you had 19,000 enter in 2009, you 
had 18,000 in 2010, 16,000 in 2011. Indeed, if anything, the 
direction of this was going down. But, then in 2012, this thing 
just skyrockets. You have got 24,000 in 2012, you have got 
38,000 in 2013, and this year, through June 15, we have got 
52,000. And the numbers that exploded were from El Salvador, 
Guatemala, and Honduras. The Mexican numbers did not change 
that much, but it was those Central American countries.
    So, before you can resolve a problem, you have got to know 
what is causing the problem. What happened in 2012?
    Ambassador Shannon. Great question, and an important graph.
    Actually, the numbers explode at a point, but there was 
obviously pressure building before that. And the pressure was 
building for a variety of reasons. I think very little of it 
has to do with the immigration debate here. Our interviews on 
the border with unaccompanied children who have been detained, 
and in-country with aspiring migrants, indicates that they have 
little understanding of the dynamics or the migration debate in 
the United States. But, what they do know and what they do 
understand is how people are treated on the frontier when they 
arrive.
    And when I talk about the pressure building--2009, of 
course, is when we suffered an international economic downturn. 
And the hemisphere itself, and Central America, is particularly 
devastated by this. So, from 2009 through 2011, you have 
economic distress in the region. And then, on top of that, 
because of the success that Mexico is having through its Merit 
Initiative, you have gangs and Mexican cartels moving into 
parts of Central America in order to control the drug-
trafficking operations and building alliances with gangs.
    And so, I think the stressors that are driving this are, 
first, economic and then they are cartel activity, and then 
linking the cartel activity to gang activity.
    Senator Risch. Mr. Shannon, I hear what you are saying. 
But, look, I am looking for something in 2012. You talked about 
economic downturn in 2009. If the economic downturn was in 
2009, which we know it was, it went down in 2009, 2010, and 
2011.
    Ambassador Shannon. Right.
    Senator Risch. It was not until 2012 that it hopped up.
    Mr. Swartz, what is your view? Briefly.
    Mr. Swartz. Senator, again, I think that there is, as 
Ambassador Shannon suggested, a variety of causes. One hears 
everything from coffee rust affecting some of the plantations, 
involving economic changes during this time period. But----
    Senator Risch. Appreciate the coffee rust----
    Mr. Swartz. But----
    Senator Risch [continuing]. And all that, but----
    Mr. Swartz [continuing]. But, I think, Senator, as you say, 
that it is one of the things that we are trying to study to try 
and understand, but underlying it, from the perspective of the 
Department of Justice, is the economic instability caused by a 
violent crime setting.
    Senator Risch. In 2012, did we have any significant event 
regarding U.S. immigration policy that occurred? Did the 
President sign any Executive orders in 2012?
    Ambassador Shannon. I understand what you are driving at, 
Senator, but I----
    Senator Risch. I am.
    Ambassador Shannon [continuing]. But I would argue that the 
dynamic of the migration debate in the United States----
    Senator Risch. I hear what you are arguing.
    Ambassador Shannon [continuing]. Does not have an impact.
    Senator Risch. But, are you telling me that his Executive 
order that we are not going to send children back did not cause 
an explosion when people understood that, if they got here, 
that they were not going to have to go back anymore? Are you 
denying that that has anything to do with the explosion of 
numbers?
    Ambassador Shannon. What I am saying is that the 
traffickers have a marketing strategy, and the fact of the 
matter is, children have been deported and will be deported. 
But, what the smugglers were able to do is fashion a marketing 
strategy for kids who wanted to leave, for parents who wanted 
their kids to leave and were able to show that, when those kids 
got to the frontier, that they would not be removed 
immediately.
    Senator Risch. And that marketing strategy was based upon 
the change in policy that the President took in 2012. Is that a 
fair statement?
    Ambassador Shannon. I think it was based on the TVPRA issue 
regarding noncontiguous----
    Senator Risch. Mr. Swartz, do you agree or disagree that 
the change in policy by the President's Executive order in 2012 
had no effect on this explosion that has occurred?
    Mr. Swartz. I agree with Ambassador Shannon, that our 
intelligence suggests that traffickers are marketing 
misunderstandings about how U.S. immigration law will work, the 
expectation these children will not be deported back from the 
United States, and that that has been a key driver in this, as 
well.
    Senator Risch. You think they had a misunderstanding of the 
President's Executive order in 2012 that they were not going to 
send children back?
    Mr. Swartz. We think that they--far as we can tell, that 
there is a general portrayal that is not based on actual U.S. 
law----
    Senator Risch. Has the President tried to do anything to 
correct this impression he gave in 2012 that has caused this 
new marketing program?
    Ambassador Shannon. No, we have been very clear that these 
children, should they not have international protection 
concerns or needs, will be deported.
    Senator Risch. Thank you, Mr. Chairman.
    The Chairman. Senator Cardin.
    Senator Cardin. Well, thank you, Mr. Chairman.
    Let me thank both of you for your work here and your 
testimony.
    It is clear, Mr. Swartz, as you pointed out, that the spike 
is related to the instability in the three countries involved 
because of the criminal activities within those three 
countries. That is what I think you responded to the question. 
And that has caused increased gang activities, it led to 
trafficking. And traffickers will do whatever they can in order 
to make money. It is also true that this country has been one 
of the strongest in working with the international community to 
encourage countries to have an understanding that their border 
can be a sanctuary for those who otherwise are at risk in their 
own country. That is what we have been urging countries around 
the world to do. And we have participated in international 
efforts to provide safety for people who are not safe in their 
native country.
    So, I think we all want to make it clear--and this is a 
point that we have all stressed--that it is not safe to put 
your child in the hands of a trafficker or in a position of 
being taken to our border. And doing so does not change that 
child's status. That child will be put in deportation. That has 
got to be clear. But, I think we also have to be mindful that, 
Ambassador Shannon, the number you gave--not our number, but 
the number that the international community--the representative 
for refugees suggests that there is--over 50 percent of these 
children may, in fact, need some form of protective service. 
That is an international responsibility that the United States 
also needs to be mindful for.
    So, let me get to the point that the chairman raised 
initially, and that is, the President is asking for $3.7 
billion; $3.4 billion is dealing with the consequences of a 
failed policy within the native countries. Now, failed policy 
means there is instability, that it is not safe for families 
and children; and therefore, they are putting their 
unaccompanied children at risk through transit to the United 
States. And only .3, or $300 million, is being used for dealing 
with the causes.
    We have programs in these countries. We have the Millennium 
Challenge Corporation that is operating in Honduras and El 
Salvador. We have Partnership for Growth operating in El 
Salvador. We have the Central America Regional Security 
Initiative. So, we have programs that were intended to deal 
with some of these issues.
    But, if I could just point out--to me, the most successful 
program that was initiated to deal with a global problem that 
affected our country was PEPFAR, where we had significant 
resources identified with the U.S. initiative that made a 
consequential difference for future generations. What does it 
take to have that type of effort for safety of children in 
Honduras, in El Salvador, in Guatemala? How can we change these 
programs? If we are going to spend $3.7 billion--and you 
clearly have made the case that these funds are needed--we 
would like to be able to at least start down the path of the 
United States using its international development assistance to 
keep children safe in these three countries. And, quite 
frankly, I have not seen that from the administration. What 
does it take?
    Ambassador Shannon.
    Ambassador Shannon. Well, thank you very much for that. And 
I appreciate the larger point, which is an important one. And 
the safety and well-being of children is part of a larger 
approach of U.S. development assistance. And, obviously, as we 
built our CARSI programs, as they built our Millennium 
Development programs, as we built our bilateral assistance 
programs, the idea was to address a country comprehensively, in 
an integrated fashion, with the hope being that we would be 
able to address the concerns of children and adults, women and 
men, and the different sectors and factors of a society. But, 
obviously, what we are looking at now is something distinct, 
something dramatic. We are really looking at a modern-day----
    Senator Cardin. But, see, the proposal--the supplemental 
budget is dramatic on the number of prosecutors, it is dramatic 
on the number of personnel on the border, on the new 
facilities--it is dramatic, except it is not dramatic on making 
a change in the three countries where the children are coming 
from. Why not? Why not at least put forward a proposal that 
would have a consequential impact? President Bush did that for 
HIV/AIDS. Why are we not doing it for countries in our own 
hemisphere?
    Ambassador Shannon. Well, it is a great argument, it is a 
great point, and I am happy to take it back to the White House 
and to the Department.
    The 300 million we are asking for is designed to operate in 
three countries, so it is concentrated; and it is designed to 
address the principal drivers, we think, of this migration, 
which is the violence, but also economic opportunity and 
corruption and poor public institutions. And we think that, by 
doing this, we are going to advance the well-being of the 
children. But, the idea of fashioning a larger policy, not just 
in these three countries, but throughout the region, around 
children is a good one.
    Senator Cardin. Do you really believe that if Congress 
approved the $3.7 billion exactly as the administration 
suggested, that it would have a major change in the three 
countries as it relates to the safety of children?
    Ambassador Shannon. It will have a positive impact, but----
    Senator Cardin. That is not my question. Would it make a 
major change in----
    Ambassador Shannon. In some areas, it will; in other areas, 
it will not. Because so much of this violence is localized, and 
it all depends on the strength of gang structures. But, what is 
important, as I noted, the 300 million will connect to programs 
we already have, but ultimately will be a downpayment in a 
larger effort to fashion a new kind of Central America.
    Senator Cardin. Well----
    Mr. Swartz. Senator, if I might address that. I think that 
that money can be consequential, from the Department of 
Justice's point of view. We have seen that, in terms of being 
able to put our personnel on the ground to work with their 
counterparts, it does not necessarily take that much money, but 
it takes a sustained commitment. It will not happen overnight. 
But, we have seen the ability to change criminal justice 
systems in a way that help protect children, in particular, 
but, more generally, to change the way the society addresses 
criminal justice.
    So, we think that it can be an important step. It is just a 
downpayment. It is not going to happen overnight. But, it is an 
essential first step.
    Senator Cardin. Mr. Chairman, I would just point out that 
this committee has jurisdiction over development assistance, 
and I would just hope that we would be able to weigh in, on a 
bipartisan basis, as to this opportunity to make a difference 
in the way that we provide development assistance in these 
three countries to make children's--and families feel more 
confident of their future, rather than putting them on trains 
coming to the United States.
    The Chairman. I thank the Senator. And something I have 
been advocating for a while. And now that we have an 
opportunity and, unfortunately, a crisis to crystallize 
people's thinking, maybe it would be a moment to move forward.
    As I introduce Senator Rubio, let me recognize that his 
daughters, Amanda and Daniela, are seated in the audience, 
watching Dad at work. So, you would better do a good job, 
Senator. [Laughter.]
    Senator Rubio.
    Senator Rubio. Thank you for the pressure. I appreciate it. 
[Laughter.]
    Thank you both for being here.
    And thank you, Mr. Chairman, for holding this hearing.
    Let me just preface this by saying this is an issue I care 
deeply about and am impacted by. We have huge Central American 
communities, particularly in South Florida, where I live, and 
so I am familiar with this issue's reality, not simply by what 
is reported in the media, but what I hear from them. And there 
is no doubt that the violence in some of these cities is as bad 
as it is anywhere in the world, and that that is the reason why 
people want to leave those countries.
    But, we have to examine the reason why they want to come 
here, as opposed to going to Panama or some other place that is 
a lot closer, or staying in Mexico, and what it is that is 
driving them here.
    And I think it is unfortunate and counterproductive to 
ignore both the reality and the applications of our immigration 
laws and the impact that that is having on our crisis. And I 
say that as someone who is a demonstrated supporter and 
continue to believe that this country needs to reform its 
immigration laws, for the good of our country and also to live 
up to our heritage as a nation of immigrants.
    But, word of mouth on this issue is extremely powerful. 
Word of mouth is the reason and the way people are getting a 
lot of information in Central America. And the word of mouth in 
Central America is--that these traffickers are using--that 
there is this new special law in America--there is a special 
law that allows you to stay. And part of the tactics that they 
are using and are being spread is, there is a special law, that 
expires in July or in August, to create a time-constraint 
pressure so people will do it immediately, and do it now. And 
the special law they point to--and you--and I understand it is 
not the way it was written, but the special law they point to 
is the deferred action decision that was taken in 2012. That is 
what they point to, and they say, ``There is this special law 
that will allow you to enter the U.S., and stay.'' And we can 
say, ``Well, under this law, you are not allowed to stay, 
because you do not meet the criteria.'' And that is technically 
accurate. But, if you look at how it is applied in reality--not 
that law, but our immigration policies--they are right that 
there is a special law, or at least a special practice, because 
if you arrive in the U.S. as an unaccompanied minor or as a 
parent with children, you are not treated the same as someone 
who arrives here as a single male who--adult--who traveled 
across the border.
    And I saw figures, just yesterday, that 70 percent of the 
people who have crossed that border as unaccompanied minors or 
as part of a family unit are in the United States. And they 
know the process, because word of mouth gets there. The process 
is, you are apprehended. If there is someone in the United 
States to--who they can turn you over to--in many cases, these 
children already have parents in the United States--you are 
turned over to your parents. There is a long period of time--
they know that there are backlogs in the court system. They are 
given a notice to appear. In some instances, they think it is 
``un permiso,'' a permit, which it is not. And in some 
instances, they never show up for the notice, but, even if they 
did, the hearing may be years in the future. That is the 
reality of the law.
    So, in truth, if you arrive in the United States as an 
unaccompanied minor, you are going to get to stay, at least for 
an extended period of time, before you are even asked to appear 
again. And that word of mouth gets back. People call home, 
people report what has happened, and that takes on a strong 
implication.
    By the way, I also read some documents the other day that 
now what is happening is that there are individuals crossing--
and I do not know what the figures are and how widespread this 
is--but that we have found instances--and perhaps if this is 
not true, you will point it out--but that we now know of 
instances where there are unrelated adults posing as the 
parents of children, as family units, at the border. Is that 
accurate?
    Mr. Swartz. Our understanding, Senator, is that there are 
some circumstances, particularly--we are actually targeting, 
through our colleagues in other countries, forged documents--to 
try and establish false family relationships for that purpose.
    Senator Rubio. So, there are now--I mean, the word of mouth 
has gotten back that if you arrive in the United States by 
yourself as an adult, your chances are a lot better if you 
arrive as a parent of a child that is traveling with you. And 
so, you have got unrelated adults pretending to be married and 
pretending that some children in the group are their children. 
So, that is something that shows design.
    There is also evidence that I have seen that there are 
churches and nongovernmental organizations in Mexico and in 
Central America that are both advising, assisting, and, in some 
instances, encouraging people to undertake this journey, as 
well.
    And, last but not least, I think we are naive if we think 
that the governments of El Salvador, Guatemala, and Honduras 
view this as a problem for them. They view this as a U.S. 
problem for the United States to solve. And we are naive if we 
ignore the fact that 13 percent of their combined gross 
domestic product is made up of remittances from the United 
States. So, if 13 percent of your gross domestic product is 
comprised of remittances from the United States, it behooves 
you to have as many people as possible in the United States 
sending back remittances. And I say this, as I have shared with 
them privately, as well, and I say it now publicly--with 
individuals from those governments--they do have an interest in 
this. And that is why I think they have been less than 
cooperative. I know their capacities are limited, as well, but 
I think they have been less than cooperative, in some regards, 
in addressing some of this.
    I say all this in the context of the fact that this is just 
one more reason, in my mind, why, long term, this country has 
to address this issue. I believe that if we had a legal 
immigration system that worked better, that would be a conduit 
for people who do want to come to the United States to come in 
a way that is safe. I believe that if we had enforcement 
mechanisms that worked better, people would be discouraged from 
entering the country. But, this is in evidence of the fact that 
what we have now today in place in this country is a disaster 
that needs to be addressed. But, I also do not think we can be 
naive about the reality that we are facing in this regard, and 
I think we have to understand the complexities of everything 
that is driving these folks across the border and making this 
happen.
    I did want to ask you briefly about the two points that I 
raised. The first is, Is there, in fact, evidence that there 
are NGOs and church groups and others who are assisting and 
encouraging people in these routes? And what I mean by 
``assistance'' is, you know, providing transit routes and, in 
some instances, just encouraging people to undertake this, 
acting as facilitators.
    Ambassador Shannon. I am sure there are plenty of people 
taking advantage of this migrant train for their own goods or 
the goods of their organization. Most of them are criminal. 
There are NGOs and church-related groups that provide shelter 
to migrants along the way. I visited one in Tapachula yesterday 
and had an opportunity to speak with migrants there and the 
people who run the place. It is run by a Catholic organization 
called the Organ De Los Migrantes, which is an Italian order of 
priests. And their purpose is to provide a place for migrants 
to stop.
    Senator Rubio. When they speak to them, do they tell them, 
``You should really reconsider this trip. It is very dangerous. 
This was not the right thing to do''?
    Ambassador Shannon. Many of them do. I do not know if all 
of them do, but in the one I was in, they also deal with women 
who are being trafficked in southern Mexico and providing 
shelter for them. And so, they do--at least in the shelter I 
was in, I was told that they do highlight the dangers, but 
their primary purpose is to provide shelter, as opposed to 
providing guidance.
    Senator Rubio. I have one more question.
    The Chairman. Sure.
    Senator Rubio. I have heard reported in the media, and I 
have talked to some folks who have undergone the journey in the 
past, who say that, as a matter of course, as a prophylactic 
matter, women on this journey are advised to take 
contraceptives, because they can expect to be sexually 
assaulted. Is that accurate?
    Ambassador Shannon. Not just women, but girls.
    Senator Rubio. Thank you.
    The Chairman. Senator Kaine.
    Senator Kaine. Thank you, Mr. Chairman.
    And thank you, to the witnesses, for your service and 
appearance today.
    I am going to try to spend just a little bit on diagnosis 
and then more on prescription.
    So, quick on the diagnosis: To what degree is violence a 
factor in this flood of youngsters to the border? Is it a major 
factor, a minor factor, or no factor?
    Ambassador Shannon. I believe it is a major factor.
    Senator Kaine. Mr. Swartz.
    Mr. Swartz. Yes, Senator, I agree, it is a major factor, in 
two ways. First, as Ambassador Shannon has pointed out, the 
mapping suggests that these children are coming from the most 
violent areas. And, significantly, we are not seeing an 
explosion of individuals coming, across the board, from every 
country.
    Senator Kaine. To the extent that violence is a major 
factor in this, to what extent is the drug trade a factor in 
that violence? Is the drug trade a major factor, a minor 
factor, or no factor?
    Ambassador Shannon. It is that--the drug trade is what has 
expanded the reach of gangs in Central America and has provided 
the gangs with the money and the transnational connections they 
need to play a role in smuggling operations, but also in trying 
to control large parts of their community. So, it is 
significant.
    Senator Kaine. Major factor, Mr. Swartz?
    Mr. Swartz. Yes. The connection between gangs, and now the 
narcotics cartels, is certainly a significant factor.
    Senator Kaine. So, if the flow is being driven by violence 
as a major factor, and if that violence is connected to the 
drug trade as a major factor, let me ask you my next question. 
To what extent is the drug trade driven by U.S. demand for 
illegal drugs? Is that a major factor, a minor factor, or no 
factor?
    Ambassador Shannon. Nearly all the drugs transiting Central 
America are going to the United States.
    Senator Kaine. Mr. Swartz.
    Mr. Swartz. Yes. We recognize that our consumption is a 
major factor in this regard.
    Senator Kaine. Okay. So, the way I look at this challenge--
and I lived in El Progreso, Honduras for a year. And about 600 
of the 52,000 kids who have come to the border are from El 
Progreso. They are being largely chased out of their 
neighborhoods by violence, violence connected to a drug trade, 
and a drug trade that is intimately connected to the United 
States demand for drugs. It is United States dollars flowing 
south, and it is drugs flowing north into the United States. 
And the amount of those dollars is so significant that it is 
warping the institutions of these Central American nations in 
very dramatic ways.
    This flood of folks, refugees, to the border is not 
unconnected to the United States. It is not unconnected to 
the--it is intimately connected to the United States.
    I was in Syrian refugee camps in Turkey about a year ago, 
and then I have been in Lebanon and Jordan, dealing with Syrian 
refugee issues, as well. And I remember, Mr. Chairman, asking 
myself the question, ``Wow, when I see Lebanese who are not 
really that wealthy, and they have refugees, equivalent of one-
quarter of the population, that have arrived in Lebanon in the 
space of 3 years, and they are having to do double shifts in 
schools to educate refugee kids,'' or I see the number of 
Syrian refugees in Jordan, one of the poorest countries in the 
world, in terms of the amount of water, and they are have 
having to deal with a number of refugees driven there by 
violence, when they have few natural resources of their own, 
and I saw those countries dealing with this massive influx of 
refugees--one-quarter of the population--and I found myself 
asking myself, a year ago, ``Gosh, I wonder how the United 
States would deal with refugees who came to the United States, 
driven by violence from somewhere else. I wonder if we would 
deal with them in the same way that Lebanon or Jordan or Turkey 
is dealing with refugees.''
    And that is kind of what we are seeing, if I go by your 
answers: refugees who are coming here, driven by violence, 
driven by violence that is connected to the United States. And 
so, we have a connection with this. We have a connection with 
this. And we have an obligation to try to be creative in 
solving it.
    I echo the comments that the chair made before I arrived 
about how disappointing it is to see the dwindling CARSI 
funding in recent years, $130 million in the FY15 budget. The 
President's original budget proposed $130 million for CARSI and 
about $800 million for the detention of folks at the border who 
might come unaccompanied. And now we are going to take it up to 
$3.8 billion. It would seem to me that we could spend money a 
little bit better to deal with a problem of violence that is 
driven by U.S. drug trade in these nations, and that would be a 
better way to spend the money, both for those youngsters and 
also for us.
    Let me ask about drug interdiction. I am on the Armed 
Services Committee. General Kelly is the SOUTHCOM--SOCOM, 
commander. He testified before us in March during a status 
hearing. He said, with respect to drug interdiction, because of 
the combination of austerity sequester and the movement of 
military resources elsewhere, he says he watches 75 percent of 
the drugs that could come into the United States just go right 
by him, because he does not have the resources to interdict, 
either between Central America and the United States or even 
coming into these Central American nations.
    Would more vigorous support for drug interdiction, so that 
these drugs do not even land in these Central American 
nations--would that be a way we could potentially help reduce 
some of the violence that are--that is being experienced in the 
three nations we are talking about?
    Ambassador Shannon. Well, the short answer is ``yes.'' But, 
obviously, we have to deal with the consequences today. And the 
gangs are not going away. And having established themselves, 
they will continue to look for any source of revenue they can 
find, whether it is shakedowns, whether it is operating other 
illegal activities, or whether it is drug trafficking. So, as 
we look for ways to reduce the pressure on Central America, we 
are going to have to recognize that the gangs are now embedded 
in Central America, and dealing with them is going to be a 
significant task.
    Mr. Swartz. From the Department of Justice perspective, we 
certainly agree that interdiction is critical. We also agree, 
as Ambassador Shannon suggested, that we have to strike against 
these gangs. We have done so. We will continue to do so, 
targeting their leadership both here and in El Salvador and 
other countries in the northern triangle.
    This is truly--again, as you suggest, Senator--a shared 
responsibility and it is a shared danger for the American 
people. These criminal groups operate in our country and in 
those countries, as well.
    Senator Kaine. One of the things that puzzles me is--when I 
lived in Central America, there was a great deal of cultural 
similarity between Salvador, Guatemala, Honduras, and 
Nicaragua. How come there is not a huge number of these 
youngsters coming from Nicaragua?
    Ambassador Shannon. Again, we only have limited insight 
into this. I think a lot of it has to do with historic 
migration patterns. It is not just Nicaragua, it is also Costa 
Rica and Panama. Historically, these countries have not 
migrated to the United States the same way that Salvador, 
Guatemala, and Honduras have. And the migration networks that 
have been established over time make it easier for migrants 
coming from those three countries to settle in the United 
States.
    But, it also has to do with the drug-trafficking patterns. 
And the traffickers coming out of the Andes are looking for 
easy jump points into Mexico. And the Mexican cartels have 
found, especially Honduras, an easier mark than either 
Nicaragua, Costa Rica, or Panama.
    Mr. Swartz. I would add to that, simply, also the 
penetration of gangs varies from country to country, as you 
know, Senator. Nicaragua does not face exactly the same issues 
with regard to MS-13 or the 18th Street Gang.
    Senator Kaine. All right, thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman.
    Let us all agree that we have a humanitarian crisis on our 
border that needs to be addressed. I want to confine my 
questioning on the definition of the problem. What we really 
should be talking about here is the definition of the problem 
of unaccompanied children, and what we are debating is whether 
we need to spend more money and if we do spend, how it should 
be spent.
    I want to, first, start off by asking, in a sentence, just 
a sentence, what is the achievable policy goal we should be 
addressing right now?
    Mr. Swartz.
    Mr. Swartz. From the Department of Justice perspective, the 
achievable policy goal is to work with these countries--the 
three source countries, in particular--to build their justice 
systems so that they can address these issues, in the first 
instance, lessen the likelihood that there will be a----
    Senator Johnson. Okay, good. Again, one sentence.
    Mr. Shannon.
    Ambassador Shannon. To build partnerships with Mexico as a 
transit and designation country, Guatemala, Honduras, and El 
Salvador----
    Senator Johnson. Okay, again, no, you are missing the mark. 
Our goal needs to be stopping the flow. Right now, we have to 
deal with the 57,000 unaccompanied minors who came to this 
country. Secretary Johnson said there will be 90,000, 
potentially, by the end of this fiscal year, and over 100,000 
by the beginning of 2015. We have to stop the flow. That is the 
achievable goal. I do not think we can achieve solving the drug 
problem or improving their economies, or reducing violence in 
these countries--I do not think that those are achievable 
goals. I do not care how much money we have spent on it. And we 
will talk about some data to talk about that.
    I have seen that exact same chart. Like Senator Risch was 
talking about--I have done a fair amount of calculations on 
that.
    Mr. Swartz, do you know what percent of these unaccompanied 
children we have sent back over the last 5 years?
    Mr. Swartz. Senator, I understand that you have asked for 
that information from the Department of Justice. We are 
obtaining that----
    Senator Johnson. So, your answer is ``no.''
    Mr. Swartz. We are obtaining that information----
    Senator Johnson. Okay. So, your answer is that you have it. 
Okay?
    Mr. Swartz. I do not have that----
    Senator Johnson. Since 2009, we have returned roughly 
16,800 children out of 174,000 unaccompanied minors who have 
come into this country. So, that is a rate of 9.6 percent. So, 
more than 90 percent of those children are still in this 
country.
    Now, over time, it has really declined. So, in 2009, we 
returned about 23,000; 2010, a little under 22 percent; 2011, 
under 19 percent; 2012, with deferred action for childhood 
arrivals, it dropped to 8.6 percent; once deferred action for 
childhood arrivals was fully implemented, we are down to 4.3 
percent. Looking at what Senator Risch was talking about, I 
think it is pretty obvious what is a real correlated cause of 
the spike in unaccompanied children.
    I want to talk about the push factor and how unrealistic it 
is that we can spend any amount of money on it. Just tell me 
what we have already spent. In just the last 3 years, we have 
spent $956 million in U.S. economic assistance to those three 
countries. In terms of drug control, we have spent $76 billion. 
Do you really think throwing a few hundred million dollars down 
there is going to solve that problem at all? I would say not.
    Let us talk about murder rates. Mr. Shannon, you said that 
the pressure is building. You know, the fact of the matter is, 
in El Salvador, murder rates spiked in 2011, at 70 per 100,000, 
but it is down to 40. Guatemala has actually declined from 46 
per 100,000 in 2008 down to 40 now. Honduras built up to 91 in 
2011, and went down to 87 in 2013. And, by the way, just to put 
that in perspective, the murder rate in Detroit in 2012 was 
54.6; in New Orleans, 53.2. We can talk about this push factor, 
but I would really be looking more at the policy pull factor, 
in terms of causing this.
    And I also want to just talk about spending, in general. We 
have spent a lot of money, in terms of ICE, Border Patrol, and 
U.S. Customs, Immigration Services, and HHS refugee programs. 
In 2008, we spent $17\1/2\ billion dollars on those programs. 
You divide it by the 1.2 million removals and returns in 2008, 
and that is about $14,900 per deportation or removal. Okay? 
$14,000. In 2012, we spent $21.4 billion, divided by about 
650,000 removals and returns, and that is about $33,000 per 
removal or return.
    Because I would argue that in very bad economic times, 
there is not as much economic activity, we have fewer 
immigrants coming illegally into this country. We spend a lot 
of money, on a per-person basis, in terms of what agencies have 
to spend their money on and in terms of the individuals, but we 
have more than doubled spending since 2008. Why do we need 
another $3.7 billion? And is it going to have any effect 
whatsoever?
    Mr. Shannon.
    Ambassador Shannon. I believe it will. The immediate 
impact, of course, will be to allow us to manage the flow of 
people coming across the border in a better fashion, in a 
faster fashion, and in a fashion that allows us to determine 
those who have protection needs and those who do not. And those 
who do not will be deported in a timely fashion.
    Senator Johnson. But, how to answer the fact that we have 
actually doubled spending from $14,000 per return or removed 
immigrant to over $33,000 in 2012? We have more than doubled 
spending. Why do we need more? Why are we spending it so 
ineffectively?
    The Chairman. Well, as a corollary to that question, so 
that the committee can understand, Is all the spending on 
border enforcement just related to returns? Is that not the 
equivalent of a police department and what we spend in a police 
department if we were to divide it in the number of arrests and 
convictions? So, I want to get a total picture, here, because 
if we are going to say that all of this money is divided into 
the number of deportees, well, then we can take a lot of people 
off the border that our border States have asked us for, in 
terms of enforcement, so that people will be deterred from even 
coming or interdicted when they come.
    Senator Johnson. Mr. Chairman, I am just trying to provide 
some reasonableness in terms of----
    The Chairman. And I am trying to make sure that we are 
talking about the same thing----
    Senator Johnson. Well, of course, we would need more time 
to really vet these numbers properly so we really understand 
what is happening. We were in our meeting yesterday, and Sylvia 
Burwell talked about, ``Well, how much is it going to cost per 
bed, per child, per day?'' And her answer was somewhere between 
$250 and $1,000 per day. And her defense of $1,000 was, ``Well, 
you know, if we cannot plan for it, it is really expensive to 
do it.'' If I do not plan a vacation properly, I am still not 
paying $1,000 per day to stay at the most expensive hotel.
    Again, the debate we are having is, Does--this 
administration, who apparently did not plan on this, even 
though their action caused it--does it really need another $3.7 
billion, or do we have enough already built into a base budget 
to handle this? And, by the way, if we are going to spend money 
trying to solve the drug problem, the crime problem, the 
violence problem in those Central American countries, is that 
just a pipedream? Will we have any effect whatsoever on that?
    Mr. Swartz. Senator, if I could address that. I do not 
think it is a pipedream, and I think we have examples where we 
have had a transformative effect on the criminal justice 
systems of countries. We have done it in Colombia, we have done 
it in the Balkans, and it is been for the benefit--in the 
national security interest of the United States, as well. We 
have to engage with these countries. Their criminal justice 
problems are our criminal justice problems, as well.
    Senator Johnson. But, we have engaged, to the tune of a 
billion dollars over the last 3 years. Just economically.
    Thank you.
    The Chairman. Senator Flake.
    Senator Flake. Thank you, Mr. Chairman.
    Thank you for the testimony.
    I agree with what is been said by my colleagues about--let 
us get at the real goal, here. The real goal is to stem the 
tide of unaccompanied minors. This is a crisis. It is a 
humanitarian crisis. And we have got to do something. Our 
concern--I can tell you mine and many of my colleagues' concern 
about the President's request is, it seems to be geared at 
maintenance of a problem rather than fixing the problem and 
actually changing the incentives that go into it.
    I was glad to hear your explanation, Ambassador Shannon, of 
what this really is and what caused this spike. We can talk 
about violence in those countries. It is there. Talk about drug 
trade, cartels. That is there, has been there. But, it does not 
explain the spike.
    Now, some people will blame DACA or the Senate considering 
immigration reform, or whatever else. But, as has been pointed 
out, the President's plan, DACA, did not apply to these kids. 
Nothing contemplated by the House or the Senate would have 
allowed this kind of spike. And so, as you said, the smugglers 
have latched onto this successful marketing strategy. And I 
would submit that, unless we change the incentives, it will 
continue to work.
    A lot of these people in the smuggling trade--the human 
smuggling trade--were in the drug trade. A lot, over time, have 
gone over to human smuggling, because penalties are less than 
drug smuggling. We have corrected some of that, but not all the 
way. We still need to deal with those issues.
    But, if you look at this, right now, for these smugglers, 
this is a sweet gig. They are able to have this marketing 
strategy, which works, because, as we know, most of these kids 
are allowed to stay, and the possibility for prosecution for 
them is minimal, because they do not even have to come into the 
country, they get them through Mexico, take them to the border, 
tell them where to cross, and never even cross into the 
country. Now, we can still go after them, but we cannot even 
arrest them, or we would have to go into Mexico. And we have, 
you know, some cooperation on that, but it really does not 
happen. So, for the smugglers, things are not going to change 
until the incentive structure changes.
    And the concern that I have is that, if you look at what 
the President's request is, $1.8 billion just for the 
Department of Health and Human Services, which has no role in 
border enforcement or deportation--it is to actually take these 
kids and house them and then place them with a sponsor. As has 
been said by Senator Rubio, the net effect, the practical 
effect right now, what is there on the ground, regardless of 
what we say in advertising campaigns, whatever the President 
said--and I want to compliment the President for saying what he 
has said, to the Vice President for saying what he has said 
about these kids, that most of them will not qualify, ``Do not 
send your kids to the border''--they are saying the right 
things, I think the administration is. The problem is, it is 
not backed up by actions. When the President says that, ``Your 
kids will be deported, they will not be able to stay,'' that is 
belied by the facts on the ground. And the facts on the ground 
are that if a child--an accompanied--unaccompanied minor or a 
child with a mother comes across, very, very few are actually 
being sent back.
    Cecilia Munoz, Director of the White House Domestic Policy 
Council, said this, ``If you''--and she is right--``If you look 
at the history of these kids in cases that apply to them in 
this situation, seems very unlikely that the majority of these 
children are going to--they are going to have the ability to 
stay in the United States.'' They are saying that. That should 
be the case, but the practical effect of our policy is that, 
once a child is placed with a sponsor, it is extremely unlikely 
that they are going to be deported. And she said, ``If we are 
to stem the tide and start sending the right signals to 
families down south, it will need to involve literally 
thousands of kids being repatriated.'' I mean, I think 
everybody recognizes that. When planes show up and the 
smugglers realize--and the families that are paying this 
realize that their money was ill spent, that they subjected 
their children to a lot of potential abuse or abuse for 
nothing. But, right now, what they see is these kids being 
placed with a sponsor, given a court date months or years in 
the future, and then--think about it for a minute--the charge 
of HHS is to place a child in the least restrictive environment 
that is in their best interest. If you draw that out a bit, 
would we be placing a child with a sponsor who is either a 
parent, or relative, or someone else in this country, and is it 
in our best--or, the children's best interest, later, to rip 
that child away from that family member or those family 
members, and then deport them later? I think the families that 
are coming, and certainly the smugglers understand--that is not 
going to happen. And so, the incentive structure is still 
there.
    And my concern--I think a lot of our concern is that, until 
we change that structure, until we can expedite the process so 
that we are not having to place these children here in this 
country, only to show up or not show up later at some type of 
hearing or legal proceedings--until we change that incentive 
structure, the smugglers will continue, because, for them, it 
is a successful strategy with very little downside, not even 
having to come into the country. You know, it used to be, when 
you had human smuggling, you had to get kids across the Arizona 
border, get them to the I-10, place them with someone else. At 
least somebody was at risk of being caught. Now, not likely. 
And so, they have a good gig--for them, a good gig going. And I 
am afraid that we need to change the incentive structure.
    Ambassador Shannon, do you--I have rambled a bit, I know, 
but do you see a change in this behavior, on the part of the 
smugglers and the families that they are preying on, changing 
unless we change the incentive structure here?
    Ambassador Shannon. Changing the incentive structure will 
change a particular form of migration. It will change smugglers 
turning their kids in at the border. It will not stop the 
migration.
    Senator Flake. Well, I----
    Ambassador Shannon. The----
    Senator Flake. Understood.
    Ambassador Shannon. The migration has to be addressed in 
the home country, because these kids are like boomerangs. It 
does not matter how far we thrown them. For those who feel that 
they are under threat and for those who are hopeless in their 
home countries, they will come back.
    Mr. Swartz. Senator, if I could add, we are trying to 
change the incentive structure for smugglers, as well. Our 
resident legal advisor in Honduras has put together a joint 
group involving Honduras, Guatemala, and El Salvador aiming 
exactly at how we can engage those countries in the prosecution 
of smugglers.
    Senator Flake. I think that is all good, and we ought to 
increase the number of refugees that are allowed here for a 
genuine claim of persecution, that those, to the extent 
possible, should happen in their home countries, at embassies 
and consulates there. But, my concern, here, is that, as long 
as we are placing these children and they have achieved their 
desired goal, to be reunited with family members or to stay for 
a long time, the incentives will not change. And that is my 
concern. And that is a bigger driver than everything else right 
now.
    Thank you.
    The Chairman. Thank you. There are a lot of thoughtful 
views, here. Let me just go through a quick series of things, 
here. I just want to make sure, so we have an absolutely 
replete record.
    Mr. Swartz, are there more Border Patrol agents, Custom 
inspections, drone flights now than in any other time that you 
can recall?
    Mr. Swartz. Yes, Mr. Chairman.
    The Chairman. As a matter of fact, is it not true that the 
Border Patrol and Customs Inspections is the largest law 
enforcement entity we have in the Federal Government?
    Mr. Swartz. That is correct.
    The Chairman. Now, children placed with a guardian, that 
question, who we fear will not show up, we have two choices. We 
can either deal with the costs of detaining that child, or we 
could, if we want to ensure that they show up, because we think 
they are being placed with a guardian who also may not have 
documented status, we could put an ankle bracelet on him, which 
would be more humane than detention, and far less expensive. 
So, there are options for us to consider as we deal whether a 
person has the right, or not, to ultimately seek asylum.
    Now, is there any way that we can change the smugglers' 
marketing? I mean, I do not know that we promote the smugglers' 
marketing, but is there any way we can change the--I think what 
we should be doing is smashing the smuggling networks. And I 
would say to some of these individuals, ``Cooperate with us, in 
terms of who were the smugglers who brought you here,'' and 
start prosecuting them. And when the smugglers know that there 
is a consequence to them, that they may in fact, go to jail 
either in that country or here, that we will have a change in 
their marketing, believe me.
    Mr. Swartz. And, Senator, I can say, in that regard, that 
one of our resident legal advisors in one of the northern 
triangle countries, for instance, will be traveling with his 
counterparts to interview children here in the United States 
for precisely that purpose.
    The Chairman. Now, I want to include in the record, since 
much has been made of 2012 and DACA, which is the deferred 
action items--what--since we want to make sure that we get the 
word out there, let us get the word out there. How do you 
actually qualify for deferred action? You must have come to the 
United States under the age of 16, and you must have 
continuously resided in the United States for at least 5 years 
preceding the date of 2012, which means that if you were not 
physically in the United States, and can prove it, since 2007, 
and, among other eligibility, you would not be eligible to 
adjust your status. Is that a correct understanding? I am 
reading from the Department of Homeland Security document.
    Mr. Swartz. Yes.
    The Chairman. You had to also not only be here since 2007, 
and be under the age of 16 when you came, but you had to be in 
school, you had to have graduated from high school, you have to 
have obtained a general education development certificate or be 
honorably discharged veteran of the Coast Guard or the Armed 
Forces of the United States. You cannot do all of that unless 
you were here before 2007.
    So, without objection, I will include the Homeland 
Security's Eligibility for Deferred Action.


    [The information referred to above can be found of page 
80.]


    Let me ask you, Is it not true that President Obama has 
deported more migrants than any President in recent history?
    Mr. Swartz. That is correct, Mr. Chairman.
    The Chairman. As a matter of fact, some have called him 
``The Deporter in Chief.''
    Now, it seems to me that Congress has unclean hands, here, 
in its failure to act to reform our immigration system. And, in 
the absence of that failure, what has been Congress' successful 
role is to dramatically increase Borders and Custom enforcement 
to the point that we have had the most detentions and 
deportations at any other time.
    So, let me ask two final questions. Did all 60,000 of the 
children that we estimate have arrived, pay a smuggler to get 
here?
    Ambassador Shannon. I do not know the exact figure, because 
I have not seen the results of the interviews that have been 
done, but the younger ones, almost certainly. Some of the older 
ones, the 16- and 17-year-olds, at least in the conversations I 
have had with them either at Lackland, at the HHS facility, or 
in McAllen at the CBP facilities, or in the shelters, some have 
come on their own.
    The Chairman. And those who rode the ``Train of Death,'' 
did they have a smuggler?
    Ambassador Shannon. Typically, yes.
    The Chairman. Okay.
    Now, the national security interests--if we do nothing--
nothing as it relates to Central America, except tell the 
Central Americans, ``Get your act together''--but, we do 
nothing more, what is going to be the consequences of that?
    Mr. Swartz. Mr. Chairman, I think that it will have serious 
law enforcement consequences for the United States, as well. As 
noted, these criminal gangs operate not only in the Central 
American countries, they operate in the United States. We are 
bringing actions against them, even today, on that basis. And 
the cartels do the same.
    The Chairman. And when we had a concerted effort in 
Colombia, did we not achieve taking a country that was 
virtually on the verge of not being able to control its own 
internal sovereignty, being run by drug lords, and ultimately 
change that country to what is now one of the finest 
democracies in the western hemisphere?
    Mr. Swartz. We did, Mr. Chairman. We know how to do this.
    The Chairman. Senator Corker.
    Senator Corker. Mr. Chairman, I want to thank you for 
having the hearing. I actually--I think it is been very 
educational.
    And, if it is okay, I would like to also enter into the 
record an article from the Wall Street Journal entitled ``Few 
Children Are Deported.'' I would also like to enter, if okay, 
Table 39\1\ from the U.S. Department of Homeland Security 
document that Senator Johnson was referring to that really 
challenges the notion and stipulates the differences between 
removals and returns. I think returns are actually diminishing 
at a pretty high level.
---------------------------------------------------------------------------
    \1\ Table 39 can be found on page 103 of the 2012 Yearbook of 
Immigration Statistics: http://www.dhs.gov/sites/default/files/
publications/ois_yb_2012.pdf


    [The information referred to above can be found on page 
---------------------------------------------------------------------------
81.]


    Senator Corker. But, here is what I would like to say. 
Look, I--this is a humanitarian crisis, and I think everybody 
here--all of--most of us have children, have--I mean, we--you 
know, to see what is happening with so many children from other 
countries, you know, it breaks our heart.
    At the same time, with an emergency supplemental, it seems 
to me that what we should be addressing is, Is there something 
that we can immediately do to change the incentive structure? 
We have talked a little bit about what the phenomenon is. I do 
think it would be very important for all of government, on the 
executive side, to address what is causing this spike. And I do 
think there is a marketing that is taking place, but it is 
based on policies.
    And, actually, if you looked at returns, the returns issue 
is a big part of this. I mean, very few people are being 
returned.
    Mr. Swartz, I know I was--first of all, I appreciate you 
both being here. I know you all are great public servants.
    The reason I was focusing on the asylum issue is that if, 
in fact, the number is 58 percent, what that also means is 
that, if you actually ever make it to court, which very few do, 
you then have a 58-percent chance of a situation, possibly, 
where you are--no action is being taken against you there, too. 
So, I would like for--I think we ought to define--I do not want 
to get into the debate of what asylum is. And I know the U.N. 
and us, we have different categories. But, I do think it is 
important for us to, over time, define that.
    And I want to go back to the chairman's thrust in this 
committee hearing. I do think it is important for us to develop 
policies that, you know, affect the region. And I do think some 
of the partnerships are important. And I think Senator Kaine's 
comments about, ``Look, when you travel through Central 
America--in fairness, you can see that the U.S. demand for 
drugs is ravaging these countries.'' I mean, that is a fair 
statement. That is fair. But, I would think that, during this 
period of time when we have an emergency, that what we would 
address, in an emergency, is the incentive structure and trying 
to address the problems that Senator Johnson raised, and then 
look--come back and look, longer term, at what we need to do 
throughout the region, if you will, to possibly have some 
impact on what is happening. Some of the Central American 
countries do not have this issue. I think we should look at why 
they do not. Some of the Central American countries do have 
this issue. Honduras, in particular.
    So, I thank you for the hearing. I think that what is 
before us right now is maybe an acute issue that we need to 
first address, and then I do hope that, over time, the 
committee will develop a longer-term plan.
    And again, I thank you both for being here. I know there 
are emotions--they are running high on both sides. And 
hopefully there will be some consensus to a policy that will 
stem the flow as quickly as possible and then let us address 
some longer-term issues.
    Thank you both very much.
    The Chairman. Well, thank you, Senator Corker.
    One request of Mr. Swartz. I would like you to produce to 
the committee what were the detentions of children and the 
deportation of children prior to 2009. So, for the, let us say, 
8 years prior.
    Mr. Swartz. Mr. Chairman, we will do that.
    The Chairman. Secondly, Senator Corker, as the ranking 
member, has always been, and continues to be, a thoughtful 
member on all of these issues, and I appreciate it. And the 
only thing I would say, that there is a difference between 
passion and emotion. Some of us are passionate about some of 
these issues, as some are passionate about the size of 
government or the cost of government, the spending of 
government. So, it is not so much emotion as it is passion, at 
the end of the day.
    With the appreciation of the committee for both of your 
testimony, you are excused at this time.
    I would like to call up our second panel. We are pleased to 
have Pulitzer Prize-winning journalist and author, Sonia 
Nazario, who is been recognized for her book, ``Enrique's 
Journey.'' She serves as a board member of KIND, Kids in Need 
of Defense. We also have Cynthia Arnson, the director of the 
Latin American Program at the Woodrow Wilson International 
Center for Scholars, here in Washington.
    And I would ask the audience who is leaving to do so 
quietly, please.
    And Stephen Johnson, the regional director for Latin 
America and the Caribbean at the International Republican 
Institute.
    Let me welcome you all to the committee. As I said to our 
previous panel, your full statements will be included in the 
record in their entirety, without objection. I would ask you to 
try to summarize them in about 5 minutes or so, so that we 
could engage in a dialogue.
    And we will start with you, Ms. Nazario. If you would turn 
your microphone on.

    STATEMENT OF SONIA NAZARIO, AUTHOR, ENRIQUE'S JOURNEY, 
         JOURNALIST, KIND BOARD MEMBER, WASHINGTON, DC

    Ms. Nazario. Thank you, Mr. Chairman, Senator Corker, and 
other members of the committee, for inviting me to speak to 
testify before you today.
    I am Sonia Nazario, a journalist, author, board member of 
Kids in Need of Defense, a nonprofit founded by Microsoft and 
Angelina Jolie that recruits pro-bono attorneys to represent 
unaccompanied children.
    I first went to Central America to write about civil wars 
in the early 1980s. I focused on unaccompanied children, 15 
years ago, writing the modern-day odyssey of one boy, Luis 
Enrique Motino Pineda, whose mother left him in Honduras when 
he was just 5 years old. Eleven years later, he went in search 
of her in the United States by riding up the length of Mexico 
on top of freight trains.
    Last month, I returned, for the first time in a decade, to 
Enrique's home in Nueva Suyapa, a neighborhood of Tegucigalpa. 
I lived there for 1 week. I saw a huge change in why children 
are migrating to the United States, a level of violence 
directed at them that astounded me. I have lived through 
Argentina's dirty war and ridden on top of seven freight trains 
controlled by gangs through most of Mexico. I am not easily 
spooked. But, after a week, I thanked God I got out of 
Enrique's neighborhood alive.
    Gangs have long ruled parts of Nueva Suyapa, but recent 
control by narcocartels has brought a new reach and viciousness 
to the violence. Children, in particular, are being targeted 
here and throughout the country. Children are kidnapped, found 
hacked apart, heads cut off, skinned alive. Sometimes at night, 
men in facemasks strafe anyone on the street. War taxes are 
imposed on virtually everyone. If you do not pay, the narcos 
kill you. Many neighborhoods are even worse.
    Cristian Omar Reyes, an 11-year-old 6th grader in Nueva 
Suyapa, told me he had to leave Honduras soon, no matter what. 
He has been threatened twice by narcos, and he fears the worse. 
Last March, his father was killed by gangs. Three people 
Cristian knows were murdered this year. A girl his age was 
clubbed over the head, dragged off by two men, who cut a hole 
in her throat, stuffed her panties in it, and left her broken 
body in a nearby ravine. ``I cannot be on the street,'' says 
Cristian, who narcohitmen pass by--he says that narcohitmen 
pass by on these three-wheeled taxies. ``They shoot at you. I 
have seen so much death.''
    Gangs are forcibly recruiting children as young as 10 to be 
their foot soldiers throughout the country. Children told me 
they had two choices: join or get out to stay alive. This is no 
different than child soldiers who are forcibly conscripted in 
Sudan.
    Schools in Nueva Suyapa have become the narcos' 
battleground. Girls face particular dangers. Recently, three 
girls were raped and killed in Nueva Suyapa, one of them 8 
years old. Two 15-year-olds were abducted and raped. A girl I 
interviewed, who had been threatened by gangs, said, ``It is 
better to leave than have them kill me here.'' And Cristian 
told me, ``I am going this year, even if I need to ride on that 
train.''
    Children like Cristian fully understand how lethal the 
journey can be. Neighborhoods are dotted with people who have 
lost limbs to the train. Many know someone who has died in that 
attempt. The Zetas narco cartel is kidnapping 18,000 Central 
Americans off those trains every year, and they prefer 
children. They demand ransom and kill children whose relatives 
cannot or will not pay.
    You would have to be, honestly, crazy or desperate to save 
your life to ride on that train now. Many of these children, 
not all, are refugees. Refugees flee their country for safety, 
because they face persecution and possible death and cannot 
turn to their government to protect them. Despite billions the 
United States has spent to disrupt the flow of drugs from 
Colombia up that Caribbean corridor, the narco cartels, mostly 
Mexican, have simply rerouted inland to Honduras. Around 2011--
2011--the narcos' grip in the neighborhoods, like Nueva Suyapa, 
tightened. That was, not coincidentally, the first year the 
United States started to see a surge in unaccompanied children.
    We must address this situation, but by treating these 
children humanely. And that means more than using the word in 
the title of legislation. To roll back basic protections of the 
Trafficking Victims Protection Reauthorization Act of 2008 and 
expedite deportation means Border Patrol will give even 
trafficking victims a cursory screening. Their job is to secure 
our borders, not to collect information from traumatized 
children.
    The U.N., among others, has found that the screening of 
Mexican children for protection concerns by Border Patrol has 
been a failure. Every child should have a full, fair, and 
timely hearing before an immigration judge and an attorney. 
While KIND has recruited thousands of volunteer lawyers, more 
than 70 percent of children must still present complex 
immigration cases without counsel, due to the surge. So, 
picture a 7-year-old boy that I saw alone in court, shivering 
with fright, expected to argue against the government's 
attorney, who is battling to send him home.
    Let me finish by saying, we must bolster security in 
Honduras and the region, not by funding corrupt police and 
military, but by strengthening accountability, the judiciary, 
and child protection. Less than a tenth of the President's 
proposed $3.7 billion funding request is for aid to this 
region. Lacking funding, USAID has closed its program in Nueva 
Suyapa.
    We show deep concern for girls who are kidnapped in 
Nigeria, but not for girls kidnapped by narcos in Honduras. 
Why? How can we demand that countries neighboring Syria take in 
nearly 3 million refugees, but turn our backs on tens of 
thousands of children from our own neighbors? If we shortchange 
due process, I believe that Congress and this administration 
will be sending many children back to their deaths.
    Thank you for the opportunity to speak, and I welcome your 
questions.
    [The prepared statement of Ms. Nazario follows:]

                  Prepared Statement of Sonia Nazario

    Good morning. My name is Sonia Nazario; I am a journalist, author, 
and serve on the board of Kids in Need of Defense (KIND), a nonprofit 
founded by Microsoft and Angelina Jolie that recruits pro bono 
attorneys to represent unaccompanied children.
    I first went to Central America to write about civil wars in 
Guatemala and El Salvador in the early 1980s. I focused on 
unaccompanied children 15 years ago, writing the modern-day odyssey of 
one boy, Luis Enrique Motino Pineda, whose mother leaves him in 
Honduras when he is 5 years old, and who sets off 11 years later to go 
in search of her in the United States by riding up the length of Mexico 
on top of freight trains.
    Last month, I returned for the first time in a decade to Enrique's 
home in the Nueva Suyapa neighborhood of Tegucigalpa. I lived there for 
a week. I saw a huge change in why children are migrating north to the 
U.S.--a level of violence directed at them that honestly astounded me. 
I have lived through Argentina's dirty war and ridden on top of seven 
freight trains controlled by gangs through most of Mexico. I am not 
easily spooked. But after a week, I thanked God that I got out of 
Enrique's neighborhood in one piece.
    Gangs have long ruled parts of Nueva Suyapa, but the recent control 
by narcocartels has brought a new reach and viciousness to violence 
children in particular face in this neighborhood and throughout the 
country. People are found hacked apart, heads cut off, skinned alive. 
Children are kidnapped. People are routinely killed for their cell 
phones. On some 20 or 30 buses daily, passengers are all robbed at 
gunpoint; in one instance 23 were killed. Sometimes, at night, men show 
up in face masks and strafe anyone out on the street. Threatened 
families have had to abandon homes and flee with only the clothes on 
their backs.
    Several neighborhoods are worse than Nueva Suyapa; no one can go in 
without permission from gangs or narcotraffickers, and war taxes are 
imposed on every resident. If you don't pay, they kill you. World 
Vision International, a Christian nonprofit group, has shut down 
operations in a nearby neighborhood because thugs won't let their staff 
enter.
    Cristian Omar Reyes, an 11-year-old 6th grader in Nueva Suyapa told 
me he had to get out of Honduras soon--``no matter what.'' He has been 
threatened twice by narcos who said they would beat him up if he did 
not use drugs, and he fears worse.
    Last March, his father was robbed and murdered by gangs. Three 
people Cristian knows were murdered this year; four others were gunned 
down on a nearby corner in the span of 2 weeks at the beginning of this 
year. A girl his age resisted being robbed of $5. She was clubbed over 
the head and dragged off by two men who cut a hole in her throat, 
stuffed her panties in it, and left her arms and hips broken. She was 
found in a ravine across the street from Cristian's house.
    ``I can't be on the street,'' says Cristian, adding that there are 
sicarios--narco hit men--who pass by in mototaxis, three-wheeled 
motorcycle taxis, on his Nueva Suyapa street where crack is sold. 
``They shoot at you. I've seen so much death.''
    ``I'm going this year,'' he told me. ``Even if I need to ride on 
the train.'' He promises himself he'll wait until he finds a freight 
train moving slowly before jumping on to avoid being pulled under and 
losing an arm or leg.
    A decade ago, when children left Honduras planning to ride on the 
train through Mexico, many of them didn't fully grasp how dangerous 
this is. That's no longer the case. Neighborhoods are dotted with 
people who have lost arms and legs to the train, visible reminders of 
what La Bestia, or the so-called Train of Death, can do.
    Many know someone who has died in the attempt. They know that the 
Zetas, the most bloodthirsty narcocartel in Mexico, is kidnapping 
18,000 Central Americans off those trains every year, and they prefer 
to grab children. They know the Zetas beat these children until they 
provide the telephone of a relative in the U.S., then demand $2,500 in 
ransom, and kill children whose parents don't or can't pay. I spent 3 
months, off and on, riding on top of seven trains in 2000. It's much 
worse now. You'd have to be crazy to do it--or desperate enough to fear 
for your life if you stay at home.
    I consider many of these children--not all--to be refugees. Why? 
Unlike an immigrant, who sets off for a new land to better their lives, 
a refugee is someone who must flee their country primarily for safety 
because their government cannot or will not protect them. If they stay, 
they face persecution and possible death.
    The U.S. has spent billions to disrupt the flow of drugs from 
Colombia up the Caribbean corridor. The narcocartels, mostly Mexican, 
have simply rerouted inland, and four in five flights of cocaine bound 
for the U.S. now land in Honduras. These cartels are vying for control 
over turf and to expand drug distribution, sales, and extortion in 
these neighborhoods.
    Around 2011 the narcos grip seemed to tighten in neighborhoods like 
Nueva Suyapa. That was not coincidentally the first year the U.S. 
started to see a surge in unaccompanied children.
    They are forcibly recruiting children as young as 10 and 11 to be 
their foot soldiers. Children told me they felt they had two choices: 
join with delinquents who worked for the narcos or reject them and get 
out to stay alive. This is no different than child soldiers who are 
forcibly conscripted in Sudan or in the civil war in Bosnia. Schools in 
Nueva Suyapa have become the narcos' battleground. Teachers must pay a 
war tax to teach; students must pay ``rent'' to go to school.
    Building costly walls may make good politics, but they don't work. 
We must instead focus on dealing with this exodus at its source. Folks 
in Honduras feel the U.S. hasn't paid any attention to them since the 
Kennedy administration. Less than a tenth of the President's proposed 
$3.7 billion supplemental funding request focuses on aid to these three 
countries. USAID had closed its program in Nueva Suyapa there due to 
lack of funding.
    If you want to fix this crisis you must do three difficult things. 
You must summon the political will to treat these kids humanely, and 
that means more than using that word in the title of legislation. It 
means giving them a full, fair, and timely immigration hearing, as 
required under the Trafficking Victims Protection Reauthorization Act 
(TVPRA) of 2008. To roll back basic protections of the TVPRA and 
expedite deportation--treat Central American children the same way we 
handle Mexican children--means Border Patrol agents will give at most a 
cursory screening to children, even those who are trafficking victims. 
These are folks trained to be law enforcers, not in child-sensitive 
techniques designed to get traumatized kids to talk. The U.N., among 
others, has found that the screening of Mexican children for protection 
concerns by Border Patrol has been a failure.
    It means providing every child who stands before an immigration 
judge an attorney. KIND has worked hard to recruit volunteers, and 
these more than 7,000 lawyers have done incredible work. But it's a 
drop in the bucket, especially now given the surge. KIND estimates more 
than 70 percent of children are standing before a judge without anyone 
to help them mount and present complex immigration cases. These 
children face U.S. government attorneys arguing why they should be 
deported. No one in their right mind would consider this a fair fight, 
or anything approaching due process. I saw a 7-year-old boy alone in 
court, and KIND staff has seen 5-year-old children, answering judges' 
questions, shivering with fright, clutching teddy bears.
    We also have to deal with insecurity in Honduras in a way that 
doesn't fund corrupt police and the military that are a big part of the 
problem. We must strengthen the judiciary in Central America, 
accountability, as well as national child protection systems.
    How can we have so much concern for girls kidnapped in Nigeria, but 
not for girls being kidnapped by narcos in Honduras who demand they be 
their ``girlfriend'' or they will kill them? How can we ask countries 
that neighbor Syria to take in nearly 3 million refugees, but turn our 
backs on tens of thousands of children from our hemispheric neighbors 
to the south? If we short-change due process for these children, I 
believe Congress and this administration will be sending many children 
back to their deaths.

    The Chairman. Thank you.
    Ms. Arnson, as I said before you were able to come back 
into the chamber, your full statement will be entered into the 
record. I would ask you to summarize in about 5 minutes.
    There is a vote going on. I am going to try to see if we 
can get through the testimony and then recess and come back for 
questions.

 STATEMENT OF CYNTHIA ARNSON, DIRECTOR, LATIN AMERICA PROGRAM, 
 WOODROW WILSON INTERNATIONAL CENTER FOR SCHOLARS, WASHINGTON, 
                               DC

    Ms. Arnson. Great. Chairman Menendez, thank you very much 
for this opportunity--Senator Corker, Senator Kaine, and others 
who have been present.
    I would like to emphasize some of the points that have been 
made by earlier speakers, but say that a long-term solution to 
what is now this humanitarian crisis depends on the quality of 
improvements in democratic governance, in citizen security, and 
in development in Central America. The United States Government 
must be prepared to commit to these goals over the long term, 
and Central American actors in and out of government must 
assume a willingness and a will to transform their own 
countries.
    There is no one causal factor. I will focus mostly on the 
push factors of criminal- and drug-fueled violence. We have 
heard the homicide statistics, but, as impressive as they are, 
they tell only part of the story. There is an excessive focus 
on homicides that is understandable, but it does not capture 
the other forms of street crime, threats, assault, kidnapping, 
sexual violence, and extortion that affect citizens on a 
routine and intimate daily basis. Many of these statistics 
about other crimes are not reliable, as civilians do not trust 
the police or other authorities. And this leads to a 
significant underreporting of even serious crimes.
    I would also encourage members of the committee to examine 
a map prepared by the Department of Homeland Security which 
studied the cities and towns of origin of the bulk of the 
undocumented children migrants between January and May 2014. 
They found that the largest number--20 of the top 30 sending 
cities and towns--were Honduran, led by San Pedro Sula, the 
most violent city in the world. And our own Department of 
Homeland Security noted that, ``Salvadoran and Honduran 
children . . . come from extremely violent regions, where they 
probably perceive the risk of traveling alone to the United 
States preferable to remaining at home.''
    Gangs, or maras, are responsible--are not solely 
responsible for the levels of violent crime, but their role is 
pervasive and highly organized. I think it is important to 
highlight that the MS-13 and the 18th Street Gang were formed 
in the United States, in Los Angeles, and that U.S. 
deportations of gang members who had been convicted of crimes 
in the United States for years with little or no advanced 
warning to government officials in the region contributed to 
the diffusion of gang culture and practices. Crime and 
violence, including that perpetrated by gangs, have worsened as 
drug trafficking and other forms of organized crime have 
spread. And those points have been dealt with extensively, and 
I will not go into them now.
    What I would like to address is the kinds of policy 
responses that this committee could oversee and that the U.S. 
Congress could take. I believe that there is really actually no 
time since the Central American wars of the 1980s that there 
has been so much media and policy attention focused on Central 
America. I welcome that attention. But, I also think that our 
inability or our walking away from the many needs of the 
peacetime era in the 1990s and early 2000s, you know, had some 
contribution to the current situation. The CARSI, the Central 
American Regional Security Initiative, that was launched in 
2008 in response to the concern about the spillover of 
organized crime from Mexico, has focused, rightfully, on 
security. It has been underresourced, and it has not focused 
sufficiently on other government or development objectives.
    There is no silver bullet to address these problems. They 
have taken decades, if not, one could argue, centuries, to 
develop. But, I believe that progress is possible, with the 
right leadership, with sufficient resources, with active 
participation from Central American societies, and with 
integrated approaches, and, above all, with adherence to the 
principles of transparency and accountability.
    As we have seen in Colombia and so many other places, a key 
ingredient for policies to be successful is political will and 
leadership from the region itself.
    I believe that, as large as the current spending request is 
before Congress, far too little is made available for 
addressing the root causes of migration in Central America. 
There is approximately $295 million to address the economic, 
social, governance, and citizen security conditions in the 
region, but that amount is also to be used for the repatriation 
and reintegration of migrants in Central America.
    I believe that my time is up, and I will say that improving 
citizen security is a necessary condition for fostering 
economic growth and for fostering investment. Our assistance 
programs, up until now, have been too overly focused on 
counterdrug operations and not enough on providing citizen 
security and attacking the causes of crime and violence that 
affect citizens' daily lives.
    I also believe we need to make efforts to foster 
opportunity in the legal economy by investing in human capital 
formation that matches education and job training with the 
demands of the labor market.
    I will end there, and I welcome your questions.
    Thank you.
    [The prepared statement of Ms. Arnson follows:]

                Prepared Statement of Cynthia J. Arnson

    Chairman Menendez, Senator Corker, and distinguished members of the 
committee, as someone who has closely followed Central American affairs 
for over three decades, I am pleased to have this opportunity to 
testify on the surge of unaccompanied minors arriving at the U.S. 
border from Central America.
    As our Nation seeks to address this unprecedented influx, we must 
humanely and intelligently respond both to immediate needs and address 
longer term perspectives. In the short term, our response must ensure 
that, in accordance with U.S. and international law, those in need of 
protection as victims of human trafficking and/or those with legitimate 
claims for asylum are afforded timely due process; that is, that they 
are assisted and not penalized. This principle is important to keep in 
mind in light of the pressures to remove children quickly, given the 
current size of the influx as well as to send a strong message in an 
effort to deter further migration.
    My testimony \1\ will address three of the most important drivers 
of this flow, and suggest options for improving the quality of 
democratic governance, citizen security, and inclusive development in 
Central America. Indeed, a long-term solution to what is now a 
humanitarian crisis rests on these three pillars--what the U.S. 
Government is prepared to commit over the long-term in pursuit of these 
goals, and what responsibility Central American actors in and out of 
government are willing to assume to transform their own countries.
    There is no one causal factor that accounts for the unprecedented 
increase in unaccompanied children attempting to enter the United 
States, or the lesser but still significant increase in the number of 
adults attempting to enter with young children. The numbers of young 
children seeking to enter spiked in this fiscal year after smaller but 
significant increases in the past 2 years.\2\ Children from Nicaragua, 
Panama, and Costa Rica are, for the most part, not part of this 
increase. This begs a closer exploration as to why such large numbers 
are arriving from El Salvador, Honduras, and Guatemala--the so-called 
Northern Triangle. In general, the ``push'' factors behind this flow 
stem from the persistent failure of governments following the internal 
armed conflicts of the 1970s, 1980s, and 1990s, to guarantee the 
security of their citizens or provide a foundation for broad-based 
socioeconomic well-being.\3\ These twin failures have given rise to a 
cluster of factors that can be summarized as follows:
                   criminal and drug-fueled violence
    Central America's Northern Triangle (El Salvador, Guatemala, and 
Honduras) has been described with numbing regularity as the most 
violent region in the world outside countries at war. The staggering 
rates of homicide \4\ take their largest toll on young men between the 
ages of 15 and 29, although young women have been increasingly 
targeted. Annual homicide statistics, as revealing as they are, tell 
only part of the story. For example, the homicide rate in El Salvador 
declined due to a controversial truce between the country's two most 
important gangs. However, some parts of the country saw a rise in 
murders during the gang truce, reinforcing the point that crime rates 
within a country's borders vary significantly, between urban and rural 
areas, from city to city, and--within cities--from neighborhood to 
neighborhood.\5\ Hence, a decline in the national average, as has 
occurred in Guatemala over the past several years, does not necessarily 
eliminate ``hot zones'' with high murder rates. Indeed, a Department of 
Homeland Security (DHS) study of unaccompanied minors attempting to 
enter the United States between January and May 2014 found that the 
largest number by far came from Honduras. Twenty of the thirty top 
sending cities and towns were Honduran, led by San Pedro Sula, the most 
violent city in the world.\6\ As noted by DHS, ``Salvadoran and 
Honduran children . . . come from extremely violent regions where they 
probably perceive the risk of traveling alone to the U.S. preferable to 
remaining at home.'' \7\
    Moreover, excessive focus on homicides, while understandable, does 
not capture the many forms of street crime, threats, assault, 
kidnapping, sexual violence, and extortion that affect citizens on a 
routine and intimate basis. Many statistics are unreliable as civilians 
do not trust the police or other authorities, leading to significant 
underreporting of even serious crimes.
    Gangs or maras are not solely responsible for the levels of violent 
crime in the Northern Triangle, but their role is pervasive and highly 
organized. In post-war Central America, numerous factors contributed to 
the rise of gangs--migration to the United States, which divided 
families; a lack of opportunity; a culture of violence; access to 
firearms; an absence of social capital; rapid urbanization, etc.\8\ 
U.S. deportations of gang members convicted of crimes in the United 
States, for years with little or no advance warning to government 
officials in the region, contributed to the diffusion of gang culture 
and practices. Zero-tolerance or mano dura policies adopted by the 
Governments of El Salvador and Honduras, in particular, only made 
matters worse; these policies reinforced gang solidarity and membership 
as a form of protection from the state and led to prison overcrowding 
and the role of prisons as incubators of gang membership. All this took 
place against a backdrop of incomplete, and at times distorted, 
processes of building and reforming civilian security and law 
enforcement institutions after the end of civil wars. Impunity and 
corruption remain rampant.
    Crime and violence, including that perpetrated by gangs, have 
worsened as drug trafficking and other forms of organized crime have 
spread in the Northern Triangle. However, the crisis of insecurity long 
predates the spillover of Mexican drug trafficking cartels such as the 
Zetas or Sinaloa into Central America. U.S. demand for drugs has served 
to deepen the security crisis, as has the failure to restrict the flow 
of firearms from the United States into Mexico and Central America. 
Weak institutions and some corrupt officials in those countries have 
permitted organized crime to flourish.
                    poverty and lack of opportunity
    Poverty by itself is not a good predictor of who will migrate and 
when, but a general lack of opportunity, particularly when coupled by 
high levels of violence in poor neighborhoods, creates an important 
push factor for those who are willing to risk their lives in order to 
enter the United States. Poverty levels in the Northern Triangle have 
gone down since the 1990s, but it is still the case that poverty 
affects approximately 45 percent of Salvadorans, 54.8 percent of 
Guatemalans, and 67.4 percent of Hondurans. In Guatemala and Honduras, 
over half of those in poverty are classified as indigent, that is, in 
extreme poverty.\9\ According to the World Food Program, in Guatemala 
alone, approximately half of children, ages 5 and under, suffer from 
chronic undernutrition. Rural poverty in general is far worse than in 
urban areas. Growth rates in the three countries vary; all three 
economies suffered severe impacts as a result of the 2008 global 
financial crisis and for the most part, recovery has been mediocre.
    One striking indicator of the lack of opportunity is the proportion 
of 15 to 24-year-olds who neither study nor work. Known by the Spanish 
acronym ``Ni-Ni,'' they constitute 23.9 percent of youth in this age 
group in El Salvador, 22.6 percent in Guatemala, and 28.0 percent in 
Honduras. Many young women in this category help take care of 
households. Of young people 15-24 years of age who have work, low 
levels of education prevail. More than 60 percent of Guatemalans and 
Hondurans in this age group have left school before completing nineth 
grade. The same is true for approximately 48 percent of 
Salvadorans.\10\
    Northern Triangle countries are also characterized by high levels 
of inequality of opportunity. Indicators such as the Gini coefficient 
and the United Nations Development Program's Inequality Adjusted Human 
Development Index demonstrate that inequality is pervasive in the 
region.\11\
                          family reunification
    Migration flows from Central America into the United States 
increased in a significant way during the civil wars of the 1980s. Many 
of those entering the United States from El Salvador, Nicaragua, and 
Honduras were granted Temporary Protected Status. This designation has 
been renewed repeatedly long after the wars have ended and has been 
applied to new groups of migrants following natural disasters such as 
earthquakes and hurricanes, including Hurricane Mitch. Renewals of TPS 
have been carried out in response to requests from Central American 
governments who argue that a return of large numbers of migrants would 
be destabilizing given a lack of opportunities in the labor market. I 
am unaware of information that specifically links adults with TPS or 
Green Cards to the flow of undocumented children. But special 
consideration should be given to family reunification for Central 
American migrants who have legal status in the United States.
    According to the U.S. Department of Homeland Security, of the 11.4 
million unauthorized immigrants in the United States in 2012, the 
number of undocumented Salvadorans, Guatemalans, and Hondurans in the 
United States were 690,000, 560,000, and 360,000, respectively. Often 
working in menial jobs, they have nonetheless managed to support family 
members back home through remittance flows. Remittances have boosted 
incomes and consumption in Central America, often substituting for, or 
at a minimum, supplementing weak social safety nets. Remittances 
constitute fully 17 percent of GDP in El Salvador and 20 percent in 
Honduras. What these figures demonstrate is that divided families in 
Central America are critical to the economic well-being of their 
relatives as well as to their countries' economies overall. The human 
dimensions of this phenomenon should not be overlooked. This is 
especially true given that migration and the strains it places on 
separated families are seen as risk factors for young people joining 
gangs.
    Reporters' interviews with young migrants as well as adults who 
care for them suggest that the desire of parents and children to be 
reunited is a push as well as pull factor behind the current flows. 
There is circumstantial evidence that rumors have spread in communities 
in the region--stoked by unscrupulous and often brutal traffickers 
(coyotes) anxious to profit from the thousands of dollars each migrant 
pays--indicating that children will be reunited with their parents and 
allowed to stay in the United States once they reach the U.S. border. 
The Obama administration has recently begun publicity campaigns to 
counter these misperceptions. Even if perceptions can be altered, 
however, they will do little to curb the desperation that motivates 
young children and others to embark on a perilous and often fatal 
journey.
                            policy responses
    One thin silver lining in the crisis of undocumented minors is that 
it has focused renewed attention on the violence, poverty, and 
hopelessness that affect millions of Central American citizens. Indeed, 
I can recall no time since the Central American wars of the 1980s when 
so much U.S. media and policy attention has been paid to the region. 
Our failure to invest and remain engaged in Central America in the 
peacetime era, with the same resources and single-mindedness with which 
we fought the cold war, has no doubt contributed to the current 
situation. The Central American Regional Security Initiative (CARSI), 
launched in 2008 in response to concerns about the spillover of 
organized crime from Mexico, has focused on security without setting 
other governance and development objectives as priorities. CARSI has 
also been underresourced. This situation needs to change.
    There is no magic bullet to address these problems, which have 
taken decades if not centuries to develop. But progress is possible, 
with the right leadership, sufficient resources, active civic 
participation, integral approaches, and adherence to the principles of 
transparency and accountability. A critical ingredient for policies to 
be successful is political will and leadership from the region itself. 
Yet history has shown that the United States still wields tremendous 
influence and should not hesitate to exercise it on behalf of shared 
objectives.
    In the short run, the current crisis should be handled in ways that 
protect vulnerable children, many of whom have been traumatized in 
their home countries or during their journey to the U.S. border. 
Indeed, humanitarian workers receive frequent reports of trafficking 
for sexual exploitation or slave labor, as well as of organ 
trafficking, kidnappings, and brutal killings. The United Nations High 
Commissioner for Refugees estimates that 58 percent of unaccompanied 
minors have legitimate claims under U.S. and humanitarian law.
    Of the current funding request pending before Congress, far too 
little is to be made available for addressing the root causes of 
migration in Central America. The $295 million included to address 
``economic, social, governance, and citizen security conditions'' is 
also to be used for the repatriation and reintegration of migrants in 
Central America. Once these purposes are accomplished, it is unclear 
how much will be left to meet the significant challenges in remaining 
areas.
    The following suggestions are intended to spur broader thinking 
about a comprehensive, long-term approach:

  <bullet> Transparency and accountability around new spending programs 
        must be core commitments upheld by recipients in the region of 
        U.S. and other international assistance. Corruption erodes 
        trust and fosters cynicism across societies and undermines the 
        legitimacy of government institutions. Building institutional 
        capacity and effectiveness means gaining the confidence of 
        citizens across the board. Leaders of key institutions should 
        not serve unless they are models of these principles.
  <bullet> Future policy initiatives should, as much as possible, be 
        the outcome of broad-based national dialogues in Central 
        America among a range of stakeholders--government 
        representatives; the private sector, business, and professional 
        associations; the Church; think tanks and universities; 
        organized labor; nonprofit organizations; campesino 
        organizations. The forums, with the involvement of other donors 
        and international development banks, should be convened for the 
        purpose of devising concrete proposals for fostering security, 
        governance, and inclusive development.
  <bullet> Improving citizen security--a public good--is a necessary 
        condition for fostering investment and economic growth. U.S. 
        assistance programs under CARSI have been overly focused on 
        counterdrug operations and combating other forms of organized 
        crime. A ``whole of government'' approach has purported to 
        coordinate development and violence prevention strategies with 
        improved law enforcement and interdiction. But in practice, 
        development goals have been secondary and the security programs 
        not sufficiently focused on fighting the crime and violence 
        that affect citizens' daily lives.\12\ The greatest examples of 
        success in Latin America in improving citizen security involve 
        local, community-based initiatives that involve nongovernmental 
        organizations, the private sector, and other civic groups in 
        addition to the police and judiciary.
  <bullet> While security is paramount, other development and 
        governance efforts must go forward in parallel fashion. Efforts 
        must be made to foster opportunity in the legal economy by 
        investing in human capital formation that matches education and 
        job training with the demands of the labor market, including 
        through strategic investment with a training component. 
        Ensuring the reliability of a legal framework that creates 
        certainty for investors without ignoring the needs of ordinary 
        citizens for whom the judicial system does not function is 
        paramount.
  <bullet> More must be done to improve the capacity of remittances to 
        contribute to productive investment in communities, in addition 
        to subsidizing household consumption.
  <bullet> Investments must be made to expand quality public education, 
        including by stimulating U.S. community colleges and vocational 
        and trade schools to partner with underserved communities in 
        Central America. Part of these exchanges should be aimed at 
        improving teacher training.

    No lasting solution to the current crisis will be found ``on the 
cheap'' or in the short run. In the current U.S. fiscal climate, only 
smart investments that derive from a strategic logic will survive the 
political process now and into the future. As the example of Colombia 
demonstrates, a major turnaround in a country's fortunes is possible 
when bipartisan majorities in the United States provide sustained 
support to committed leaders in and out of government who mobilize 
their country's own talent and resources. Central Americans came 
together with the support of the international community to end their 
fratricidal wars two decades ago. A similar effort is needed to convert 
the current crisis into an opportunity for building more inclusive and 
democratic societies.

----------------
Notes

    \1\ I am grateful to Latin American Program interns Kathryn Moffat, 
Angela Budzinski, and Carla Mavaddat for research assistance.
    \2\ The number of Salvadorans, Guatemalans, and Hondurans 
requesting political asylum in Belize, Costa Rica, Mexico, and Panama, 
also increased significantly.
    \3\ See Cynthia Arnson, ed., ``In the Wake of War: Democratization 
and Internal Armed Conflict in Latin America'' (Washington, DC, and 
Stanford, CA: Woodrow Wilson Center Press and Stanford University 
Press, 2012).
    \4\ The rates are 41.2 per 100,000 in El Salvador, 39.9 per 100,000 
in Guatemala, and 90.4 per 100,000, according to 2012 figures of the 
United Nations Office on Drugs and Crime.
    \5\ See United Nations Development Program, ``Informe Regional de 
Desarrollo Humano: Seguridad Ciudadana con rostro humano: diagnostico y 
propuestas para America Latina'' (New York: 2013).
    \6\ The top cities in terms of places of origin of unaccompanied 
minors were: San Pedro Sula, Tegucigalpa, and Juticalpa, Honduras; 
followed by San Salvador, El Salvador; La Ceiba, Honduras; and 
Guatemala City.
    \7\ U.S. Department of Homeland Security, ``Homeland Intelligence 
Today: Unaccompanied Alien Children'' (UACs) by Location of Origin for 
CY 2014: Honduras, El Salvador, and Guatemala, May 27, 2014.
    \8\ Jose Miguel Cruz, Rafael Fernandez de Castro, and Gema 
Santamaria Balmaceda, ``Political Transition, Social Violence, and 
Gangs: Cases in Central America and Mexico,'' in Arnson, ed., ``In the 
Wake of War,'' 317-49. Analysts such as Douglas Farah also point to the 
failure of post-war demobilization and reintegration schemes as a 
factor behind the rise of gangs. See Douglas Farah, ``Organized Crime 
in El Salvador: Its Homegrown and Transnational Dimension,'' in Cynthia 
J. Arnson and Eric L. Olson, eds., ``Organized Crime in Central 
America: The Northern Triangle'' (Washington, DC: Latin American 
Program, Woodrow Wilson International Center for Scholars, 2011), 104-
38.
    \9\ U.N. Economic Commission for Latin America and the Caribbean, 
``Social Panorama of Latin America'' (Santiago: 2013). See also: Hugo 
Beteta, ``Central American Development: Two Decades of Progress and 
Challenges for the Future,'' Regional Migration Study Group, Woodrow 
Wilson Center and Migration Policy Institute, July 2012, 8.
    \10\ 10 Figures concerning the Ni-Ni's are drawn from Programa 
Estado de la Nacion, ``Nini en Centroamerica: la poblacion de 15 a 24 
anos que no estudia ni trabaja,'' presentation at the INCAE and Woodrow 
Wilson Center conference ``Encuentro de Dialogo en Temas de Seguridad 
Centroamericana,'' Managua, Nicaragua, March 24, 2014.
    \11\ See Dinorah Azpuru, ``Las condiciones del Triangulo Norte y 
los menores migrantes,'' ConDistintosAcentos, Universidad de Salamanca, 
Spain, July 14, 2014.
    \12\ Andrew Selee, Cynthia J. Arnson, and Eric L. Olson, ``Crime 
and Violence in Mexico and Central America: An Evolving but Incomplete 
U.S. Policy Response,'' Regional Migration Study Group, Wilson Center 
and Migration Policy Institute, January 2013.

    The Chairman. Thank you.
    Mr. Johnson.

STATEMENT OF STEPHEN JOHNSON, REGIONAL DIRECTOR, LATIN AMERICA 
    AND THE CARIBBEAN, INTERNATIONAL REPUBLICAN INSTITUTE, 
                         WASHINGTON, DC

    Mr. Johnson. Chairman Menendez, Senator Corker, thank you 
for this opportunity to testify on the conditions in Central 
America that are driving out minors as well as adults.
    While overall apprehensions at the U.S. Southwest border 
are a quarter of what they were during the largest waves of 
Mexican migration that took place 14 years ago, the current 
uptick among Central American arrivals is worrisome because of 
the unaccompanied children that are among the migrants and are 
taking extreme risks. That highlights the citizen insecurity 
factor as a driver and the presence of criminal trafficking 
organizations.
    As you have already heard today, the region has persistent 
security challenges, so I will not add to the list, except to 
say that there is a good case to be made for focusing attention 
on the conditions that compel people to leave their country.
    Thirty years ago, after prolonged periods of civil 
conflict, these countries chose to exchange military rule for 
civilian elected leadership. No question, it was the right 
decision. But, at U.S. urging, it meant reorganizing 
government, adopting democratic behaviors, and building a base 
of public servants from a pool that had little experience. 
Police had to be divorced from the armed forces to which they 
had belonged. Courthouses had to be built and modern justice 
systems established. It is a process that is still going on 
today.
    Unfortunately, crime and violence prey on such societies at 
their moment of weakness. During this time, Colombian and 
Mexican drug traffickers, fueled by North American cocaine 
habits, invaded Central America. Initially disorganized, 
deportations from the United States gave rise to youth gangs. 
Our country has tried to help Central American neighbors, among 
others, such as Mexico, establish new justice systems, but 
these tasks take time, and they are resource-intense. Central 
America's traditional models of centralized top-down governance 
with weak districts and municipalities also leave citizens, 
mayors, and town councils largely out of the business of making 
their communities more secure.
    In the work that it does in Central America, the 
International Republican Institute specializes in the 
development of citizen security mechanisms that bridge the gap 
between citizens, municipalities, and national-level efforts. 
We have begun working with public security officials at the 
ministry level, as well as municipal authorities, to strengthen 
citizen input and participation, and conduct exchanges with 
communities throughout the hemisphere that have exemplary 
citizen safety models. However, the number of municipalities is 
huge, and there is much work to be done, municipality by 
municipality.
    Mr. Chairman, the United States has many priorities in the 
world, but, whatever actions are decided, they should take into 
account the partnership that our country has entered with 
Central American countries 30 years ago to turn dictatorship 
into democratic rule. Most of the heavy lifting is being done 
by our partners. Our approach to helping them has to be long 
term, comprehensive, consistent, and strategic.
    Thank you very much for this opportunity to testify, and I 
welcome your questions.
    [The prepared statement of Mr. Johnson follows:]

                 Prepared Statement of Stephen Johnson

    Chairman Menendez, Senator Corker, members of the Senate Foreign 
Relations Committee, thank you for this opportunity to testify on the 
conditions in Central America that are driving out minors as well as 
adults. Meager employment prospects, high rates of violent crime, and 
limited state capacity to guarantee services and apply the rule of law 
in the northern triangle countries of El Salvador, Guatemala, and 
Honduras--factors triggering continued migration to the United States--
have been and will continue to have an impact on the well-being of 
Central America and Mexico, as well as ourselves.
                         iri in central america
    The International Republican Institute (IRI) is a nonprofit, 
nonpartisan organization and one of the four core institutes of the 
National Endowment for Democracy. Our mission is to encourage democracy 
in places where it is absent, help democracy become more effective 
where it is in danger, and share best practices in democratic processes 
and governance where it is flourishing. While the future of the 
northern triangle countries is up to the people who live there to 
decide, the United States can have a pivotal role in helping these 
societies find tools and solutions that will bring down the level of 
violence and increase prospects for personal economic advancement--two 
key elements in reducing the outflow of migrants.
    Central America has long been a part of IRI's programs. In carrying 
out our mission to support more democratic, accountable government, we 
have striven to enhance civic participation at the subnational level by 
increasing civil society organizations' capacity and linkages to civic 
and political leaders of all parties and levels of government. 
Moreover, we have encouraged officials at all levels to reach out to 
citizens to listen to their ideas and become more aware of their 
concerns. In this vein, we have specialized in the development of 
citizen security mechanisms that bridge the gap between citizens, 
municipalities and nationally administered police programs. We have 
worked with public security officials at the national level, as well as 
municipal authorities, to adopt best practices that will make 
neighborhoods and communities safer. However, the amount of work to be 
done is huge and it cannot be done overnight.
                                overview
    Among the issues that most challenge neighboring governments and 
citizens are economics and safety. Poverty and violence are conditions 
that push people out. Behind these factors are conflicts, demographic 
trends and governance issues that determine whether these conditions 
will improve or get worse. Where people go depends on finding 
conditions nearby that are better than the ones they are leaving. In 
that regard, the United States has witnessed two broad migration 
trends. For almost a century, movements from Mexico have been 
accompanied by economic downturns and lagging reforms at home and 
better job prospects in the United States. Migration from Central 
America has taken place mostly within the last 30 years, triggered at 
first by internal conflicts and later by drug trafficking, high crime 
levels and gang violence.
    Migration from Mexico has been much more massive, judging by U.S. 
border apprehensions that peaked in 2000 at almost 1.6 million.\1\ 
Since economic conditions have improved, accompanied by internal 
reforms and Mexico's embrace of free trade, its migrant outflows have 
begun to subside. Central American flows were probably greatest during 
the period of internal conflicts during the 1980s when an estimated 1 
million Salvadorans and Guatemalans came to the United States. There 
was a lull during the 1990s when peace accords were signed, then 
migration began to pick up, evidenced by 30,000 border apprehensions in 
2000 to 142,000 in 2012.\2\
    At the time when significant migration started, Central American 
countries (with the exception of Costa Rica) were making the difficult 
transition from military rule to democracy. Over time, the United 
States offered security and development assistance, political advice 
and trade benefits. For certain countries like El Salvador, Guatemala, 
and Honduras (known as the ``northern triangle''), the challenges were 
deeper and thus reforms have been halting and have taken longer. By 
their own accounts, they still have progress to make, largely in 
establishing rule of law, enhancing economic opportunity and improving 
governing processes.
                        challenges to governance
    On the supply side, it would seem that the Governments of El 
Salvador, Guatemala, and Honduras should be more capable of stemming 
violent crime, which generally takes the form of murder, robbery, 
kidnappings, and extortion by street gangs. Yet for the past half-
century, forces that continually tested their capacity to manage have 
challenged these three countries. In all cases, barriers to further 
progress suggest the need to improve the effectiveness of governance.
    In the late 1970s, the large agricultural plantations on which 
these economies depended began to mechanize, a shift that drove 
increasing numbers of rural farmworkers (campesinos) out of the fields 
and into cities to find work for which they were barely educated and 
largely unprepared. Growing populations overwhelmed rudimentary school 
systems that could hardly educate average citizens beyond primary 
grades. The military governments at the time could neither deliver 
services nor deal with social changes taking place. Hostilities 
escalated between radicals and military governments in El Salvador and 
Guatemala that brought in huge numbers of weapons. The resulting 
turmoil left an opening for criminal networks to enter just as 
increasing drug consumption in the United States began to fuel them. 
Colombian drug trafficking operations sprang up where police--all part 
of the military at the time and dedicated mostly to military tasks--
were absent. Clandestine airports began to dot the Caribbean coast of 
Honduras.
    Elections that brought in civilian governments in Honduras (1981), 
El Salvador (1984), and Guatemala (1984) were encouraging but created 
new sets of problems. Some were basic like setting up functioning 
government agencies led by civilian politicians who had little previous 
administrative experience. Others were more complex such as reducing 
corrupt practices in politics and business. Another was separating the 
police from the armed forces and establishing the rule of law. The 
United States also began deporting undocumented Central American 
juveniles that had arrived in the 1980s and fallen into the U.S. 
corrections system. Some took what they learned from U.S. gang culture 
and transferred it to their new home.
    Gangs grew quickly, affiliating with U.S. groups, while taking in 
new deportees and unemployed youth from broken homes and informal 
farmworker families. In Guatemala's main cities, some clashed with 
Mexican drug mafias competing for territory. Not only were new, 
civilian police forces having trouble keeping up with existing criminal 
threats, they were underresourced and, in the cases of Guatemala and 
Honduras, experienced several rounds of leadership changes.\3\ 
Lawmakers enacted new so-called ``Hard Fist'' (Mano Dura) laws 
intending to crack down, but weak courts and porous jails were unable 
to deal with the rising number of arrests. In Guatemala and Honduras, 
no social programs existed to supplant delinquent activity, as they did 
in neighboring Nicaragua--programs restructured from Sandinista youth 
indoctrination efforts of the 1980s.
    Another, often overlooked obstacle to improved citizen security has 
been the prevailing model of governance in much of Latin America, in 
which power is heavily concentrated in the executive branch of the 
national government. El Salvador, Guatemala, and Honduras have national 
ministries administering local schools, supplying most government 
services and controlling local police. In colonial times, central 
authorities appointed mayors and rarely delegated authority. In recent 
times, elected municipal governments have not enjoyed much more 
authority nor have mayors and councilmen had the administrative skills 
and experience to transparently manage public finances. Thus in today's 
complex world, centralization ensures that only a few politically 
connected communities and neighborhoods get meaningful attention and 
opportunities for citizen involvement at the community are slim. The 
bureaucratic bottlenecks centralization hampers development, 
contributes to economic stagnation and lagging improvements to 
neighborhoods that then become subject to criminal predation.
              building capacity and citizen participation
    While many Central American citizens and leaders would like to see 
these conditions change, progress is not always possible without some 
encouragement. In IRI's efforts to build governing capacity, IRI 
partners with citizens, civil society, and national and local 
authorities. Especially at the local level, where citizens have the 
most contact with governing officials, IRI programs in El Salvador, 
Guatemala, and Honduras help strengthen the ability of municipalities 
to respond to citizen needs through a variety of best practices. These 
include opening budgets to public scrutiny, holding regular townhall 
meetings in each neighborhood or barrio to record and discuss citizen 
concerns, establishing community development offices to help start 
small businesses, and using digital media to increase contact with 
ordinary citizens as well as solicit feedback on policies and programs. 
All of this helps build citizen awareness of what public officials are 
doing and what they are supposed to do, as well as establish trust.
    Regarding citizen security, IRI works at both national and local 
levels. In Guatemala, the national government has established a 
countrywide network of municipal security councils (MSCs) comprised of 
citizens and local government representatives charged to devise public 
safety recommendations under the national prevention strategy and serve 
as a bridge between citizens, municipal government and national police 
components. IRI runs workshops for these MSCs to help identify 
community safety problems and develop collaborative solutions. Peer 
exchanges encourage dialogue at the global level. As part of the IRI 
Rising Stars program, Guatemalan mayors have traveled to cities in 
Chile and Colombia to learn about innovative municipal security 
practices and ways to enhance citizen services.
    In Puerto Cortes, Honduras, IRI has coordinated with the municipal 
government to train neighborhood leaders called patronatos in promoting 
community safety in coordination with local authorities and the police. 
Puerto Cortes is renowned for building its own command center staffed 
by local citizens who receive emergency calls and then dispatch 
national police units where they are needed. In the ``Together for our 
CommUNITY'' program, the local patronatos learn negotiation, trust-
building and communication techniques to obtain more effective 
cooperation and information from citizens. IRI is hoping to replicate 
this practice in other Central American municipalities to help local 
authorities limit opportunities for criminal activities to flourish.
                               conclusion
    That Central America is experiencing a security crisis is nothing 
new. But as this issue has grabbed U.S. attention again with the 
arrival of unaccompanied minors, it seems more urgent. In Central 
America, the United States has been working with willing societies to 
establish stable governments ruled by popular will and economies open 
to citizen participation for more than 30 years. Ongoing challenges 
suggest that progress will depend on long-term strategies and a 
commitment to partner in reform.
    Progress is being made. The U.S. Department of State's Bureau of 
International Narcotics and Law Enforcement Affairs' Model Precincts 
approach that was introduced in 2004 has helped lift standards in 
community policing and coincides with IRI's focus on citizen inputs to 
local public safety plans. Coupled with municipality-by-municipality 
governance reform initiatives like IRI's to build links of cooperation 
between citizens, local authorities and nationally administered police 
units, territory can be slowly recovered from criminal organizations 
and gangs. Beyond improving public safety, these efforts may have 
economic value. Not long ago, the World Bank published estimates of the 
economic cost of crime and violence in Central America in 2011 as a 
percentage of gross domestic product (GDP). For El Salvador, the total 
costs amounted to nearly 11 percentage points. For Honduras, it was 
almost 10 percent and for Guatemala, it amounted to nearly 8 percent of 
GDP. If each country could reduce its homicide rate by 10 percent, the 
Bank estimated that GDP could potentially rise by almost a percentage 
point\4\--an economic boost that could facilitate a rise in employment 
prospects, perhaps further reducing migration incentives.
    Mr. Chairman, whatever actions the U.S. Government decides, it 
should take into account the partnership it entered into with Central 
American countries 30 years ago to turn dictatorship into democratic 
rule. Most of the heavy lifting has been done by our partners. But when 
it comes to governance, there is much work left to be done.

----------------
Notes

    \1\ Yearbook of Immigration Statistics: 2012, U.S. Department of 
Homeland Security.
    \2\ Ibid.
    \3\ Stephen Johnson, Johanna Mendelson Forman, and Katherine Bliss, 
``Police Reform in Latin America--Implications for U.S. Policy,'' 
Center for Strategic and International Studies, Washington, DC, 
February 2012, pp. 27-32.
    \4\ ``Crime and Violence in Central America--A Development 
Challenge,'' The World Bank, 2011, pp. 7, 9.

    The Chairman. Well, thank you all very much for your 
testimony.
    We are at the end of the first vote, and so we will have 
about 20 minutes before we will be able to return. I hope that 
you will be able to stay with us, because there are questions 
that we want to ask of you. And I think each of you has a 
valuable contribution to make.
    So, the committee will stand in recess, subject to the call 
of the Chair. I expect it to be somewhere around 20 minutes.

[Recess.]

    The Chairman. This hearing will come back to order.
    Let me both apologize to our panel and to thank them for 
their forbearance. There were more votes than I understood 
there were, so--we just had the last one. The good news, at 
this point, we do not have any more votes until much later. 
So--and I know that Senator Corker--I left him, on the floor--
he is on his way back, as well. But, in the interests of the 
collective time of everybody, let me try to move forward with 
some questions.
    Ms. Nazario, you spent time in many of the communities from 
which the children are leaving. Some of my colleagues suggest 
that their parents' decision to send their child to a 2,000-
mile journey is purely opportunistic and a way to take 
advantage of American law. Are these parents indifferent to the 
dangers their children might face on this perilous journey? And 
is it just a question of opportunity, or is it a question of 
violence, some of which you described earlier? If you would 
turn your microphone on, thank you.
    Ms. Nazario. I think these parents make a valuation of: Is 
it safer to bring my child, despite the dangers of that 
journey, or is it safer to leave them in the home country? And 
parents who have come ahead of their children oftentimes, 10 
years ago, would say, ``It is more dangerous to put my kid in 
south-central Los Angeles than leave them in a neighborhood in 
Honduras, where they are being taken care of by a grandparent 
or an aunt,'' and that equation has shifted radically, given 
what is happening on the ground in Honduras. And so, these 
parents have decided that it is just too dangerous to leave 
their children there.
    I think, also, greater border enforcement has--is part of 
that picture, because, as we have ramped up border enforcement, 
we have made it--you know, a lot of parents come here honestly 
thinking they are going back quickly. They prefer to live in 
their home countries with everything they know and love, and 
with their families. So, when parents come here, they do not 
buy a bed, they do not buy furniture. These mothers say, ``I am 
going to go back anytime.'' I think now, with greater border 
enforcement, they are more clearheaded about, ``It is going to 
be very hard to circulate back home. And so, I am going to go 
ahead and bring up my children more quickly than I would have, 
otherwise.''
    So, a decade ago, you know, half of Mexicans went back 
within a year. They want to circulate back home. Now, with 
greater border enforcement, fewer than a quarter circulate back 
home within a year, because they know that it is getting harder 
to get in, and that makes it more costly. So, that is been part 
of the dynamic, as well.
    The Chairman. But, in the first instance, is it fear or 
opportunity?
    Ms. Nazario. It is absolutely fear.
    The Chairman. Yes.
    Ms. Nazario. It is absolutely fear driving this. And there 
has been much talk about 2012, but the actual surge of children 
began in 2011. That is when we started to see the numbers go up 
dramatically.
    The Chairman. Ms. Arnson, let me ask you. I know you have 
done a lot of work over the years in the hemisphere. I am 
wondering about whether or not, in addition to my arguments 
about the lack of resources and our disengagement since this--
the wars in Central America--we fought to create the seeds of 
democracy, and then we did not nurture it for it to grow fully 
in all of its dimensions--citizen security, economic growth and 
opportunity, and all the other things we want to see in a 
democratic society. How would you assess the effectiveness of 
current U.S. assistance programs in Central America? And what 
steps could be taken to enhance the quality of programs and 
ensure a greater impact on these countries?
    Ms. Arnson. Well, I think U.S. assistance has perhaps been 
most effective in El Salvador, where there is a formal 
Partnership for Growth. El Salvador is one of four countries 
globally. And these are shared objectives that are arrived at 
together between the government--between the U.S. Government 
and the Salvadorian Government, and there are regular reporting 
requirements, there is accountability, there are metrics, and 
they have identified strategic areas for investment. But, I do 
believe that the effort, to a certain extent, has been under-
resourced, and therefore, what you have, certainly in the 
citizen security area, are many small little points of light, 
but they do not connect or necessarily build towards a much 
bigger national phenomenon.
    I know that there has been great frustration, in a country 
such as Honduras, with the lack of leadership in security 
institutions. And therefore, people start--from the various 
agencies that have created vetted units, start from the ground 
up, and, in many ways--and forgive me for saying this--
bypassing the leadership structures. So, that is why I have 
tried to emphasize the need for transparency and accountability 
as a key ingredient of any programs that we would put in place. 
You cannot just throw money at this problem or this set of 
problems. As much as I do believe that greater resources are 
necessary, there have to be specific objectives and commitments 
from the recipient governments to adhere to certain standards. 
And the ability to give assistance ought to be contingent on 
the receiving country's willingness to abide by those criteria.
    The Chairman. I agree with you on that, and I think those 
are very important.
    Let me ask you, as well, though, is it not the case that 
this is not a light switch? We are not going to suddenly turn 
on a certain amount of resources, with all the accountability, 
transparency, and conditionality, and find a change in Central 
America from one year to the other?
    Ms. Arnson. No----
    The Chairman. It is going to take some time. It took some 
time to get to where it is, a part of it from our own neglect, 
part of it from the weak and very often corrupt governments 
that have existed in the region. And you are just not going to 
turn this around overnight. So, having a commitment, here, is 
going to be necessary in order to get it to a point where we 
can see citizen security, where we can see a greater movement 
towards institutions that are transparent, not corrupt, and 
that we will see the benefits of that, as we did, for example, 
in Colombia--different context, different set of circumstances, 
but, nonetheless, it took some time. Is that a fair assessment?
    Ms. Arnson. I would certainly completely agree with that 
statement. We tend, in the United States, to focus on a crisis 
and respond to the crisis and then turn away once the immediate 
crisis has dissipated. The effort in Central America is going 
to take years. The aid programs to Colombia have evolved over 
almost 15 years now, and it takes time to turn things around. 
And I think staying the course--but doing so with metrics and 
measurements in place, is the way to proceed, to take the long 
perspective.
    The Chairman. Mr. Johnson, I would like to hear your views 
on it.
    The Johnson sitting at the table. We are going to get right 
to you. [Laughter.]
    Mr. Johnson. Well, in many respects, they are similar. I 
think our approach to the problems in Central America, to the 
extent that we do not want them on our doorstep, it is 
important to have a long-term view, that we have a 
comprehensive policy and that it is strategically driven and 
not quite as episodic. Very difficult for our country to do, 
because, in a democracy, we sometimes change our priorities, 
and, because of our position in the world, we have to look at 
other things that come upon our doorstep that we have to deal 
with.
    But, given that, and given the kinds of tools that we have 
that we can apply to these problems, I think consistency and a 
strategic vision is really important.
    Sometimes we do not appreciate the enormity of the change 
that is involved. For instance, in Colombia, the transformation 
of the Napoleonic code to an accusatorial criminal justice 
system seems like just a matter of changing the laws and 
retraining lawyers. But, what it also entailed was the building 
of courthouses, which Colombia never needed before, criminal 
justice tracking systems for cases, evidence warehouses, and 
forensic laboratories, which they never had. So, it ended up 
being much more than what was originally anticipated. And when 
you multiply that over something like 1,100 municipalities for 
the various installations and facilities that had to be built, 
it ended up being quite an investment. And I think we have to 
appreciate that dimension as much as the dimension of changing 
certain kinds of behaviors.
    In Central America, we do not have the luxury of having all 
the criminal elements, say, out in the rural areas, as much as 
that was the case in Colombia. In Central America, you have 
criminal elements that are in the neighborhoods, that are out 
in the rural areas, as well, but also in the capital and in, 
you know, the very dense urban areas, in the form of drug-
trafficking organizations, some human traffickers that 
penetrate into those areas, as well as criminal youth gangs. 
This is very difficult to deal with, especially when you are 
dealing with drug traffickers that have a lot more resources, 
that--in many cases, than the government does to try to deal 
with them and try to apprehend them. And so, very difficult to 
go up against this. The corrupting power that they have is 
tremendous.
    And again, it is going to take time. But, one of the things 
that we feel is key, at least in my organization, where I work 
now, is that citizen participation in citizen security is very 
important, because people in their own neighborhoods know some 
of the things that need to happen and need to change, in terms 
of leadership, for their authorities to begin to react in a 
proper way that will deal with the problems that they actually 
feel. And the top-down kind of leadership, of governance that 
has been the experience in Central America, long before the 
transformation to democratic rule, is something that is still 
there and still impedes, to a great degree, the ability for 
citizens to have a voice.
    The Chairman. Thank you very much.
    Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman.
    I know that Senator Corker asked for unanimous consent to 
include in the record Table 39 from Department of Homeland 
Security, Enforced Alien Removal Module. I would ask for 
unanimous consent to have my summary of that table.
    The Chairman. Without objection.


    [The information referred to can be found on page 83.]


    Senator Johnson. I would like to speak to it, because I 
would like to provide the full and complete picture, in terms 
of removals and returns, which is what I think the American 
people would really view as deportation.
    So, while it is true, in terms of formal removals, which is 
what I believe the Chair was referring to when he said that 
President Obama is sometimes referred to as the ``Deportation 
King,'' formal removal--as President Obama is ahead of the pace 
of President Bush's both first and second term--and removals 
are defined as the compulsory and confirmed movement of an 
inadmissible or deportable alien out of the United States based 
on an order of removal. An alien who is removed has 
administrative or criminal consequences placed on subsequent 
reentry owing to the fact of the removal. That is what a 
removal is.
    A return, on the other hand, is the confirmed movement of 
an inadmissible or deportable alien out of the United States 
not based on an order of removal.
    Now, I think what we are really trying to do, if we are 
trying to speed up the process, is to get more returns, as 
opposed to removals, which take a whole adjudication process; 
removals are taking years and creating even more incentives for 
people to come.
    So, let me just lay out the facts, in terms of President 
Obama's record on removals and returns, which is what I think 
most Americans would view as total deportations.
    In his first term, President Obama had about 1.58 million 
removals, 1.6 million returns, for a total of 3.2 million, what 
I would consider, deportations as a broadly viewed term.
    President Bush, on the other hand, in his second term, had 
about 1.2 million removals, compared to President Obama's 1.6. 
But, in terms of returns, he had 3.8 million, versus President 
Obama's 1.6. So, total removal and returns of President Bush's 
second term, 4 years versus 4 years, was 5 million removals and 
returns under the Bush administration, 3.2 million returns and 
removals under President Obama. In President Bush's entire two 
terms, there were about 10.3 million removals and returns.
    So, I just do not think we are being totally complete in 
our description of what President Obama has actually done, 
because if you combine the two, his record is definitely 
lagging President Bush's and previous administrations, in terms 
of actual removals and returns. Again, 5 million for President 
Bush's second term, 3.2 million for President Obama's first 
term. But, again, I think that just provides a more complete 
record of what the problem is.
    I am not sure whether you were here during my first line of 
questioning, but I would like to give the witnesses the exact 
same opportunity. Please, in a sentence, maybe two--I have a 
little bit more time--What should be the achievable goal of 
U.S. policy? Achievable goal. I will start with Mr. Johnson.
    Mr. Johnson. Our goals in foreign policy are to protect our 
country, to defend our Nation and defend our citizens, and 
protect our borders. In doing that, we have a foreign policy 
that works with other countries to encourage reforms and 
develop alliances and----
    Senator Johnson. Okay, let me just stop you there. Let me 
define an achievable goal on unaccompanied children. We have 
this humanitarian crisis on the border, 57,000 currently in 
this fiscal year. Secretary Johnson said it could be 90,000 by 
the end of this fiscal year, so by September 30; over 100,000 
by 2015. So, again, what I am talking about is, What is the 
achievable goal to solve the problem of unaccompanied children? 
Keep it brief, because I think this can be described pretty 
briefly.
    Mr. Johnson. Well, with due respect, Senator, immigration 
policy and border policy are beyond the scope of my current 
responsibilities, and so I will defer----
    Senator Johnson. Okay.
    Mr. Johnson [continuing]. That question to the other 
witnesses.
    Senator Johnson. Okay.
    Ms. Arnson.
    Ms. Arnson. Yes. The achievable goal. One would be to speed 
up the process by which children who might have legitimate 
cases for asylum or refugee status are heard, so that that 
waiting time in the hundreds of thousands of cases that are in 
the docket is rapidly gone through, and to speed up the process 
without violating U.S. law and international law regarding the 
claims of people who potentially have requests. That is the 
very short term.
    The longer term, of course, is to contribute to a more 
stable and prosperous and safe Central America. And that is the 
long-term goal, I think, that has to be the focus of this 
committee, but also an important objective of U.S. foreign 
policy.
    Senator Johnson. But, based on your answer, what you are 
telling me is that long-term goal is probably not achievable in 
the short term. And let me just ask you, What is the speeding 
up of the process of adjudication doing? That is a goal to 
achieve what? Why do you want to speed up the adjudication 
process?
    Ms. Arnson. To speed it up so that the backlog does not 
exist and send a message that is, therefore, exploited by 
traffickers to play on people's fears and hopes, that once they 
get to the country, they will stay for some number of months 
or, you know, stretching into years, so that those cases can be 
speeded up, that there is an expanded process of hearings--an 
expanded process, and a more expeditious process.
    Senator Johnson. So, you are saying the goal would be to 
send a message to the smugglers so that they no longer send 
children to America unaccompanied. So, again, I am just trying 
to focus in, would not the goal, in that case, be to stop the 
flow?
    Ms. Arnson. I think the goal is to contribute to conditions 
that no longer serve as incentives to the flow. The principal 
cause, I believe, is not, you know, the misimpression, although 
the rumors are certainly spread by these unscrupulous 
trafficking groups. The critical driver is violence. And if you 
look at the places of origin of the children that have come as 
part of this 52,000 this fiscal year, and you look at the 
levels of violence in the sending areas, those are the most 
violent places in Central America.
    Senator Johnson. I did point out, earlier in questioning, 
that the murder rate in both New Orleans and Detroit are 
comparable to one or two of those countries in Central America. 
I do not have the graph right here. We have violence as well.
    Just really quickly, Ms. Nazario, what would you say is the 
goal, our short-term, achievable goal, to address the 
unaccompanied children problem?
    Ms. Nazario. I think the short-term, achievable goal is to 
protect children from being sent back to death. And I think 
there is a humane, practical approach that is not being 
discussed by the Senate.
    I am concerned and--that children are released, and too 
many of them do not show up for their court hearings. And if 
you were a 7-year-old child and did not have an attorney, you 
would not show up for your court hearing, either. I think you 
can hold these children for 60 to 90 days--A limited amount of 
time would be humane--in refugee facilities, or even the 
facilities we currently have, bring in immigration judges, 
spend money on that, and adjudicate their cases quickly. Give 
them a full, fair hearing with someone who knows how to bring 
out--do child-sensitive interviewing techniques, provide that 
child with an attorney, so it is not a sham process. And if 
they do qualify--and, to answer your previous question, 40 to 
60 percent of these children do qualify for some existing 
relief to stay in this country. Very few of them are getting 
that, because they do not have attorneys. But, if they do 
qualify, then let them into this country and increase the 
number of refugees and asylees that we take.
    Senator Johnson. So, your----
    Ms. Nazario. And if they do not qualify, if they are 
economic migrants, then deport them immediately, and that 
message will get back to those countries, ``If you are coming 
for economic reasons''--and there are parts of Honduras, and 
there are people who are doing that--then send them back, and 
that will send a message. And that option is--and I am not 
popular in some human rights groups for saying, ``Keep these 
kids in detention,'' but that will force them to go through the 
process and not simply be released and sometimes show up to 
court. And, by the way, they are much more likely to show up to 
court if they have an attorney, and these cases go much more 
quickly if they have an attorney. But, if they are a refugee, I 
think we are a compassionate country, and we will let people 
in. And if they are not, then deport them quickly. And that 
will send a message.
    Senator Johnson. I agree, we are compassionate. We want to 
treat these kids with real humanity. But, I am also highly 
concerned about parents making that decision, sending their 
kids on that very dangerous journey. I am concerned about those 
kids, as well. And from my standpoint, our primary goal has to 
be to stop the flow, deter parents from making that choice. If 
we have asylum cases, those should be requested in the home 
countries. And if we need to beef up resources, I would say, 
let us do it in the home countries. Let us not incentivize 
people to come here, take that very dangerous, very awful 
journey.
    Ms. Nazario. I think we need to do both. We need to have 
more in-country processing, the ability to apply for refugee 
status in these three countries, so those children--I mean, I 
spent 3 months making that journey, and I had post-traumatic 
stress; and, believe me, many children die and lose arms and 
legs on that journey. You do not want that. So, you do need to 
beef up that ability to do that in those three home countries.
    Senator Johnson. Okay.
    Ms. Nazario. And we have not done that.
    Senator Johnson. Well, thank you.
    Again, it is very important that we define the goal, define 
an achievable goal, so we can design policy to actually make 
that goal----
    Ms. Nazario. What I have defined is achievable.
    Senator Johnson. Okay, thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Ms. Arnson, I see you----
    Ms. Arnson. Just a quick followup, Senator Johnson.
    I have spoken with a lot of people--U.S. officials and 
others--in preparation for this hearing, but also over the 
length of this crisis. And one of the things that sticks in my 
mind is the comment of a senior official from the U.S. 
Government--I will not say more, so as not to identify him--
but, he said that if, as a parent, you face the choice of your 
child joining a gang, being killed because they are not joining 
a gang, or sending that child to the United States, regardless 
of the perils of the journey, it is pretty obvious, you know, 
why many parents make that choice. And those sending conditions 
have to be addressed.
    The Chairman. Well, look, I appreciate all the information 
and the views.
    You know, as I understand it, Honduras is the--per capital, 
is the murder capital of the world. That beats Detroit. If you 
are the murder capital of the world, you are the murder capital 
of the world. And I understand that two other countries are 
third and fifth in that category, as well. So, it is--that is 
globally--so, that is pretty signature, in terms of citizen 
security and why people flee.
    The way you stop the flow is to change the realities on the 
ground in Central America so that people will stay in their 
country and not flee out of fear, or even a belief of fear of 
opportunity. If I have no fear for my life and if I have 
opportunity, then I am not going to flee. I have visited those 
Central American countries. They are quite beautiful. So, I 
think that if we really want to stem the flow, we have to 
change the realities on the ground, because, if not, this will 
be a reoccurring problem. It will have its spikes, and it will 
have its lows. But, the goal is to ultimately change the 
dynamics so we do not have any of this flow coming to the 
United States, other than through normal legal procedures.
    Ms. Arnson? And then I will invite any other final comment 
and we will have to close the hearing.
    Ms. Arnson. Great. Senator Menendez, you rightly focused on 
the statistics, the homicide statistics in Honduras, about 90 
or 91 per 100,000. I think it is worth recalling that the 
distinction of the most violent city of the world in the early 
1990s went to Medellin, Colombia. And in the last year or two, 
Medellin was identified as the most innovative city in the 
world. Those homicide rates are still serious, but they have 
gone way down, and they have gone down as a result of a 
sustained investment, the participation of a broad swath of 
society, of the private sector, of the church, and of the local 
government in investing in human welfare and really 
transforming that city. So, it is possible to go from, you 
know, a very bad place to a much better, if not a good, place.
    The Chairman. Any other final comments, to give you the 
opportunity? Ladies first.
    Ms. Nazario.
    Ms. Nazario. Just that when I was just in Honduras, I saw 
very few children bringing up the issue of, you know, ``Is 
there some avenue to stay legally in the United States?'' What 
they all talked about, first, second, and third, was the 
violence. And until that changes--and I recognize that is a 
very difficult prospect, given the corruption and--the 
corruption that has really affected the economy, when 7 in--the 
Chamber of Commerce says that 7 in 10 small businesses have 
shut down in Honduras because of extortion threats on 
businesses. Can you imagine that happening in the United 
States?
    So, it is a very long-haul process, but I have long said 
that, to stem this exodus, whether it is children or adults, 
you have to deal with these issues--the root causes, these 
issues at its source.
    The Chairman. Thank you.
    Mr. Johnson.
    Mr. Johnson. I would just say that, in addition to the work 
that is being done in our capital and in the capitals of the 
Central American countries, that we focus on citizens, 
involving their participation, because, ultimately, the 
policies that are being debated are ones that should impact 
them and affect their decisions as to whether they can stay in 
their countries or whether they have to look elsewhere to be 
able to lead predictable, safe lives. I think their voice is 
very important, and I hope that we can keep that in mind as we 
decide what actions to take, hopefully moving forward on this 
issue and the overall matter of our relationship with allies in 
Central America.
    Thank you.
    The Chairman. Well, all very valid points, and we will 
certainly, as we try to deal with what we are going to do on 
the cause side, think about many of the suggestions that you 
have, collectively, had.
    I want to thank you all for your testimony and for hanging 
in here with us through the votes.
    This record will remain open until the close of business 
tomorrow. I would say that as the record remains open, we also 
will permit outside organizations to submit statements for the 
records.
    And, with the thanks of this committee, this hearing is 
adjourned.
    [Whereupon, at 1:30 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


          Responses of Ambassador Thomas Shannon to Questions 
                  Submitted by Senator Robert Menendez

    Question. What type of long-term funding would the State Department 
and USAID and other agencies need to address the current crisis 
comprehensively?

    Answer. The $300 million supplemental request for the Department of 
State and USAID in the administration's supplemental request is a 
downpayment on a new strategic approach. We are working to include 
governance, economic prosperity, and security funding for the region in 
our out-year budget requests. The $300 million requested, of which $295 
million is foreign assistance and $5 million is for public diplomacy, 
will be tailored to the absorptive capacity of Central America in a 
comprehensive manner. To address the principal drivers of migration, 
such as violence, the lack of economic opportunity, corruption, and 
weak public institutions, the administration is developing a 
comprehensive strategy for Central America. This strategy will 
prioritize expanding existing successful programs and new programs that 
will advance economic prosperity, governance, and security in El 
Salvador, Guatemala, and Honduras that demonstrate our commitment to a 
sustained engagement in Central America.

    Question. Over the past 5 years, have we had the right balance in 
our approach for Central America? What can be done to increase our 
emphasis on building governance and prosperity in the region? What are 
the specific elements we need to develop a comprehensive and long-term 
strategy for addressing the root causes of this crisis?

    Answer. We are seeking to rebalance our approach to Central America 
to emphasize security, economic prosperity, and governance. In this 
effort, we must build upon and expand proven programs that address the 
economic and educational deficiencies in the region and will improve 
the public's trust and confidence in government institutions. We 
envision an economically integrated Central America that provides 
economic opportunities to its people; more democratic, accountable, 
transparent, and effective public institutions; and a safe environment 
for its citizens to build their lives in peace and stability.
    Through our Central America Regional Security Initiative (CARSI) 
approach we have been working with interagency partners, including 
USAID, to address the security problem using a holistic approach 
designed to create opportunities for at-risk youth and their 
communities, strengthen the rule of law through building the capacity 
of police, the judicial sector, and other critical governmental 
entities, and strengthen democratic institutions.
    We know that violence is only one of the underlying factors 
contributing to the surge of unaccompanied children arriving in the 
United States from Central America. Weak governance and lack of 
economic opportunity are other factors that contribute to out-
migration, and we are working to enhance our cooperation with Central 
American countries.

    Question. Isn't the violence ultimately what is driving these kids 
to leave? And if that's not the driving factor then why aren't we 
seeing those same pull factors causing a surge from other Central 
American countries such as Nicaragua and Belize, where economic 
deprivations are as acute but where there isn't the same gang problem?

    Answer. Unaccompanied Central American children migrate to the 
United States for a number of reasons. High levels of violence in El 
Salvador, Guatemala, and Honduras are certainly one of the drivers of 
migration as are the pursuit of economic and educational opportunities, 
and the potential for family reunification. These push factors also 
exist in other Central American countries, including Belize and 
Nicaragua, but there has not been a similar spike in numbers of 
unaccompanied children leaving either country for the United States.
    Like their neighbors, Nicaragua and Belize suffer from lack of 
economic growth and high levels of violence, respectively. Nicaragua 
remains the poorest country in Central America based on per capita GDP. 
Given the economic situation a substantial number of Nicaraguans 
emigrate each year; however, they mainly are destined for neighboring 
Costa Rica and not to the United States. Belize suffers from high 
levels of violence--in 2012 recording a homicide rate of 44.7 per 
100,000. While gangs are present in both Nicaragua and Belize, they are 
more locally based with fewer transnational ties than those found in El 
Salvador, Guatemala, and Honduras.
    Despite these similarities, there are key differences in Nicaragua 
and Belize compared to El Salvador, Guatemala, and Honduras that help 
explain why emigration to the United States is not as high in the 
former two countries. Nicaragua, with a homicide rate of 11.3 per 
100,000, remains significantly less violent compared to El Salvador, 
Guatemala, and Honduras which have rates of 41.2, 39.9, and 90.4, 
respectively. Belize's economic situation is much brighter than its 
Northern Tier neighbors, with significantly higher wages in agriculture 
and other fields. As a result, Belize often attracts migrants from El 
Salvador, Guatemala, and Honduras.
    The potential for family reunification is not the same for 
Nicaragua and Belize as it is for the other Northern Tier countries. A 
2011 study by the Pew Research Center cites less than 400,000 
Nicaraguans living in the United States compared to an estimated 2 
million Salvadorans, 1.2 million Guatemalans, and over 700,000 
Hondurans. We estimate there is an even smaller number of Belizeans 
present in the United States--significantly reducing the pull factor of 
family reunification for these two countries.

    Question. Considering that many of these children do not have safe 
home environments to return to and come from countries with virtually 
no child welfare systems in place, how will the administration ensure 
that those children who do not qualify for any type of protection or 
immigration status here in the U.S. will be returned in a safe, humane 
way? How can we ensure that these children, who are sent back to their 
homes with maybe only a bus ticket, don't go back into the hands of 
smugglers and traffickers? What are the administration's plans to fund 
reception and reintegration programs to make sure that doesn't happen? 
Does the United States currently support reintegration programs for 
returned children? What, if any, new programs will address this issue?

    Answer. To respond to the immediate need to increase Central 
American governments' capacity to receive returned migrants, we will 
work to expand and improve existing centers for repatriated migrants. 
On June 20, Vice President Biden announced $9.6 million of Department 
of State and USAID funds that will be used to immediately increase the 
capacity for Central American governments to receive, reintegrate, and 
care for repatriated migrants, including unaccompanied children. 
USAID's $7.6 million program, implemented by the International 
Organization for Migration (IOM), is already underway. Program elements 
include improvement and expansion of existing repatriation centers and 
training and capacity-building for personnel involved in repatriation 
efforts in each country. The Department of State, led by the Bureau of 
Population, Refugees, and Migration, will use $2.0 million, in 
coordination with IOM, to expand the capacity of governments and NGOs 
to provide services to returned migrants and to identify, screen, 
protect, and refer unaccompanied child migrants to appropriate services 
throughout the migration process. Our FY 2014 supplemental request 
includes an additional $20 million for repatriation assistance to be 
implemented by USAID.

    Question. Can you provide additional details about the response you 
have seen from Central American governments thus far? What else are we 
asking of these governments and what additional commitments will we 
want to see moving forward?

    Answer. President Obama and the Presidents of El Salvador, 
Guatemala, and Honduras issued a joint statement following their recent 
meeting in Washington reiterating a ``commitment to prevent families 
and children from undertaking this dangerous journey and to work 
together to promote safe, legal, and orderly migration.'' They pledged 
to pursue the criminal networks associated with child migration, to 
counter misinformation about U.S. immigration policy, to work together 
to humanely repatriate migrants, and to address the underlying causes 
of migration by reducing criminal activity and promoting greater social 
and economic opportunity.
    Ongoing host government-led efforts in El Salvador, Guatemala, and 
Honduras include media campaigns, law enforcement investigations 
targeting organizations engaged in human smuggling, and programs to 
combat poverty and provide educational alternatives to youth. The 
Central American Presidents indicated to President Obama that they are 
working on a comprehensive plan to address the underlying causes of the 
humanitarian situation on the border.

    Question. If they stay, they face persecution and possible death. 
If the administration attempts an expedited hearing process for these 
children, many of the children were trafficked or face in extreme 
violence in their communities and may face death if deported. Do you 
believe that many of these children are refugees and deserve 
protection?

    Answer. Under U.S. law, a refugee is someone who has fled from his 
or her country of origin and is unable or unwilling to return because 
he or she has a well-founded fear of persecution based on religion, 
race, nationality, political opinion or membership in a particular 
social group.
    An unaccompanied child who has arrived in the United States may 
seek asylum, although most do not. Many, but not all, UACs appear to be 
leaving for reasons related to situations of violence, lack of 
opportunity, and other conditions.
    Whether any of them will qualify for refugee protection under U.S. 
law is ultimately a case-by-case determination dependent on the 
specific facts of each case, after a hearing before a trained asylum or 
immigration judge--something all of these migrants will have an 
opportunity to present, regardless of the removal procedure they 
undergo.
    The Department of Homeland Security screens children to determine 
the validity of their asylum claims consistent with our domestic law 
and international obligations.

    Question. What can the United States do to think beyond free trade 
agreements and employ a more comprehensive strategy of economic 
statecraft? How can we better partner with the region to increase 
investment, encourage U.S. businesses to be more engaged, drive down 
energy costs, and expand infrastructure in these countries?

    Answer. The administration is committed to a comprehensive, 
sustained approach to create economic growth and shared prosperity. The 
President's July 25 meeting with the Presidents of El Salvador, 
Guatemala, and Honduras demonstrated the shared responsibility to 
address the underlying causes of migration, including promoting greater 
social and economic opportunity. The $300 million supplemental request 
for Department of State and USAID includes $295 million of foreign 
assistance for specific programming to bolster the source countries' 
economic prosperity.
    The United States has already laid the groundwork for a broader 
effort to promote regional economic growth. Millennium Challenge 
Corporation Compacts in Honduras and El Salvador focus on improving 
infrastructure, market access, and transparency in public services. 
USAID provides ongoing support in important areas like education, 
agricultural development, natural resource management and workforce 
development. Furthermore, our existing programs, such as Connect the 
Americas 2022, Small Business Network of the Americas, Women's 
Entrepreneurship in the Americas (WEAmericas), and Pathways to 
Prosperity, already have a positive impact, but they are limited in 
scope and size which requires broader appreciation to have more impact 
in these underlying factors.
    El Salvador, Guatemala, and Honduras each have very low tax revenue 
to GDP ratios which constrain their ability to provide basic services, 
including strong social safety nets, high quality education, or 
transportation infrastructure. As a result, many citizens lack faith in 
the effectiveness of government institutions. A lack of confidence and 
trust in public institutions contributes to informality at the lower 
rungs of the economy. Working with a wide cross-section of government 
entities (e.g., tax authorities, prosecutorial and justice systems, 
customs, and security forces) will be essential to creating a growth-
oriented economic environment. Finally, helping to establish uniform 
standards for trade, investment, and customs across the entire Central 
American region would foster a larger, more attractive market for 
investors and traders.
    These challenges are not as intractable as they seem and we have 
successful models in the region and globally. The governments in the 
region have acknowledged that addressing the current migration 
situation is a shared responsibility, and we expect them to be willing 
and transparent partners in programs dedicated to promoting greater 
social and economic opportunity.

    Question. How is State--as it seeks to stand up new programs--
addressing the scourge of gender-based violence?

    Answer. The Department of State and USAID address gender-based 
violence (GBV) in El Salvador, Guatemala, and Honduras through 
assistance programming for survivors of gender-based violence and those 
at risk.
    In FY 2013, USAID El Salvador established and supported two 
assistance centers for juvenile and adult survivors of gender-based 
violence. USAID Guatemala has provided technical assistance, training, 
and equipment to operationalize a specialized 24-hour court located in 
the Attorney General's Office in Guatemala City for cases related to 
violence against women, exploitation, sexual violence and human 
trafficking. The FY 2014 Supplemental Request for the Department of 
State and USAID includes funding that would be used to expand the 24-
hour specialized court model to Honduras and El Salvador.
    The Secretary's Office of Global Women's Issues has two Global 
Women, Peace, and Security grants for nongovernmental organizations in 
Guatemala. One grant supports Fundacion Sobrevivientes, which works to 
protect women, children, and teenagers from violence by providing free 
access to legal, social, and psychological services to support 
survivors of physical and sexual violence. Funding also goes to the 
Myrna Mack Foundation, which works to monitor and measure the 
implementation of Guatemala's 2008 Law Against Femicide. In Honduras, a 
program through the Bureau of Combat and Stabilization Operations funds 
the Peace and Justice program which provides psychosocial support to 
survivors of gender-based violence and other forms of violent crime, 
and works to combat impunity by assisting Honduran law enforcement in 
the investigation and prosecution of these crimes. In March, we 
partnered with the Government of Chile to offer a course at the 
International Law Enforcement Academy in San Salvador, El Salvador 
designed to teach law enforcement officers how to prevent and respond 
to incidents of gender-based violence.
    High levels of impunity, weak institutions, lack of police capacity 
and training, corruption, the effects of narcotrafficking and 
sociocultural attitudes toward women and girls contribute to high 
levels of gender-based violence, including intimate partner violence, 
rape, and homicide, in El Salvador, Honduras, and Guatemala. In 2013, 
the Guatemalan National Institute of Forensic Sciences reported 758 
murders of women; however the conviction rate for the murders of women 
has hovered around 2 percent. The Salvadoran National Civil Police 
reported 216 killings of women in 2013, and in Honduras, the National 
Observatory on Violence reported that violent deaths of women increased 
by 263 percent between 2005 and 2013. Despite laws criminalizing rape, 
domestic abuse, and gender-based violence, including femicide, in all 
three countries, implementation and enforcement is often lacking.

    Question. How can we best expand efforts to engage at-risk youth 
and help governments in the region create new educational and 
employment opportunities?

    Answer. The Central American governments recognize the need to 
promote additional economic and social opportunities for their 
citizens. Honduran President Hernandez started a jobs program called 
``Con Chamba Vivis Mejor,'' in which the Honduran Government partners 
with businesses and pays half of new workers' salaries for a short time 
period. We seek enhanced partnerships in these areas with the 
Governments of El Salvador, Guatemala, and Honduras, recognizing that 
educational and economic opportunities are key elements to improving 
life in Central America.
    Both the State Department and USAID have programs targeting at-risk 
youth, especially in some of the region's most violent communities, to 
provide alternatives to gangs and criminal lifestyles. Expanded efforts 
to engage youth must be comprehensive, including deterring at-risk 
youth from turning to crime in the first place and reinserting young 
people who have been involved with gangs into their communities through 
juvenile justice programs. To increase economic opportunity, we seek to 
expand existing programs that link small businesses to larger markets 
and contribute to business enabling environments, starting at the local 
level. By engaging with local educational and private sector actors, we 
will continue to target job skills programs toward specific vulnerable 
populations, such as at-risk youth, with in-demand skills for local 
markets.

    Question. Is the administration developing any plans for ``orderly 
departure'' programs for the children and families who are at risk 
inside these countries, similar to the refugee admissions program or 
the in-country refugee processing that exist in a few other countries?

    Answer. The administration is considering taking additional steps 
to further deter unlawful and dangerous migration to the United States.
    To stem the flow of migrant children attempting to go to the United 
States, we are considering a small pilot project to explore whether 
children could go through a process to determine if they are eligible 
to come legally to the United States before they leave their home 
countries. Our goals remain twofold in the United States as well as in 
the region: provide an effective deterrent for illegal migration 
through criminal smuggling networks, while protecting legitimate 
humanitarian claims. Any in-country program would be governed by these 
goals.
    This is a pilot project and we expect this to be very modest in 
size. The standard to achieve refugee status is very high, and will not 
be changed. This will not be an avenue to reunite children with 
undocumented family members in the United States.
                               __________

          Responses of Ambassador Thomas Shannon to Questions 
                     Submitted by Senator Tom Udall

    Question. Long-term regional cooperation between destination and 
source countries will be required to ensure programs focused on 
stopping criminal syndicates, supporting reintegration of returnees, 
and sustaining economic growth and governance reforms are effective and 
take hold.

  <diamond> a. How will the supplemental request support high level, 
        and sustained regional cooperation?

    Answer. The Governments of El Salvador, Guatemala, and Honduras 
have reiterated their shared responsibility on this issue and desire to 
coordinate a response with the United State. The Presidents of the 
three governments expressed their political will to invest in the 
futures of their own countries; therefore, this supplemental request 
responds to the short-term humanitarian situation on the border and 
repatriation needs. It also addresses the underlying factors of 
migration to deal with the issue over the longer term. Of the total 
$300 million FY 2014 Supplemental Request, $295 million of Economic 
Support funds are distributed for economic prosperity, governance, and 
security of borders and in sending communities. The request focuses not 
only on bolstering security, but also on efforts to improve 
governments' capacity to govern, to promote economic growth, and to 
create jobs. These funds will help provide opportunities these three 
Central American economies currently lack. This supplemental request is 
a downpayment on our comprehensive approach in the region, which 
includes the sending nations, other regional partners, and 
international financial institutions. Our partner countries in Central 
America need to address the pressing citizen security, economic and 
social development issues that are the underlying causes driving 
irregular migration. The remaining $5 million of the request will 
increase our public diplomacy outreach in the region to counter the 
false messages of smuggling networks that there are immigration 
benefits in the United States for those who risk the dangerous journey 
north.

  <diamond> b. How will the State Department coordinate efforts to 
        address these issues and ensure that the ground work is laid 
        for a more comprehensive long-term approach to the region?

    Answer. The migration of these children is the result of the 
economic and social conditions in El Salvador, Guatemala, and Honduras. 
A combination of poverty, ineffective public institutions, violence, 
and crime have combined to push these children from their homes and to 
begin an arduous and dangerous journey. These issues cannot be solved 
overnight. The administration, led by the Department of State, is 
working with the Governments of El Salvador, Guatemala, Honduras, and 
Mexico to develop a comprehensive, long-term strategy to address these 
underlying factors. The Department of State works closely with the 
interagency to ensure each agency's expertise and experience is 
utilized to develop this strategy.
    The United States cannot solve these problems alone. The Presidents 
of El Salvador, Guatemala, and Honduras discussed plans for addressing 
long-term issues in Central America during their visits to Washington 
the week of July 21, including meeting with both Chambers of Congress. 
Their engagement is essential to address factors giving rise to 
migration. On July 8, President Obama submitted a supplemental budget 
request of $3.7 billion to respond to the surge in unaccompanied minors 
arriving at the U.S. Southwestern border. Of this, $300 million was 
requested for the Department of State and USAID to address the 
security, economic prosperity, and governance issues contributing to 
this situation. This request is only an initial down payment on a 
broader strategic effort to address underlying factors in Central 
America. Our embassies are already implementing plans to ramp up proven 
programs in the region. The Department of State is committed to working 
with the interagency, Congress, and our regional partners to develop 
and implement a long-term strategy for the region.
                               __________

          Responses of Ambassador Thomas Shannon to Questions 
                   Submitted by Senator John Barrasso

    Question. On June 15, 2012, the Department of Homeland Security 
(DHS) announced the rollout of the Deferred Action for Childhood 
Arrivals (DACA) policy. This new policy would allow individuals under 
the age of 31 who were brought to the United States illegally, that 
meet a certain criteria, to remain here legally.

  <diamond> Was the State Department briefed by the White House or 
        Department of Homeland Security prior to the rollout of the 
        Deferred Action for Childhood Arrivals policy?
  <diamond> Prior to the Department of Homeland Security rollout of the 
        DACA policy, was the State Department consulted or involved in 
        an interagency process to mitigate misperceptions? If the State 
        Department was involved, who was the State Department 
        representative(s) that participated?
  <diamond> Has the State Department been involved with the interagency 
        working group that has been working on Unaccompanied Children 
        (UAC) issue over the past year? If so, who was the State 
        Department representative(s) that participated?

    Answer. The administration announced the Deferred Action for 
Childhood Arrivals (DACA) program in 2012 following an extensive 
interagency process that included the Department of State.
    Eligibility under DACA is based on guidelines developed by the U.S. 
interagency, including the requirement that applicants must have been 
present in the United States on or before June 15, 2012. Before the 
announcement of DACA, these requirements were carefully discussed 
within the interagency. Following the rollout of DACA, the Departments 
of State and Homeland Security publicly reiterated that potential 
migrants would not benefit from this program.
    The Department of State--led by representatives from the Bureau of 
Western Hemisphere Affairs and the Bureau of Population, Refugees, and 
Migration--has actively participated in the stakeholders meeting on 
unaccompanied children since 2012. These meetings bring together 
interagency colleagues, faith-based organizations, and nongovernmental 
organizations to discuss the latest developments and potential 
engagement and coordination opportunities for children already in the 
United States.

    Question. According to Customs and Border Protection, the surge in 
unaccompanied children started in 2012, the same year that the 
administration rolled out the Deferred Action for Childhood Arrivals 
policy.
    2009--6,000 children;
    2010--7,000 children;
    2011--6,500 children;
    2012--13,000 children;
    2013--24,000 children;
    2014--43,000 (approximately to date from Central America).

  <diamond> Given this trend, how did the State Department not see this 
        crisis coming?
  <diamond> Did DHS engage the State Department in 2013 after the 
        number of unaccompanied children quadrupled to 24,000 children?
  <diamond> If these engagements did occur, what actions did the State 
        Department take to mitigate the flow of unaccompanied children?
  <diamond> Do you believe the State Department should have been 
        engaging the Central American governments and media outlets 
        after the surge of unaccompanied children in 2012?

    Answer. The Department of State regularly participated in the 
interagency stakeholders meeting on unaccompanied children with the 
Department of Homeland Security since 2012. The stakeholders' meeting 
includes U.S. Government agencies as well as nongovernmental and faith-
based organizations in order to develop a comprehensive perspective and 
response to this issue. As part of our engagement to promote more 
economically viable and safe communities, the Department of State works 
closely with our Central American partners to address the complex and 
systemic challenges these countries face. Slow economic growth, poor 
job creation, low investment in vocational education and training, 
increased violence, declining rural incomes, and ineffective use of 
limited public sector resources are among the various factors 
encouraging families and unaccompanied children to migrate.
    We recognized these factors as early as 2008 when we requested U.S. 
assistance to first and foremost address the security crisis in Central 
America through the Central America Regional Security Initiative 
(CARSI). Through CARSI, the United States works with partner nations to 
strengthen institutions to counter the effects of organized crime and 
street gangs, uphold the rule of law, and protect human rights. CARSI 
prevention programs dissuade at-risk youth from turning to crime and 
community policing programs facilitate trust between police and 
community members to enhance neighborhood safety.
    The United States promotes regional economic growth, infrastructure 
modernization, and collaboration. Millennium Challenge Corporation 
(MCC) programs in Honduras and El Salvador focused on improving 
infrastructure and market access. In addition, Honduras is engaged in 
an MCC threshold program to improve its efficiency and transparency in 
providing public services. Pathways to Prosperity in the Americas, the 
Small Business Network of the Americas, Women's Entrepreneurship in the 
Americas (WEAmericas), La Idea, 100,000 Strong in the Americas, and 
Feed the Future are Department of State or USAID initiatives designed 
to provide critical economic, educational, and commercial 
opportunities.
    Public affairs officers at U.S. embassies in the region 
continuously communicate direct messaging about the facts of U.S. 
immigration policy, and consult with host governments on public service 
announcement campaigns to stem the flow of unaccompanied minors to the 
United States.

    Question. State Department's Consultations with Central American 
Countries.--In 2012 and 2013, did the State Department engage the 
governments Honduras, El Salvador, and Guatemala in a campaign to 
inform Central American families that their children will not qualify 
for the Deferred Action for Childhood Arrivals policy?

    Answer. When the Deferred Action for Childhood Arrivals (DACA) 
policy was announced in 2012, the U.S. Government continually 
publicized the requirements for eligibility. Specifically, the 
administration emphasized the essential requirement that applicants 
must have been present in the United States on June 15, 2012. In 
addition to U.S.-based statements on DACA eligibility, the Department 
of State--through our embassies in the region--continuously 
communicates direct messaging about the facts of U.S. immigration 
policy and consults with host governments on public service 
announcement campaigns to stem the flow of unaccompanied minors to the 
United States. The Department of Homeland Security led two sessions in 
2012 on DACA with foreign embassy staff based in Washington.

    Question. This week, an El Paso Intelligence Center (EPIC) 
intelligence assessment dated July 7, 2014, was leaked to press. The 
report cites a U.S. Border patrol survey from May that interviewed 230 
migrants. This assessment concludes that the driving factor behind the 
surge in unaccompanied children crossing the border is the 
``misperception of recent U.S. immigration policies'' such as the 
Deferred Action for Childhood Arrivals policy. Meanwhile this 
administration has been primarily blaming the border crisis on gang 
violence in Honduras, El Salvador, and Guatemala.

  <diamond> Do you agree with the El Paso Intelligence Center 
        assessment that the misperception of DACA is a principle factor 
        in the increase unaccompanied children migration?
  <diamond> Does the State Department have a presence at the El Paso 
        Intelligence Center?
  <diamond> Do you believe the State Department has achieved its 
        mission of promoting U.S. policy?

    Answer. We are aware of the El Paso Intelligence Center (EPIC) 
assessment regarding the impact that misperception of U.S. immigration 
policies and benefits has on potential migrants. EPIC houses a number 
of different U.S. agencies, including the Department of State.
    The majority of the children who arrive at the U.S. southern border 
reports migrating for more than one reason. Violence is one of the 
underlying factors that contributes to the surge of unaccompanied 
children arriving in the United States from Central America. Weak 
governance and lack of economic and educational opportunity are other 
contributing factors to out-migration. The prospect of family 
reunification and misinformation spread by smuggling organizations 
about potential immigration benefits in the United States are also 
factors that can influence parents' decisions to send their children to 
the United States as well as the minor's decision to emigrate. 
Smuggling organizations have spread false messages that incorrectly 
promise immigration benefits.
    Public messaging campaigns, led by our embassies in coordination 
with the Governments of El Salvador, Guatemala, Honduras, and Mexico, 
have helped create a dynamic debate about illegal migration that 
undermines efforts by smugglers to entice young people and their 
parents into migration through misinformation. The messages of these 
campaigns have been reiterated in public comments from U.S. officials--
including the President--urging parents not to send their children on 
this dangerous journey and underscoring that they will not be eligible 
for DACA or DREAM Act benefits if they reach the United States.

    Question. Violence in Central America is not a new phenomenon but 
yet this administration continues to blame the surge of unaccompanied 
children on gang violence in Honduras, El Salvador, and Guatemala. 
There is no question that violence in Central America is a contributing 
factor but it is not the root cause for the crisis on our border. 
Honduras, El Salvador, and Guatemala have all decreased their murder 
rates.

  <diamond> If the Honduran murder rate went down from 91.4 per 100,000 
        in 2011 to 80 per 100,000 in 2013, why does the surge of UACs 
        continue?
  <diamond> Do you agree with the El Paso Intelligence Center 
        assessment that murder rates in Central America are not the 
        principle factor increasing Unaccompanied Children migration?
  <diamond> What is the assessment of the State Department Bureau of 
        Intelligence and Research on the root cause for the spike in 
        Unaccompanied Children crossing the U.S. border?

    Answer. The Department of State shares your belief that violence is 
only one of the underlying factors that contribute to the surge of 
unaccompanied children arriving in the United States from Central 
America; there is no one primary cause driving the flow. Weak 
governance and lack of economic and educational opportunity are among 
other factors that contribute to out-migration. U.S. foreign assistance 
can enhance our cooperation with Central American countries in these 
areas. Many migrants are also motivated by the potential prospects of 
family reunification and better education or drawn by misinformation 
about United States immigration policy. The Department is engaged with 
governments and media outlets in El Salvador, Guatemala, and Honduras 
on public service announcement campaigns and public diplomacy outreach 
to correct these misperceptions about immigration policy.
    Although homicide statistics in Central America decreased slightly, 
the rates continue to be among the highest in the world. According to 
United Nations statistics from 2012--the latest figures publicly 
available--the murder rate faced by Hondurans citizens is 14.6 times 
the global average of 6.2 per 100,000. In addition to high homicide 
rates, gangs, extortion, poverty, food insecurity, and impunity are 
pervasive in these countries and contribute to the flow of migrants.

    Question. Media Campaigns.--The State Department as part of the 
supplemental appropriations request has asked for only $600,000 for 
media campaigns in Mexico, Guatemala, El Salvador, and Honduras. This 
campaign will focus on the dangers of the journey for unaccompanied 
children. We know the major pull factor for unaccompanied children is 
the misperception that they will be able to stay here legally.

  <diamond> Why is this media campaign not focusing on the fact these 
        children cannot stay here legally?
  <diamond> Of the $5 million requested by the President, how much 
        money is actually going toward a media campaign?
  <diamond> Is this enough money to effectively deter parents from 
        sending their children across the border?

    Answer. Our public awareness campaigns promote facts about 
deportation proceedings and U.S. immigration laws to dispel the belief 
children can benefit from misinformation about U.S. immigration 
policies, and to inform parents who are considering sending their 
children, that their children will not be allowed to remain in the 
United States.
    U.S. Ambassadors, Embassy public affairs officers, and other U.S. 
officials are active in local media to discuss the facts and emphasize 
both dangers of the journey to the United States and the lack of legal 
immigration benefits for those making the trip. To augment that media 
activity with widely disseminated U.S.-branded public service 
announcement campaigns, including in indigenous languages, we would 
dedicate $1.6 million of the supplemental request to increase targeted 
messaging, focusing on Facebook (bought ads and content placement), 
leveraging the U.S. Customs and Border Patrol-produced public service 
announcements, host country government campaigns, and locally produced, 
U.S.-branded messaging.
    The supplemental request is a downpayment on a more comprehensive, 
longer term Central America strategy keyed to our vision of an 
economically integrated Central America that provides economic 
opportunities to its people; is more democratic, accountable, 
transparent, and has effective public institutions; and offers a safe 
environment for its citizens to build their lives in peace and 
stability. The United States cannot solve these problems alone. We 
expect the Central American governments to provide complementary 
financial and political commitments to address the factors driving 
migration.
                               __________

        Statement Submitted by AFL-CIO President Richard Trumka

    (Washington, DC) The humanitarian crisis of families and children 
fleeing violence in Central America and turning themselves in to U.S. 
Border Patrol agents has brought out both the best and the worst in our 
nation.
    Alarmingly, in places like Murrieta, California, and Vassar, 
Michigan, we have seen ugly reminders of racism and hatred directed 
toward children. The spewing of nativist venom, the taking up of arms 
and the fear-mongering about crime and disease harken back to dark 
periods in our history and have no business taking place under the 
banner of our flag.
    On the other hand, around the country we have also seen a 
tremendous outpouring of compassion and concern for the plight of these 
women and children. We are proud to say that local unions have joined 
with faith and community groups to collect needed supplies, provide 
shelter and support, and call for humane treatment.
    The situation along the border is a refugee crisis that requires a 
humane, lawful response and must not be politicized. The labor movement 
calls upon national and community leaders to respond to the crisis in a 
manner that meets our obligations under U.S. and international law, and 
comports with basic human rights and American values. This means 
ensuring full due process and providing the additional resources 
necessary to ensure the well-being and fair treatment of children and 
refugees. It also requires taking an honest assessment of the root 
causes of the crisis, including the long-term impact of U.S. policies 
on immigration, trade, and foreign affairs.
    We cannot lend credibility to Republican assertions that a refugee 
crisis is proof that we should continue to deport hard working people 
who have been contributing members of our society for years. These are 
simply new excuses to justify failed policies. Lifting the pressure on 
immigrant workers was needed before the child refugee story developed, 
and it is no less urgent today. The Administration must act now to keep 
all families together, uphold our standards as a humanitarian nation, 
and advance the decent work agenda necessary to improve conditions both 
at home and abroad.
                               __________

                     Child Migrants, Alone in Court

                  [The New York Times, Apr. 10, 2013]
                           (By Sonia Nazario)
    LOS ANGELES--Belkis Rivera, 14 years old, sat in the Los Angeles 
immigration courtroom, in a black coat and purple scarf, shaking with 
fear.
    When Belkis was 6, the gang that controlled her neighborhood in San 
Pedro Sula, Honduras, killed her grandmother and then her uncle, and 
demanded that her brothers join as lookouts. Belkis's mother took the 
boys and fled to the United States, leaving Belkis behind with family. 
When the gang started stalking and threatening Belkis, then 13, she 
followed, making the terrifying six-month journey across Mexico by 
herself. She was caught by the Border Patrol last September, while 
crossing into the United States.
    Now she faced one more trauma: America's judicial system.
    In a nation that prides itself on the fact that everyone accused of 
a crime--murderers, rapists--has the right to a lawyer, undocumented 
immigrants, even when they are unaccompanied children, are not entitled 
to a public defender. Although some children are represented by pro 
bono lawyers or, for the few whose families can afford it, private 
lawyers, it's estimated that more than half of them go to court alone. 
These children--some as young as 2 years old--have no one to help them 
make the case that they should not be deported.
    The issue is gaining urgency. While the overall number of 
apprehensions of immigrants unlawfully entering the country is at a 40-
year low, the number of children coming illegally and alone is surging, 
largely as a result of increasing drug-fueled violence in Central 
America, particularly Guatemala, Honduras and El Salvador. One in 13 
people caught by the Border Patrol last fiscal year were under 18. 
Seventeen percent of them were 13 or younger. Close to 14,000 minors, 
twice as many as the previous year, were placed in federal custody. 
(This figure doesn't include an equal number of Mexican children who 
were quickly deported.)
    Many of these children have a legitimate fear of what could happen 
to them if they are sent back to their home countries. A recent study 
by the Vera Institute of Justice, a nonprofit group, showed that 40 
percent of unaccompanied children potentially qualify for statuses that 
exempt them from deportation. Among the most likely possibilities: 
asylum, because they fear persecution in their home country, or a 
special immigrant juvenile status for children abused or abandoned by a 
parent.
    And yet, while more recent legislation has improved the odds, only 
around 7 percent of those who were placed in federal custody between 
2007 and 2009, and who had received a ruling by mid-2010, were winning 
their cases. Not surprisingly, those with legal representation were 
nearly nine times more likely to win.
    In court, these children are up against trained government lawyers. 
They must testify under oath, file supporting documents and navigate 
the complexities of immigration law, with no knowledge of the country's 
language or customs, and often with only the help of a translator. 
Children in the courtroom often seem confused and frightened. Staff 
members with Kids in Need of Defense, or KIND, a group whose board I 
serve on and the principal provider of pro bono lawyers for these 
children, told me of a boy in Los Angeles who carried his teddy bear 
for comfort and a toddler in a Texas courtroom who wet his pants when 
he faced the judge.
    Most immigrant children come to reunite with family members, and 
are released to those families while their hearings proceed. But many 
are also fleeing harm.
    Take Estefany Aracely Climaco Acosta, who left El Salvador at 12 to 
join her mother in Los Angeles. When Estefany was 10, an uncle arrived 
one morning at the mud hut the girl shared with her grandmother and 
other relatives. The uncle knew that only Estefany was home at that 
hour. He tied her hands behind her back and raped her. She screamed, 
but the hut was in an isolated spot. ``No one could hear me,'' she 
said, of the rapes she endured for two years. A KIND pro bono lawyer 
took her case and she was granted asylum last August.
    Wilmer Villalobos Ortiz was orphaned in Honduras when he was 8. He 
was left with an abusive aunt, who whipped him with an electrical cord 
and forced him to quit school in the seventh grade. She put him to work 
17 hours a day at her pool hall and bar, where the patrons included 
members of the 18th Street gang, who targeted him as ripe for 
recruitment. When he was 14, they asked him to join, and then they 
threatened him. ``We will kill you,'' one of them said, putting a knife 
to Wilmer's stomach. ``You are either with us, or against us.'' They 
did worse things to him that Wilmer won't discuss.
    In 2008, when he was 15, Wilmer escaped, heading to the United 
States. He spent a month and a half riding on top of freight trains to 
get through Mexico. He saw members of the Zeta narco-traffickers stop 
his train, club a woman unconscious and snatch her young son from her 
arms. Another time, he saw a boy his age stumble getting on a moving 
train and heard his screams as the boy's legs were cut off by the 
wheels.
    He was caught by the Border Patrol after crossing the Rio Grande 
into Texas. He spent a year in two detention centers for children 
before landing in a group foster home in Arlington, Mass., where he 
attended high school while his deportation case proceeded.
    His case was taken on by Daniel White of Goodwin Procter, a 
volunteer lawyer with KIND who normally handles transactional corporate 
law. He showed Wilmer what would happen in court, what questions would 
be asked, what to say. Last spring, Wilmer got his green card, after 
winning the right to stay in the United States.
    Wilmer is luckier than most--each day, immigration courtrooms are 
filled with children who have no lawyer to represent them, and whose 
stories we rarely hear. These children share one constant: their 
suffering doesn't end when they cross the border.
    UNDER normal circumstances, the Border Patrol is supposed to 
transfer captured children out of its holding cells and into the 
custody of Health and Human Services' Office of Refugee Resettlement 
within 72 hours. But last year children were held for up to two weeks 
in Border Patrol cells with no windows to the outside, showers or 
recreation space, according to a report by the Women's Refugee 
Commission based on interviews with 151 detained children. Some 
complained of inadequate food and water. One described a cell so 
crowded the children had to take turns lying down on the concrete floor 
to sleep. The lights were never turned off.
    These children need our help. In recent years KIND has recruited 
more than 5,000 lawyers. But they are still only able to triage their 
limited resources; we need far more volunteers, and more law firms 
willing to count pro bono work toward lawyers' billable hours.
    Pro bono lawyers are only part of the solution. These children need 
public defenders who are experts in immigration law. Congress should 
include money to hire lawyers for all unaccompanied minors as part of 
any comprehensive immigration reform. Yes, these children broke the law 
coming to this country, but if deporting them will put them in danger, 
they deserve a fair hearing in our courts, something anyone, especially 
a child, cannot get without a lawyer.
    Ana Suruy wants every child to have the help she believes saved her 
life. In Guatemala, a drug trafficking cartel targeted Ana's mother for 
extortion. When the cartel threatened to kidnap her family, Ana's 
mother agreed to pay. But it wasn't enough; the cartel poisoned the 
family's dog and cat, and twisted the necks of their flock of ducks. A 
man left a threatening note one day under their door, singling out Ana, 
then 13 years old, for harm. Her mother, terrified, called the police, 
and then put Ana in the hands of a smuggler to take her north.
    Ana made six attempts to cross into the United States. She was 
robbed at gunpoint, abandoned by a smuggler, saw dead migrants in the 
Arizona desert, and spent two days walking with no food or water, 
before the Border Patrol caught her and put her in a detention center 
in Phoenix. After three months, she was released to a cousin on Long 
Island. He went with Ana to her first court hearing. People had warned 
Ana that without a lawyer she didn't stand a chance, but her relatives, 
landscapers making minimum wage, had no money to spare.
    ``I had so much fear,'' Ana said. ``I didn't want to go back to 
Guatemala.'' The man who wrote the threatening note had somehow 
obtained her cellphone number and was calling, saying he knew where she 
went to school in New York, and making sexually suggestive sounds. As 
she waited in the hallway of the Manhattan courtroom for the judge to 
summon her, KIND's local pro bono coordinator came up and asked if she 
needed a lawyer.
    Five lawyers from the firm Paul Hastings in New York would tag-team 
her representation over four years. They obtained Guatemalan police 
reports, hired an expert to testify on narco-threats and prepared Ana 
for what felt to her like a sustained grilling.
    Last December, Ana, then 19, was granted asylum. Without a lawyer, 
she would most likely have been deported, like so many others. That 
could be the fate of Belkis Rivera, who has to return to court in Los 
Angeles this summer. Her mother works at a nail polish factory, and 
can't afford $3,500 for a private lawyer. Now a seventh grader, Belkis 
will have no one to stand beside her.
    On Wednesday, thousands of supporters of immigration reform rallied 
in Washington, while opponents of the measure tried to shout them down. 
People can be of different minds on the immigration issue and how to 
handle it, said Justin Goggins, one of Ana's lawyers. But this is one 
aspect we ought to be able to agree on. Federal officials are 
predicting that the number of unaccompanied minors crossing the border 
illegally will jump by around 70 percent in this fiscal year. ``At the 
end of the day,'' Mr. Goggins said, ``no kid should be out there to 
defend themselves in this situation with no voice.''
                               __________

           The Children of the Drug Wars--A Refugee Crisis, 
                       Not an Immigration Crisis

          New York Times, Sunday Review/Opinion, July 11, 2014
                           (By Sonia Nazario)
    CRISTIAN OMAR REYES, an 11-year-old sixth grader in the 
neighborhood of Nueva Suyapa, on the outskirts of Tegucigalpa, tells me 
he has to get out of Honduras soon--``no matter what.''
    In March, his father was robbed and murdered by gangs while working 
as a security guard protecting a pastry truck. His mother used the life 
insurance payout to hire a smuggler to take her to Florida. She 
promised to send for him quickly, but she has not.
    Three people he knows were murdered this year. Four others were 
gunned down on a nearby corner in the span of two weeks at the 
beginning of this year. A girl his age resisted being robbed of $5. She 
was clubbed over the head and dragged off by two men who cut a hole in 
her throat, stuffed her panties in it, and left her body in a ravine 
across the street from Cristian's house.
    ``I'm going this year,'' he tells me.
    I last went to Nueva Suyapa in 2003, to write about another boy, 
Luis Enrique Motino Pineda, who had grown up there and left to find his 
mother in the United States. Children from Central America have been 
making that journey, often without their parents, for two decades. But 
lately something has changed, and the predictable flow has turned into 
an exodus. Three years ago, about 6,800 children were detained by 
United States immigration authorities and placed in federal custody; 
this year, as many as 90,000 children are expected to be picked up. 
Around a quarter come from Honduras--more than from anywhere else.
    Children still leave Honduras to reunite with a parent, or for 
better educational and economic opportunities. But, as I learned when I 
returned to Nueva Suyapa last month, a vast majority of child migrants 
are fleeing not poverty, but violence. As a result, what the United 
States is seeing on its borders now is not an immigration crisis. It is 
a refugee crisis.
    Gangs arrived in force in Honduras in the 1990s, as 18th Street and 
Mara Salvatrucha members were deported in large numbers from Los 
Angeles to Central America, joining homegrown groups like Los Puchos. 
But the dominance in the past few years of foreign drug cartels in 
Honduras, especially ones from Mexico, has increased the reach and 
viciousness of the violence. As the United States and Colombia spent 
billions of dollars to disrupt the movement of drugs up the Caribbean 
corridor, traffickers rerouted inland through Honduras, and 79 percent 
of cocaine-smuggling flights bound for the United States now pass 
through there.
    Narco groups and gangs are vying for control over this turf, 
neighborhood by neighborhood, to gain more foot soldiers for drug sales 
and distribution, expand their customer base, and make money through 
extortion in a country left with an especially weak, corrupt government 
following a 2009 coup.
    Enrique's 33-year-old sister, Belky, who still lives in Nueva 
Suyapa, says children began leaving en masse for the United States 
three years ago. That was around the time that the narcos started 
putting serious pressure on kids to work for them. At Cristian's 
school, older students working with the cartels push drugs on the 
younger ones--some as young as 6. If they agree, children are recruited 
to serve as lookouts, make deliveries in backpacks, rob people and 
extort businesses. They are given food, shoes and money in return. 
Later, they might work as traffickers or hit men.
    Teachers at Cristian's school described a 12-year-old who demanded 
that the school release three students one day to help him distribute 
crack cocaine; he brandished a pistol and threatened to kill a teacher 
when she tried to question him.
    At Nueva Suyapa's only public high school, narcos ``recruit inside 
the school,'' says Yadira Sauceda, a counselor there. Until he was 
killed a few weeks ago, a 23-year-old ``student'' controlled the 
school. Each day, he was checked by security at the door, then had 
someone sneak his gun to him over the school wall. Five students, 
mostly 12- and 13-year-olds, tearfully told Ms. Sauceda that the man 
had ordered them to use and distribute drugs or he would kill their 
parents. By March, one month into the new school year, 67 of 450 
students had left the school.
    Teachers must pay a ``war tax'' to teach in certain neighborhoods, 
and students must pay to attend.
    Carlos Baquedano Sanchez, a slender 14-year-old with hair sticking 
straight up, explained how hard it was to stay away from the cartels. 
He lives in a shack made of corrugated tin in a neighborhood in Nueva 
Suyapa called El Infiernito--Little Hell--and usually doesn't have 
anything to eat one out of every three days. He started working in a 
dump when he was 7, picking out iron or copper to recycle, for $1 or $2 
a day. But bigger boys often beat him to steal his haul, and he quit a 
year ago when an older man nearly killed him for a coveted car-engine 
piston. Now he sells scrap wood.
    But all of this was nothing, he says, compared to the relentless 
pressure to join narco gangs and the constant danger they have brought 
to his life. When he was 9, he barely escaped from two narcos who were 
trying to rape him, while terrified neighbors looked on. When he was 
10, he was pressured to try marijuana and crack. ``You'll feel better. 
Like you are in the clouds,'' a teenager working with a gang told him. 
But he resisted.
    He has known eight people who were murdered and seen three killed 
right in front of him. He saw a man shot three years ago and still 
remembers the plums the man was holding rolling down the street, coated 
in blood. Recently he witnessed two teenage hit men shooting a pair of 
brothers for refusing to hand over the keys and title to their 
motorcycle. Carlos hit the dirt and prayed. The killers calmly walked 
down the street. Carlos shrugs. ``Now seeing someone dead is nothing.''
    He longs to be an engineer or mechanic, but he quit school after 
sixth grade, too poor and too afraid to attend. ``A lot of kids know 
what can happen in school. So they leave.''
    He wants to go to the United States, even though he knows how 
dangerous the journey can be; a man in his neighborhood lost both legs 
after falling off the top of a Mexican freight train, and a family 
friend drowned in the Rio Grande. ``I want to avoid drugs and death. 
The government can't pull up its pants and help people,'' he says 
angrily. ``My country has lost its way.''
    Girls face particular dangers--one reason around 40 percent of 
children who arrived in the United States this year were girls, 
compared with 27 percent in the past. Recently three girls were raped 
and killed in Nueva Suyapa, one only 8 years old. Two 15-year-olds were 
abducted and raped. The kidnappers told them that if they didn't get in 
the car they would kill their entire families. Some parents no longer 
let their girls go to school for fear of their being kidnapped, says 
Luis Lopez, an educator with Asociacion Compartir, a nonprofit in Nueva 
Suyapa.
    Milagro Noemi Martinez, a petite 19-year-old with clear green eyes, 
has been told repeatedly by narcos that she would be theirs--or end up 
dead. Last summer, she made her first attempt to reach the United 
States. ``Here there is only evil,'' she says. ``It's better to leave 
than have them kill me here.'' She headed north with her 21-year-old 
sister, a friend who had also been threatened, and $170 among them. But 
she was stopped and deported from Mexico. Now back in Nueva Suyapa, she 
stays locked inside her mother's house. ``I hope God protects me. I am 
afraid to step outside.'' Last year, she says, six minors, as young as 
15, were killed in her neighborhood. Some were hacked apart. She plans 
to try the journey again soon. Asking for help from the police or the 
government is not an option in what some consider a failed state. The 
drugs that pass through Honduras each year are worth more than the 
country's entire gross domestic product. Narcos have bought off police 
officers, politicians and judges. In recent years, four out of five 
homicides were never investigated. No one is immune to the carnage. 
Several Honduran mayors have been killed. The sons of both the former 
head of the police department and the head of the national university 
were murdered, the latter, an investigation showed, by the police.
    ``You never call the cops. The cops themselves will retaliate and 
kill you,'' says Henry Carias Aguilar, a pastor in Nueva Suyapa. A 
majority of small businesses in Nueva Suyapa have shuttered because of 
extortion demands, while churches have doubled in number in the past 
decade, as people pray for salvation from what they see as the plague 
predicted in the Bible. Taxis and homes have signs on them asking God 
for mercy.
    The United Nations High Commissioner for Refugees recently 
interviewed 404 children who had arrived in the United States from 
Honduras, El Salvador, Guatemala and Mexico; 58 percent said their 
primary reason for leaving was violence. (A similar survey in 2006, of 
Central American children coming into Mexico, found that only 13 
percent were fleeing violence.) They aren't just going to the United 
States: Less conflicted countries in Central America had a 712 percent 
increase in asylum claims between 2008 and 2013.
    ``If a house is burning, people will jump out the window,'' says 
Michelle Brane, director of the migrant rights and justice program at 
the Women's Refugee Commission.
    To permanently stem this flow of children, we must address the 
complex root causes of violence in Honduras, as well as the demand for 
illegal drugs in the United States that is fueling that violence.
    In the meantime, however, we must recognize this as a refugee 
crisis, as the United Nations just recommended. These children are 
facing threats similar to the forceful conscription of child soldiers 
by warlords in Sudan or during the civil war in Bosnia. Being forced to 
sell drugs by narcos is no different from being forced into military 
service.
    Many Americans, myself included, believe in deporting unlawful 
immigrants, but see a different imperative with refugees.
    The United States should immediately create emergency refugee 
centers inside our borders, tent cities--operated by the United Nations 
and other relief groups like the International Rescue Committee--where 
immigrant children could be held for 60 to 90 days instead of being 
released. The government would post immigration judges at these centers 
and adjudicate children's cases there.
    To ensure this isn't a sham process, asylum officers and judges 
must be trained in child-sensitive interviewing techniques to help 
elicit information from fearful, traumatized youngsters. All children 
must also be represented by a volunteer or government-funded lawyer. 
Kids in Need of Defense, a nonprofit that recruits pro bono lawyers to 
represent immigrant children and whose board I serve on, estimates that 
40 percent to 60 percent of these children potentially qualify to stay 
under current immigration laws--and do, if they have a lawyer by their 
side. The vast majority do not. The only way to ensure we are not 
hurtling children back to circumstances that could cost them their 
lives is by providing them with real due process.
    Judges, who currently deny seven in 10 applications for asylum by 
people who are in deportation proceedings, must better understand the 
conditions these children are facing. They should be more open to 
considering relief for those fleeing gang recruitment or threats by 
criminal organizations when they come from countries like Honduras that 
are clearly unwilling or unable to protect them.
    If many children don't meet strict asylum criteria but face 
significant dangers if they return, the United States should consider 
allowing them to stay using humanitarian parole procedures we have 
employed in the past, for Cambodians and Haitians. It may be possible 
to transfer children and resettle them in other safe countries willing 
to share the burden. We should also make it easier for children to 
apply as refugees when they are still in Central America, as we have 
done for people in Iraq, Cuba, countries in the former Soviet Union, 
Vietnam and Haiti. Those who showed a well-founded fear of persecution 
wouldn't have to make the perilous journey north alone.
    Of course, many migrant children come for economic reasons, and not 
because they fear for their lives. In those cases, they should quickly 
be deported if they have at least one parent in their country of 
origin. By deporting them directly from the refugee centers, the United 
States would discourage future non-refugees by showing that immigrants 
cannot be caught and released, and then avoid deportation by ignoring 
court orders to attend immigration hearings.
    Instead of advocating such a humane, practical approach, the Obama 
administration wants to intercept and return children en route. On 
Tuesday the president asked for $3.7 billion in emergency funding. Some 
money would be spent on new detention facilities and more immigration 
judges, but the main goal seems to be to strengthen border control and 
speed up deportations. He also asked Congress to grant powers that 
could eliminate legal protections for children from Central America in 
order to expedite removals, a change that Republicans in Congress have 
also advocated.
    This would allow life-or-death decisions to be made within hours by 
Homeland Security officials, even though studies have shown that border 
patrol agents fail to adequately screen Mexican children to see if they 
are being sexually exploited by traffickers or fear persecution, as the 
agents are supposed to do. Why would they start asking Central American 
children key questions needed to prove refugee status?
    The United States expects other countries to take in hundreds of 
thousands of refugees on humanitarian grounds. Countries neighboring 
Syria have absorbed nearly 3 million people. Jordan has accepted in two 
days what the United States has received in an entire month during the 
height of this immigration flow--more than 9,000 children in May. The 
United States should also increase to pre-9/11 levels the number of 
refugees we accept to 90,000 from the current 70,000 per year and, 
unlike in recent years, actually admit that many.
    By sending these children away, ``you are handing them a death 
sentence,'' says Jose Arnulfo Ochoa Ochoa, an expert in Honduras with 
World Vision International, a Christian humanitarian aid group. This 
abrogates international conventions we have signed and undermines our 
credibility as a humane country. It would be a disgrace if this wealthy 
nation turned its back on the 52,000 children who have arrived since 
October, many of them legitimate refugees.
    This is not how a great nation treats children.
                               __________

 Eligibility for Deferred Action, U.S. Department of Homeland Security
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________

                       Few Children Are Deported

                   Wall Street Journal, July 11, 2014
                   (By Laura Meckler and Ana Compoy)
    Thousands of children from Central America are undertaking a 
perilous journey to the U.S. border despite warnings from the U.S. that 
they will be sent back. In fact, many will get to stay.
    Data from immigration courts, along with interviews with the 
children and their advocates, show that few minors are sent home and 
many are able to stay for years in the U.S., if not permanently. That 
presents a deep challenge for President Barack Obama and lawmakers as 
they try to shore up an overburdened deportation system.
    In fiscal year 2013, immigration judges ordered 3,525 migrant 
children to be deported, according to Justice Department figures. 
Judges allowed an additional 888 to voluntarily return home without a 
formal removal order.
    Those figures pale in comparison with the number of children 
apprehended by the border patrol. In each of the last five years, at 
least 23,000 and as many as 47,000 juveniles have been apprehended. 
Those totals include Mexicans, who often are sent home without formal 
deportation proceedings and so may not be among those ordered removed 
last year.
    There are many reasons children end up staying. Some see their 
cases linger in backlogged courts and administrative proceedings. Some 
win the legal right to remain in the U.S. And some ignore orders to 
appear in court.
    Children who enter the U.S. illegally often are trying to reunite 
with family members or escaping gang violence and poverty. The U.S. has 
been overwhelmed finding shelters for them, and Mr. Obama has 
repeatedly said that they won't be allowed to stay. But the reality on 
the ground--that so few are returned to their home countries--will 
continue to encourage more to make the journey north, said Doris 
Meissner, director of the Immigration Policy Program at the nonpartisan 
Migration Policy Institute.
    ``They're here, and they're staying, and whatever else might happen 
to them is at least a year or more away,'' said Ms. Meissner, a former 
Immigration and Naturalization Service commissioner. ``Until people's 
experience changes, more are going to continue to come, because they're 
achieving what they need: safety and reunification with their 
families.''
    Last fiscal year, immigration judges reached a decision in 6,437 
juvenile cases, according to the court data. About two-thirds of the 
minors were ordered deported or allowed to leave the country 
voluntarily, and 361 were given legal status. In most other cases, the 
judge terminated the case, meaning the child wasn't ordered out of the 
U.S. but wasn't given explicit permission to stay, either.
    Separate data from the Department of Homeland Security show that in 
fiscal 2013, about 1,600 children were actually returned to their home 
countries--less than half the number who were ordered removed--
suggesting that some are evading deportation orders.
    The head of the immigration court system told a Senate hearing this 
week that 46% of juveniles failed to appear at their hearings between 
the start of the 2014 fiscal year last Oct. 1 and the end of June. And 
court figures show that last year, more than 2,600 out of about 6,400 
orders were entered without the juvenile present--in absentia.
    Simply reaching a decision in these cases can take years, and the 
backlog is growing worse. As of June 30, there were 41,832 pending 
juvenile cases, up from about 30,000 nine months earlier. In some 
jurisdictions, it is common for court dates to be set two or three 
years out.
    Most illegal border crossers are adults, children traveling with 
adults, or juveniles from Mexico. Their cases tend to be heard quickly, 
and most are immediately sent back to their home countries.
    The current crisis at the border is due to a different set of 
illegal immigrants, unaccompanied minors from Central America. The long 
delays largely can be traced to a 2008 federal law that requires cases 
involving children traveling alone from countries other than Mexico and 
Canada be heard in immigration court. The wait can stretch to several 
years for a decision, even in a straightforward case.
    The vast majority of these children are placed with family members 
in the U.S. while the proceedings unfold, but first they must travel 
through facilities run by two different government agencies, which 
further extends the process.
    On top of that, judges often delay cases repeatedly to give the 
children time to find legal representation. Just 15% of some 21,000 
children sheltered by the Department of Health and Human Services 
between August 2012 and July 2013 were matched with attorneys while in 
government custody, an HHS spokesman said.
    Helen Cruz, 16, said gang violence in her home of Tegucigalpa. 
Honduras, pushed her to make the 1,900-mile trek to the Texas border 
with her 17-year-old sister.
    More than seven months after she arrived, Ms. Cruz's legal 
proceedings have barely begun. Her first court appearance is scheduled 
for August, and it could take another year or more for her case to be 
adjudicated, said Wendi Adelson, a professor at the Florida State 
University College of law who is representing her pro bono.
    Her August hearing will likely be a short affair to inform the 
judge she plans to apply for special immigrant juvenile status, a 
process that could take many months. That will require Ms. Cruz to 
obtain an order from state juvenile court stating that she has been 
abandoned by her father and it isn't in her best interest to return to 
Honduras. She then will need to file an application with the U.S. 
Citizen and Immigration Service, where the number of pending special 
immigrant juvenile status cases ballooned to 702 in the year ending 
September 2013 from 47 during the same period in 2011, agency 
statistics show.
    ``Sometimes I feel like going back, but I'm in danger over there'' 
from gang violence, Ms. Cruz said. ``If I can stay here, I will get a 
chance to get an education and be able to help the people I love back 
home.''
    Under U.S. rulings, threat of gang violence by itself doesn't 
qualify someone for asylum. Nor does economic hardship at home qualify 
someone for legal status in the U.S.
    At the same time, the U.S. sometimes is unable or unwilling to 
return children who have been ordered removed. So far, that is a small 
problem, one official said, but it is likely to grow as the U.S. seeks 
to return many more youths to their home countries. ``We just want to 
make sure that kids don't fall through the cracks,'' a senior 
administration official said. ``You can't send them back without making 
sure there's a system in place that makes sure they don't wind up in an 
unsafe environment.''
    Because of court backlogs, most of the 2013 court and deportation 
data represent cases of children who arrived in earlier years. One 
explanation for the low deportation figures is that people apprehended 
as juveniles turn 18 during the course of court proceedings and so 
become counted as adults. Deportation figures also don't include 
Mexican youth who are turned around at the border each year.
    Some children are able to stay because they qualify for asylum or 
special visas given to victims of crime or human trafficking. Advocates 
say that a robust court system is necessary to be sure those claims are 
properly considered.
    The White House has proposed modifying the 2008 law to speed up 
deportation cases for Central American children. This week it sent 
Congress a $3.7 billion plan that would add more detention facilities 
and immigration judges, and help Central American countries repatriate 
children.
                               __________

                Number of Aliens Removed and Returned During  the Bush and Obama Administrations
----------------------------------------------------------------------------------------------------------------
                         Year                                    Removals\1\       Returns\2\         Total
----------------------------------------------------------------------------------------------------------------
2001                                                                  189,026        1,349,371        1,538,397
2002                                                                  165,168        1,012,116        1,177,284
2003                                                                  211,098          945,294        1,156,392
2004                                                                  240,665        1,166,576        1,407,241
----------------------------------------------------------------------------------------------------------------
 Bush First Term                                                      805,957        4,473,357        5,279,314
----------------------------------------------------------------------------------------------------------------
2005                                                                  246,431        1,096,920        1,343,351
2006                                                                  280,974        1,043,381        1,324,355
2007                                                                  319,382          891,390        1,210,772
2008                                                                  359,795          811,263        1,171,058
----------------------------------------------------------------------------------------------------------------
 Bush Second Term                                                   1,206,582        3,842,954        5,049,536
----------------------------------------------------------------------------------------------------------------
  Bush Total                                                        2,012,539        8,316,311       10,328,850
================================================================================================================
2009                                                                  391,932          582,648          974,580
2010                                                                  383,031          474,275          857,306
2011                                                                  388,409          322,164          710,573
2012                                                                  419,384          229,968          649,352
----------------------------------------------------------------------------------------------------------------
 Obama First Term                                                   1,582,756        1,609,055        3,191,811
----------------------------------------------------------------------------------------------------------------
2013                                                                  368,644              N/A          368,644
2014                                                                      N/A              N/A              N/A
----------------------------------------------------------------------------------------------------------------
 Obama Second Term                                                    368,644              N/A          368,644
----------------------------------------------------------------------------------------------------------------
  Obama Total                                                       1,951,400        1,609,055        3,560,455
================================================================================================================
   Bush and Obama Total                                             3,963,939        9,925,366       13,889,305
----------------------------------------------------------------------------------------------------------------
N/A = Not Available
\1\ Removals are the compulsory and confirmed movement of an inadmissible or deportable alien out of the United
  States based on an order of removal. An alien who is removed has administrative or criminal consequences
  placed on subsequent reentry owing to the fact of the removal.
\2\ Returns are the confirmed movement of an inadmissible or deportable alien out of the United States not based
  on an order of removal.
 Sources: 2012 Yearbook of Immigration Statistics, Office of Immigration Statistics; Annual Report, Immigration
  Enforcement Actions: 2012, December 2013, Office of Immigration Statistics, Policy Directorate; Annual Report,
  Immigration Enforcement Actions: 2013, September 2014, Office of Immigration Statistics, Policy Directorate;
  ERO Annual Report, FY 2013 ICE Immigration Removals.

                               __________

   Statement Submitted by Jana Mason, Senior Advisor for Government 
        Relations, United Nations High Commissioner for Refugees
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                  [all]
                                  
</pre></body></html>
